<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, 
             
                                 AND 

             INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000 

                                

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman


 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi         ROBERT E. ``BUD'' CRAMER, Jr.,
 ANNE M. NORTHUP, Kentucky            Alabama
 JOHN E. SUNUNU, New Hampshire 
                                                                   

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin, and Dena L. 
                                 Baron,
                            Staff Assistants

                                ________
                                 PART 7

                     ENVIRONMENTAL PROTECTION AGENCY

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-779 O                   WASHINGTON : 1999


                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania  


                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                           Tuesday, April 13, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

CAROL BROWNER, ADMINISTRATOR OF U.S. EPA
PETER ROBERTSON, ACTING DEPUTY ADMINISTRATOR
ROMULO L. DIAZ, ASSISTANT ADMINISTRATOR, OFFICE OF ADMINISTRATION AND 
    RESOURCES MANAGEMENT
TIMOTHY FIELDS, JR., ACTING ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
    WASTE AND EMERGENCY RESPONSE
J. CHARLES (CHUCK) FOX, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
DAVID GARDINER, ASSISTANT ADMINISTRATOR, OFFICE OF POLICY
GARY GUZY, ACTING GENERAL COUNSEL
SALLYANNE HARPER, CHIEF FINANCIAL OFFICER
STEVEN A. HERMAN, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT AND 
    COMPLIANCE ASSURANCE
WILLIAM A. NITZE, ASSISTANT ADMINISTRATOR, OFFICE OF INTERNATIONAL 
    ACTIVITIES
NORINE E. NOONAN, ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND 
    DEVELOPMENT
ROBERT PERCIASEPE, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND RADIATION
NIKKI L. TINSLEY, INSPECTOR GENERAL
SUSAN WAYLAND, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, 
    PESTICIDES AND TOXIC SUBSTANCES
JEANNE M. FOX, REGIONAL ADMINISTRATOR, REGION II
W. MICHAEL MCCABE, REGIONAL ADMINISTRATOR, REGION III
DIANE THOMPSON, ASSOCIATE ADMINISTRATOR, OFFICE OF CONGRESSIONAL AND 
    INTERGOVERNMENTAL RELATIONS
ALVIN M. PESACHOWITZ, DEPUTY ASSISTANT ADMINISTRATOR, CHIEF INFORMATION 
    OFFICER, OFFICE OF ADMINISTRATION AND RESOURCES MANAGEMENT
MICHAEL RYAN, COMPTROLLER
NANCI GELB, BUDGET DIRECTOR

                   Chairman Walsh's Welcoming Remarks

    Mr. Walsh. The subcommittee will come to order.
    Good morning, everyone. This morning we will begin the 
first of two days of hearings on the fiscal year budget request 
for Environmental Protection Agency. For Fiscal Year 2000, EPA 
has requested $7,206,352,000, a decrease of $383,706,000 from 
the Fiscal Year 2000 funding level.
    Testifying before the committee again this year for what is 
an unprecedented seventh time is EPA's administrator Carol M. 
Browner. Welcome.
    Ms. Browner. Thank you. I hadn't counted the full seven. 
Thank you.
    Mr. Walsh. It is remarkable. We welcome you back for what I 
am certain will be an enlightening couple of days for us, and 
in a moment I will ask you to introduce those colleagues who 
have come with you today and then give you an opportunity to 
make an oral statement. Your written statement will appear in 
full in the record.
    Before doing that, however, I would like to turn to my 
friend and ranking member, Mr. Mollohan, for any remarks that 
he would like to make. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    I would just like to welcome Ms. Browner to the committee 
today. I look forward to her testimony and look forward to 
working with her as the appropriations process moves forward.
    Mr. Walsh. Thank you.
    We also have three of our stalwart members: Mrs. Meek, Mr. 
Frelinghuysen and Mr. Knollenberg.
    Please proceed when you are ready.

               Administrator Browner's Opening Statement

    Ms. Browner. Thank you very much, Mr. Chairman.
    If I might just begin with congratulations to you and Mr. 
Mollohan for the positions that you have now assumed.
    I am very pleased to be back before this committee to 
present to you the President's fiscal year 2000 budget request 
for the Environmental Protection Agency. It is a $7.2 billion 
request, and it allows us at EPA to continue this 
administration's efforts and commitment to protecting public 
health and the environment and to provide very important 
dollars to States and communities through new, innovative 
funding tools so that they can do their part to build strong, 
healthy communities for the 21st century.
    Just briefly, if I might explain who is accompanying me 
here today, Sallyanne Harper is the Agency's Chief Financial 
Officer. And, Mr. Chairman, if I might just take a moment to 
brag a little bit, Sallyanne Harper has just won a very 
prestigious award from the Joint Financial Management 
Improvement Program.
    Now I know that sounds like a lot of gobbledygook, but here 
is the long and short of it: This organization picks three 
people across the United States, financial managers, one in 
Federal government, one in State government, one in local 
government, to honor for their good work. And Sallyanne Harper 
with us at EPA is the Federal government's honoree this year. 
She was the person picked from the entire Federal government to 
win this award. We are very proud to have her at the EPA and 
very proud of all the work she does.
    Mr. Walsh. On behalf of the subcommittee, let me just 
extend our heartiest congratulations to you for an award well 
deserved. It is a remarkable achievement. That is going to look 
great on your resume.
    Ms. Browner. She keeps our books very well. It is the good 
news for you and the American people.
    Mr. Walsh. We are delighted you are keeping your books in 
good shape. There is nothing that undermines the faith of 
people in government worse than shoddy bookkeeping, and it 
always come out sooner or later. So, thank you, 
congratulations.
    Ms. Harper. Thank you.
    Ms. Browner. And also joining me is the Acting Deputy 
Administrator, Peter Robertson.
    And in the first row on either side are the individuals who 
are responsible for our program areas--air, water, waste; and 
with your permission, Mr. Chairman, we may call on them in the 
course of the hearing. They are the real experts in each of 
these areas.
    We also have two of our regional administrators, Jeanne 
Fox, who is joining us from Region II, and Mike McCabe from 
Region III, who joins us from Region III.

                  agency progress over past six years

    If I might just take a moment to look back over the work we 
have done over the last 6 years at EPA and also explain to you 
the work that we look to do in the coming year, which is really 
building on the work of the last 6 years.
    We have worked very closely with Congress in a bipartisan 
manner on a number of issues. We have not always found 
agreement on every issue, but there certainly are a large 
number of issues where we have found bipartisan agreement, and 
that has allowed the Congress and the administration to work 
together to pass important environmental laws to carry out our 
common goal of a better environment and better public health 
protections for the American people.
    For example, as a result of the Safe Drinking Water Act 
Amendments of 1996, which passed with broad bipartisan support, 
we now estimate that 88 percent of the American people will 
receive drinking water from community water systems that meet 
all health-based standards. This is a huge victory, and I think 
it is something that we can all share and be extremely proud 
of.
    Thanks to the resources provided by this subcommittee, we 
have been able to make significant progress on many of the key 
action items in the Clean Water Action Plan. For example, we 
recently announced a joint strategy with the USDA to protect 
waterways from polluted runoff that occurs with large animal 
feeding operations.
    We are also making significant progress cleaning up toxic 
waste sites. As of the end of 1998, 585 Superfund toxic waste 
sites have been cleaned up. We have an additional 85 
construction completions that will occur in 1999. In addition, 
250 communities have benefitted from more than $46 million in 
grants to revitalize Brownfields and put idle land back into 
productive use. And, finally, the work that we have done 
pursuant to the Clean Air Act will allow more than 150 million 
Americans to breathe cleaner air.

                   key agency initiatives for FY 2000

    The budget that we present today is in the tradition of 
every previous budget submitted by this administration. It is 
based on what the President and the Vice President have proven 
over the last 6 years: We don't as a country have to choose 
between a healthy environment and a healthy economy. We can, in 
fact, have both; and, in most instances, those are in concert 
and not in conflict.
    Today, thanks to the President's leadership, we have some 
of the toughest environmental public health protections in the 
world; and our economy is not only strong, but it is soaring.
    The budget that we present is really about where we live 
and how we live our lives as Americans. It is about 
communities. It is about neighborhoods. It is about protecting 
those neighborhoods, protecting where we live, keeping our 
communities healthy, strong and prosperous. It is about our 
families.

                          better america bonds

    The President and the Vice President have announced a new 
liveability agenda to help communities grow in ways that ensure 
a high quality of life and strong, sustainable economic growth. 
A key part of that agenda is the Better America Bonds. It is 
not part of the EPA budget. It is carried as an adjustment to 
the Tax Code.
    But if I might just spend a moment discussing this 
initiative, because the President has suggested that EPA would 
manage this process. We would chair an inter-Agency group.
    The purpose of Better America Bonds is to offer a creative 
way for States and communities--through zero interest bonding 
authority--to preserve open green spaces. This is similar, Mr. 
Chairman, to the program that your governor has put in place in 
New York. There is also a similar program in Florida. Other 
States are considering these programs.
    It is a way to help those communities who want to--there is 
no requirement--invest in preserving open spaces, using that as 
a way to enhance water quality. It is a way for the Federal 
government to provide a financial support for that. The Federal 
government will not own one piece of property. It will not make 
any decisions as to which pieces of property are included. That 
will all be at the hands of local and State governments.
    But the administration does recognize across the country 
that more communities are saying that part of how we protect 
our quality of life, and protect our environment, is to 
preserve green spaces; and we want to be a partner in those 
efforts.

                       clean air partnership fund

    The EPA budget does include a new request of $200 million 
for a Clean Air Partnership Fund. This is another tool to help 
communities help themselves. There is no requirement that any 
participate. It is merely an opportunity for those communities 
who want to promote cost-effective, innovative technologies to 
reduce traditional air pollutants and greenhouse gases. It 
provides resources to allow them to look at how to address 
these issues community by community, and to do it at the local 
level.

                           asthma initiative

    Finally, EPA in this budget will continue to take a leading 
role in the administration's important effort to fight the 
growing problem of childhood asthma in this country. Five 
million children suffer from this disease. The incidents of 
asthma is rising. This budget includes $22.2 million for 
education, outreach and monitoring to reduce our children's 
exposure to the environmental hazards that can make an asthma 
attack much, much worse.

                     clean water action plan (CWAP)

    The budget also continues programs that have been very 
successful, including the President's Clean Water Action Plan, 
for which we are asking $651 million. This plan is the national 
blueprint that the President announced last year that will 
allow us to finish the job of restoring and protecting our 
Nation's rivers, lakes, and coastal waters. We are working very 
closely with each of your States as we implement the provisions 
of that plan; and, again, we are seeking ongoing funding.
    We are also asking for ongoing funding for the Clean Water 
State Revolving Fund, the traditional wastewater fund, and the 
newly-created Drinking Water State Revolving Fund, which was 
created as part of the 1996 Safe Drinking Water Act.
    If I might, Mr. Chairman, call the committee's attention to 
a very specific request that we have. This is not a financial 
request, but it is a very important request.
    Each of your States receives, and has received for an 
extended period of time, money for wastewater treatment. Many 
of your States have come to us and said they would like more 
flexibility in how they can spend that money, not simply what 
they are allowed to do today. Today they loan it out and it is 
paid back.
    They would like to be able to make some grants to 
perhapsfor smaller communities that can't always meet the payback 
requirements, or perhaps, for some purposes beyond the traditional 
scope of the program.
    We are asking this committee to grant the States permission 
to set aside up to 20 percent. They would not be required to do 
this but would be given permission to set aside up to 20 
percent of their Clean Water Funds in the form of grants for 
local communities to address other types of water pollution 
problems is included in this request.
    For example, many of you have national estuary programs in 
your State. Your State might choose to use some of this grant 
money for those efforts, and we would obviously like the 
opportunity to discuss this very important request with you. It 
is all part of our effort in this administration to give States 
and local governments more flexibility so they can address the 
most pressing problems.
    We also are asking for $1.5 billion in Superfund, of which 
almost $92 million would go directly to communities for the 
very successful Brownfields program.

                       agency operating programs

    And in closing, if I might, Mr. Chairman, call the 
committee's attention to one very important aspect of the EPA 
budget, which I know is something that all members are aware 
of, but I think I would be remiss if I didn't mention it. The 
easiest way to think about EPA's budget is sort of three pots 
of money: the money that goes to the States for drinking water 
and wastewater and other State grant programs, the Superfund 
program, and then everything else we do.
    Everything we do from science to setting drinking water 
standards, to clean air monitoring, to children's asthma, all 
of that sits in what we refer to as our operating budget. That 
is really the backbone, if you will, of how we provide public 
health and environmental protection for the people of this 
country. It is how we do sound science. It is how we set 
standards. It is how we enforce those standards once set.
    Unfortunately, we are very, very concerned that the budget 
agreement and the 12 percent cut that is encompassed in the 
budget agreement, could do great damage to our operating 
budget, to all of that work that we do. We are extremely 
concerned that, were we to have to take that kind of a cut in 
our operating budget, the repercussions would be felt in 
communities across the country. That level of cut would be 
severe, particularly when added to the level of earmarks we 
have been receiving. We recognize that those earmarks represent 
valuable, important projects to communities across the country. 
But when you add the two together, we are really sort of 
scraping the bottom; and we would be forced to make some very 
hard decisions and to cease work in some very demonstrable and 
unfortunate ways for people in communities across the country.
    We want to work with you to avoid this. We recognize the 
subcommittee is in a particularly difficult situation; but, 
again, I feel like I would be remiss if I didn't explain to the 
committee just how tight we are within our operating program 
this year and where we would be in the coming year, another 
round of the kind of a level of earmarks we have seen, plus 
these general reductions.
    With all of that, Mr. Chairman and members of the 
committee, we appreciate the opportunity to appear before this 
committee. We always enjoy the questions and the dialogue, and 
we look forward to answering your questions to the best of our 
ability. And I hope, as we have done in years past, that we 
will find common ground and we will move forward with a budget 
that allows us both to honor the needs of these Members and 
other Members in the Congress and the American people and the 
work that we try to do on their behalf.
    Thank you.
    Mr. Walsh. Thank you. Good statement. You have touched on a 
number of things that I am sure we will want to expand on in 
the questioning. But it is a good beginning, and we welcome 
that opportunity to work on a bipartisan and executive 
legislative level cooperative venture.
    [The statement of Ms. Browner follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]


                   Chairman Walsh's Opening Statement

    Mr. Walsh. As I noted in my opening comments, the Agency's 
fiscal year 2000 budget request of $7.2 billion represents a 
decrease of about $383 million below the 1999 appropriated 
level. Given the funding difficulties we all obviously face 
this year, I certainly want to commend the Administrator for 
submitting a budget that for many perspectives represents a 
responsible funding request.
    It is not to say, however, that this budget request will be 
easy for this Congress to approve in its present form. Indeed, 
while the overall EPA total might eventually be very similar, I 
suspect the makeup of that total might change considerably from 
what the Agency has proposed.
    The details in this case--among other things, the Agency's 
request is reduced, as you pointed out, Clean Water State 
Revolving fund activity by $550 million. Similarly, 
congressional earmarks of over $300 million have been 
eliminated. That is not going to wind up as you proposed, I can 
almost assure you.
    The Agency proposes to fund a number of other activities, 
including increasing the climate change technology initiative 
by nearly $100--over $100 million, increasing the environmental 
programs and management account, the so-called operations 
account, which you have mentioned, by almost $200 million, and 
by proposing a number of new initiatives, most notable of which 
is the Clean Air Partnership Fund at a cost of $200 million. At 
a time when we clearly don't have sufficient funds to properly 
finance even those programs, we both can agree should be among 
the Agency's priorities.
    In this regard, the issues of providing sufficient 
appropriations to greatly reduce the backlog of national 
pollutant discharge elimination systems, permits, and to catch 
up on processing of pesticides registration and reregistration 
applications come to mind.

                clear water state revolving fund (CWSRF)

    With this background then, I would like to begin this 
morning by focusing strictly on a number of budgetary issues. 
My hope is that you will provide the committee with some 
insight and justification as to why you have made certain 
budget choices over others. Perhaps the best place to start is 
with the very popular Clean Water SRF State Revolving Fund.
    And, by the way, your suggestion about making this program 
a little more flexible--obviously, we will be happy to discuss 
that with Congressman Boehlert and Chairman Shuster of the 
Public Works Committee.
    For Fiscal Year 2000, you have requested $800 million for 
the Clean Water State Revolving Fund, which is down $550 
million. This program has been funded at over $1 billion for 
each of the several years, in large part as recognition of both 
the success of the program as well as the tremendous need of 
the States for resources committed to meet EPA'sclean water 
regulation.
    By EPA's own account, States and communities will need over 
$30 billion over the next few years to meet both clean water 
and drinking water regulatory requirements, yet this budget 
request seems to contradict EPA's own report suggesting the 
need for increased resources. Can you tell us specifically why 
you have proposed such a huge reduction in this important and 
successful and necessary program?
    Ms. Browner. First of all, Mr. Chairman, we don't disagree 
that there continue to be significant water pollution 
challenges across the United States. We are in complete 
agreement with the States on that.
    The Administration made a commitment to States that the 
Clean Water State Revoloving Fund, the revolving fund would 
revolve at $2 billion annually in the year 2005. For a number 
of reasons the fund will revolve at $2 billion in the year 
2002, even with the 20-percent grant set-aside we are asking 
you to create.
    So we are honoring our commitment to the American people 3 
years sooner than we had originally anticipated. That is the 
good news.
    Having said that, Mr. Chairman, if I might, the Clean Water 
Act expired in 1994. It is time to strengthen and rewrite that 
law and, in doing so, to look at what resources will be 
necessary to take this country into the next century to manage 
our water both in terms of the quality and quantity to address 
on a watershed-by-watershed basis the challenges that remain.
    And I think that this discussion about funding beyond what 
this administration committed to and what the original act 
promised should take place. Then, we should all come back to 
the question of dollars and where those dollars should 
rightfully go. How much should go to bricks and mortar, to 
building more wastewater treatment plants? How much should go 
to polluted runoff? How much should go to protect our beaches 
and shores which, unfortunately, still experience far too many 
closures? How much should go to protect wetlands, the Nation's 
kidneys that help purify the water?
    But until we actually have that debate with Congress, the 
Administration, the States, the American people, local 
communities, we believe that we are honoring our commitment to 
the States. We are doing it 3 years sooner.
    The Clean Water State Revolving Fund right now, if you add 
up all of the money in the country sitting in each of the 
States, has $27 billion in assets, $16 billion of which came 
through the Congress to your States. We are not suggesting 
there is not a need. I want to be very clear about that.
    What we are asking for is a public debate about how this 
country in the next century meets our water challenges, our 
water resource protection needs, our public health protection 
needs and then, out of that, the funding.

               cwsrf: impact of budget request reduction

    Mr. Walsh. On this issue, the commitment that you discussed 
about having $2 billion in that fund by the year 2004, which 
you have already met or will meet 2 years sooner, as I 
understand that was made a while back. I think regulations have 
gotten tougher, standards are higher. We have $30 billion 
sitting out there to meet these requirements. How are we going 
to get there by cutting back?
    Ms. Browner. It is not a question of cutting back.
    Mr. Walsh. It is $550 billion less than last year.
    Ms. Browner. But what the States were anticipating was they 
wouldn't hit our commitment until 2005, and the good news is we 
are hitting it in 2002. And we are not suggesting that the 
funding should cease in 2002 by any means.
    Mr. Walsh. But if the resources are finite and you reduce 
that amount by one-third in one year, what is that telling the 
States? What sort of a commitment to meeting these higher 
standards and tougher regs?
    Ms. Browner. What we are saying is, let us all work 
together. Let us understand the best use of all of the 
resources that are available. Let us rewrite the Federal Clean 
Water Act. Let us strengthen it. And let us then address not 
just the funding issues as we understand them today but the 
funding issues as we will understand them over the next 10 
years.
    As you know, Mr. Chairman, there are lots of issues in your 
own district that sit outside of the traditional SRF funding 
that are extremely important to the people of your community. 
And all we are suggesting is, let us have that discussion and 
then let us create that funding mechanism. In the meantime, we 
will honor our commitment; and we will do it sooner.
    Mr. Walsh. We agree that the Clean Water Act needs to be 
reauthorized. We can't do that on this subcommittee, so we do 
it--in many cases, we meet needs by doing earmarks. And you 
have taken away, in your budget, our opportunity to impact on 
those needs.
    We all understand that problems that exist in terms of 
clean water, clean air, exist outside the bounds of these 
regimented policies; and I agree there needs to be flexibility. 
But if we are going to have this dialogue why start it out by 
taking a third of the money out of the table?
    Ms. Browner. We are not taking a third of the money off the 
table, Mr. Chairman, not in what was promised to the States. We 
are doing it faster. We are giving them more money faster. And 
that is what matters, the money that is getting there faster.

                         congressional earmarks

    Mr. Walsh. It is sort of counterintuitive to tell us we are 
giving them more money and we look at the money that is 
available to us and we have $800 million less.
    Ms. Browner. I think you said yourself it was $550.
    Mr. Walsh. And the earmarks, too.
    Ms. Browner. The earmarks, right. And, obviously, we have 
explained to you the problem we have with the earmarks. But the 
earmarks--with all due respect, I don't doubt that every single 
one of the earmarks projects is an absolutely important and 
crucial project, but they do come at the expense of the dollars 
that gets allocated across the States.
    This is why we need to have this public dialogue; and we 
need to write the Clean Water Act for the next century, in 
terms of requirements, of commitments, and of funding. We would 
work with anyone up here who would sit down and in an honest, 
forthright manner to try and do that.
    Mr. Walsh. I suspect some others may want to revisit that.
    In each of the last several years, the Congress hasapproved 
a number of so-called earmarks for various clean water and safe 
drinking water infrastructure improvement projects. The majority of 
these assist small communities throughout the Nation, many of whom are 
not otherwise eligible for SRF or loan assistance. Some of these 
earmarks have also been for projects such as the Boston project and the 
Onondaga project in my district.
    It has been reported that you have at times made statements 
that would lead one to believe that you are not a fan of 
Congress earmarking and--well, I think a moment ago said some 
nice things about them, too. There is some balance there. But, 
overall, I would say that you don't favor them.
    Ms. Browner. Well, I will be honest. I can tell you my 
position on it----
    Mr. Walsh. I would expect you always to be honest, but go 
ahead.
    Ms. Browner. I think that probably any of those projects 
individually in congressional districts are really important. 
And I presume you know far better than I do. Your 
responsibility is to your congressional district.
    Mr. Walsh. Ours is larger than that, too, I think.
    Ms. Browner. We share that.
    The problem we have is when the earmarks come at the 
expense of all the work that everyone has agreed to do. When 
you add money to cover the earmarks, then no one is 
experienced. No State, no community, no effort is set back by 
it.
    I think some of the projects, Mr. Chairman--as you yourself 
point out--are in part out of frustration, communities who feel 
like they can't access the funds within their State, 
communities who feel like the paybacks may be difficult, 
communities that have projects that sit outside the narrow 
scope of what the fund has been used for.

                          cwsrf: 20% set-aside

    If you will agree with us to create this 20 percent grant 
program, some number of these earmark projects can move over 
and be managed through the States on that basis.
    So it is not that I have a problem with earmarks. It is the 
effects of the earmarks, both in terms of dollars that we can 
provide to the States and all of the needs they have given us, 
and in terms of the work that we can do.
    I recognize that they are an important part of this 
process. When we look at the nature of them, I think we are 
being responsive. We are coming back to you and asking you to 
let us create a grant program. That is really what an earmark 
program is. It is a series of grants.
    And maybe there is another way to help them, especially the 
earmarks. They are a reality, and I accept that. They are an 
important part of this process, and I accept that.
    Mr. Walsh. It is priorities, basically.
    Ms. Browner. I agree.
    Mr. Walsh. And we may not always have the same priorities.
    One of the positive aspects of this is, as I understand, 
most of these get almost a 50 percent match, 45 percent match; 
and we are leveraging lots and lots and lots of money. And, you 
know, whatever the program, whether it is health or public 
safety, if you can leverage dollars with those Federal dollars, 
it is always a better investment, better return, better result.

                           cwsrf state match

    Ms. Browner. That is true. The SRF does require a match as 
well. I think that you are exactly right that many of the 
earmarks that the members have picked up, the requirements that 
would otherwise exist if the project were funded through the 
Federal money that flows to the State and then into the local 
community. You are right, they are picking up the match.
    Mr. Walsh. Do any of these new programs that you are asking 
us to authorize and appropriate for require a match?
    Ms. Browner. The 20 percent, the grant program, they would 
not be repaying, it does, however, require a match. It is a 
flexibility for the State. They could set aside up to 20 
percent. They could put in place on a state-by-state basis 
their own requirements.
    We do not want to tie their hands on this. What we want to 
simply do is say, if you are legislature, if your governor 
wants to take advantage, here is a flexibility. So they could 
set up their own requirements on that. It would be up to each 
State to make that decision.
    And I will be honest with you, for some larger States, for 
some larger communities, they may want to have that grant come 
with some kind of a match. For the smaller community, they may 
not. It is really up to the State. We are trying to be as 
flexible as we can in asking for this.
    Mr. Walsh. I have been the questioner now for about 15 
minutes. We are going to have two days, two hearings each day, 
is that correct? So what I would like to try to do is give 
everybody about the same amount of time, about 15 minutes. We 
will alternate, majority, minority, and try to stick as close 
as we can in terms of when you arrive. So I would go to Mr. 
Mollohan, Frelinghuysen, Mrs. Meek and then down the line. If 
there is no objection, we will proceed.
    Mr. Mollohan, thank you very much.
    Ms. Browner. I had just been corrected by the people who I 
told you are far smarter than I am. We are suggesting on the 20 
percent grant that states would require a match in the same 
way. There is another problem--this is getting into the details 
of this, but the section 319 program, which you all have 
honored a funding increase for in the past, we are asking you 
to carry that funding increase forward.
    For those types of grants it does carry a 40 percent match 
requirement, and States have been doing it. I apologize for not 
being more specific.
    Mr. Walsh. Thank you for your responses.
    We will go to Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    And, Madam Administrator,I join the chairman in welcoming 
you. Just following up on that point, while I am extremely sympathetic 
for carving out part of this money for grant purposes and I embrace 
matching requirements to the extent possible, you have got to be 
careful how you fashion those matching requirements or else the bottom 
might fall out of the program.
    Ms. Browner. Well, as I just did. I apologize.
    Mr. Mollohan. Why don't you get to the level you want to be 
at?
    Ms. Browner. We will change, here we go. It is the 
incredible shrinking EPA Administrator.
    Mr. Mollohan. Well, my point was that you have got to be 
careful if you are going to develop a grant program to help 
communities who really struggle--and we have a lot of them in 
West Virginia--to do these kinds of projects and to meet the 
standards that they must by law meet.
    You have got to be careful in incorporating a matching 
requirement that is so onerous that it knocks out those very 
communities that you want to help. I am not against the 
matching program. I think you have to be careful with it and 
perhaps have some flexibility in there for communities that 
need to be exempted.
    Ms. Browner. I think that that makes sense.
    Mr. Mollohan. Listening to this discussion about the 
Drinking Water and Clean Water State Revolving Funds, it 
concerns me that we might be blaming the victims here--which I 
consider us all to be--for not having enough resources to 
finance needs that I think everybody agrees upon. We need to be 
careful that we don't start being angry at those who are the 
victims; that is, each other, because of the shrinking pie. We 
need to be working on increasing the size of the pie, which I 
quite bluntly think means raising the caps on discretionary 
spending.
    If you had more dollars at your disposal, would you be 
recommending more money for the State Revolving Funds?

                     water programs: funding needs

    Ms. Browner. We would recommend more money for water, in 
terms of preventing pollution from entering our rivers, lakes, 
estuaries, beaches, bays, and harbors. We certainly would be 
recommending more money for water.
    I think it would be important to have a discussion, of how 
States might want to take advantage of increased resources. 
States are at different stages in implementing their programs. 
The more flexibility you give States as they try to grapple 
with their water pollution problems, the better off we will all 
be.
    So, yes, more money into water, no dispute. I would simply 
suggest more flexibility so that individual States can make 
individual decisions.

                     water programs: authorization

    Mr. Mollohan. Did I hear you suggesting that before we 
considered how we are going to spend money in this area, it 
would be nice to revisit the authorizing process----
    Ms. Browner. Yes.
    Mr. Mollohan [continuing]. To set new standards which you 
feel should be higher, I assume. Is that what you are getting 
at here?
    Ms. Browner. New goals, not necessarily new standards.
    Mr. Mollohan. Doesn't that mean new standards?
    Ms. Browner. It may in some instances; in other instances 
it may mean different approaches to addressing pollution 
problems. It doesn't necessarily mean more traditional end-of-
the-pipe command and control regulations. In fact, it probably 
means less, because the challenges we face today in terms of 
water pollution are not the challenges of 10, 15, 20 years ago.
    We should write the law to take advantage of the progress 
we have made and the problems that we still face, and then fix 
the funding to match that.
    Mr. Mollohan. Where are we in that process?
    Ms. Browner. We have been incredibly successful in dealing 
with what we refer to as point source pollution, finding the 
pipes that discharge the pollution, and putting in place the 
technologies. It is not to say the job is completely done, but 
that has been the focus of the last 20 years. It has been a 
huge success and people should be very proud of it--States, 
communities, industry, Congress--for writing the original laws.
    Now what we are finding is that most of the remaining 
problems and the greatest challenges are polluted runoff. We 
still have too many rivers and lakes that you can't fish or 
swim in. We still have far too many beach closures. Much of 
that is associated with this polluted runoff challenge, which 
is more complicated.
    Mr. Mollohan. The big focus should be nonpoint source 
pollution.
    Ms. Browner. Nonpoint source. And that is a different set 
of solutions and probably a different type of funding. It is 
one of the reasons we keep coming to you and asking you to 
increase section 319 grants, States with the money they need to 
address nonpoint source pollution. It might be after rewriting 
the Clean Water Act and coming to an agreement on what the 
challenges are that the whole way you fund the States would 
become more flexible.
    Some States have clever, innovative ideas for addressing 
polluted runoff, and for creating green space preservation. I 
was just down in Tampa, Florida. They want to buy part of their 
river funds. They see that as creating green space for family 
outings, and also protecting their river. That is one example, 
and it might be important to have this debate and then shape 
the funding around that.
    I think if you wanted to run through the issues that you 
would address in reauthorization, they would start with 
nonpoint source, beaches, estuaries, wetlands and then the 
funding. You know, the funding should build out of what the 
challenges are.
    Mr. Mollohan. So you think the authorizing priorities ought 
to be established or rethought and then----
    Ms. Browner. The law needs to be clear.

                       cwsrf: impact of reduction

    Mr. Mollohan. Well, we are not there, so we have to deal 
with the state of the laws we have. Could you give the 
committee some sense of what the effect would be of your 
proposed reduction of $550 million for this account? How many 
communities would not receive the benefits of secondary 
wastewater treatment with your proposed reduction rate?
    Ms. Browner. That is almost an impossible question to 
answer.
    Mr. Mollohan. Is there some average?
    Ms. Browner. No, because we got the money outmore quickly 
than the States envisioned. So in terms of this $2 billion annual 
revolving amount, that is what everybody was working towards.
    Mr. Mollohan. Is the $2 billion adjusted for inflation?
    Ms. Browner. Yes, it is adjusted for inflation and takes 
into account the 20 percent set-aside.

                          better america bonds

    Mr. Mollohan. Could I ask you a few questions about some of 
your new initiatives as a part of the Administration's 
Livability Initiative?
    Ms. Browner. Yes.
    Mr. Mollohan. Beginning with the $1.9 billion in fiscal 
year 2000, it is envisioned that the bonds program could be 
used to preserve green spaces and protect water quality and 
buffer zones, all of which I am very sympathetic with.
    Would you please explain how these bonds would work?
    Ms. Browner. The administration is proposing as one of the 
major parts of its livability agenda a new bond mechanism for 
local communities. States could also take advantage of it. 
These are zero interest bonds. It is pretty simple. If a local 
community wants to buy a piece of green space, they float a 
bond. It is whatever State law says they are allowed to do.
    They float a bond, usually with a 15-year payback. It would 
be required under this program to be a 15-year payback. They 
would do whatever they want to do in terms of making sure they 
have the money to pay it back in the 15 years. They would 
provide the principal. The Federal Government in the form of a 
tax credit would pick up the interest.
    It is as if you didn't have to make the interest payments 
on your mortgage payment, all you had to do was make the 
principal payment. It drives down the costs to a community of 
protecting green spaces. There is no requirement that they do 
it; it is up to them to apply.
    Mr. Mollohan. All of this funding would go to subsidize the 
costs of the principal?
    Ms. Browner. Right. Once the community had all of the bond 
authority, they would then make an application and then, 
through an interagency process would award the tax credit up to 
the amount of the interest side of the bond.
    Mr. Mollohan. What would EPA's involvement be in this 
process?
    Ms. Browner. We would chair it. We would receive all the 
applications. We would disseminate them among the agencies. We 
would run the process. We envision it being very similar to the 
Brownfields process, which has been very dynamic and flexible. 
Although no final decisions have been made, we are working with 
any number of States and communities to understand how it would 
be best for them.
    Mr. Mollohan. Would EPA have a role in choosing the 
projects?
    Ms. Browner. We would be the chair, but we would not have 
more than an equal role than the other agencies and 
departments.
    Mr. Mollohan. But you would be involved in the process of 
judging whether one project was----
    Ms. Browner. We would be one of a series of agencies 
judging, in the same way that we have done part of the 
Brownfields programs. Even though we run the program, we are 
just one of many judges.

                  better america bonds: authorization

    Mr. Mollohan. What is the legislative status of this 
proposal in the Congress?
    Ms. Browner. It is included as part of the administration's 
tax code adjustments. It is included as a tax credit, and it is 
within the balanced budget agreement. $700 million is the cost 
to general revenue. The acquisition power of that is about $10 
billion over 5 years, because of the way the bonds will work.
    It is not carried in the EPA budget. It is solely in the 
Treasury Department's proposal. And there are Members on both 
the House and the Senate side who are looking at the language 
that the administration has proposed and drafting appropriate 
legislation.
    Mr. Mollohan. So you need an authorization for this?
    Ms. Browner. EPA doesn't need an authorization. The tax 
code needs an adjustment; the Department of Treasury needs an 
adjustment in the tax code. So it is the administration's 
feeling that this could be managed solely in the tax code.
    Mr. Mollohan. What are the prospects for its approval? Have 
you gotten an indication from the authorizers?

         better america bonds: public and congressional support

    Ms. Browner. We are seeing a lot of excitement. I mean 
communities all over the country are doing this, they want 
this.
    Mr. Mollohan. I know the communities like it.
    Ms. Browner. We are being overwhelmed with requests.
    Mr. Mollohan. I can see the communities would be 
interested. What is your reception in the Congress?
    Ms. Browner. It depends on what day. I think that for 
Members who come from communities who are trying to do this 
already, there is a lot of enthusiasm. I think for Members who 
come from communities where it hasn't yet happened, they are 
interested and are asking questions. And obviously there will 
be those who will oppose something because it is the 
administration's proposal.
    Mr. Mollohan. I guess that is an answer.
    Ms. Browner. Sorry.

                       clean air partnership fund

    Mr. Mollohan. That is all right. You have the Clean Air 
Partnership proposal for $200 million----
    Ms. Browner. Yes, that is correct.
    Mr. Mollohan [continuing]. In the budget? Do you need 
authorizing legislation for this?
    Ms. Browner. No, we do not. We can handle that within our 
existing authority. This would be a program for local 
communities, it would be a competitively awarded grant program.
    Mr. Mollohan. So the communities would not apply through 
the States, they would be applying directly to EPA?
    Ms. Browner. They apply directly to EPA, and we think that 
is important. There are many things that we do through the 
States on down to local communities, but there are some things 
we do directly to communities. Brownfields would be another 
example.
    Mr. Mollohan. It doesn't seem like a lot of money for any 
kind of a significant program to me.
    Ms. Browner. Well, it is a new program. When you look----
    Mr. Mollohan. Just a start?
    Ms. Browner. Well, I think that you have local communities 
out there who are grappling with air issues and what we wanted 
to do is create an opportunity for those who want to come 
forward with new and innovative solutions. Brownfields is only 
a $100 million program and it is hugely successful. The 
leveraging and return on those investments has been huge.
    And, you know, could all of these be bigger in my--from my 
narrow perspective of the world, yes. But it is a balanced 
budget. It is something that is looked at across a lot of 
competing issues, and I think this is a strong important 
program for local communities.
    Mr. Mollohan. Just looking at the proposal, it looks like 
it has an energy conservation bent to it. And with that in 
mind, do you plan to engage in any cooperative agreements with 
the Department of Energy's Office of Energy Efficiency?
    Ms. Browner. We have lots of agreements with the----
    Mr. Mollohan. In regard to this program specifically, have 
you thought about that?
    Ms. Browner. We could. I don't think we had specifically 
thought about that. We would be happy to talk to you about it.
    Mr. Mollohan. You have got a lot of good new technologies 
that would be really good to incorporate in an energy 
conservation project.
    Ms. Browner. The one thing I might say, Mr. Mollohan, 
obviously it is a competitive process. When an applicant comes, 
similar to a brownfields proposal the more they have woven 
together other things, the more attractive it is.
    Mr. Mollohan. I am sure you have thought this through, but 
the Department of Energy's Office of Energy Efficiency has been 
working on this for some time.
    Mr. Chairman, how I am doing on time?
    Mr. Walsh. Probably half a minute to go.
    Mr. Mollohan. Well, I can't even ask the question in half a 
minute. Thank you.
    Ms. Browner. Thank you.
    Mr. Walsh. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Good morning, 
Madam Administrator.
    Ms. Browner. Good morning.

                       cwsrf: adequacy of funding

    Mr. Frelinghuysen. Ms. Browner, I would like to get back to 
some of the initial questions that the Chair asked relative to 
the Clean Water State Revolving Funds. New Jersey and other 
States are extremely enthusiastic about this fund, and I think 
that what you are doing is basically disemboweling this fund by 
cutting $550 million from it.
    Isn't it true that your own agency has estimated that the 
amount needed nationwide for clean water construction projects 
is about $140 billion?
    Ms. Browner. I think you are referring to clear water needs 
survey.
    Mr. Frelinghuysen. I am referring to an article from the 
February 4th Congressional Green Sheets, which is a reputable 
communication. It says here ``the amount needed nationwide for 
clean water construction projects is about $140 million,'' the 
EPA estimates.
    I understand that to date we have committed since the start 
of this law 16, the States have contributed about what, 24----
    Ms. Browner. No, I think they contributed----
    Mr. Frelinghuysen [continuing]. Billion dollars?
    Ms. Browner. 11, we did 16, they have done 11.
    Mr. Frelinghuysen. The best of my knowledge----
    Ms. Browner. That is a split.
    Mr. Frelinghuysen [continuing]. All the States have been 
able to furnish nearly $24 billion in loans for wastewater 
infrastructure maintenance since construction. You have a 
different figure?
    Ms. Browner. Yes. I can explain. It is not that your figure 
is wrong, it is just the way the programs are managed at the 
States.
    Mr. Frelinghuysen. My basic question is why would you take 
a good program and reduce it if, in fact, there is a list of 
needs out there which is $140 billion?
    Ms. Browner. The simple answer is we are not. We made a 
commitment to the States. We made that in dialogue with the 
States, and we are honoring that commitment, and we are doing 
it more quickly. We don't dispute. The document you are 
referring to is what is referred to as the Clean Water Needs 
Survey. We poll the States, they tell us what their needs are.
    Mr. Frelinghuysen. Does that make it less legitimate?
    Ms. Browner. No. It is a very legitimate document and the 
numbers are reliable. It is a very important planning document 
for both the States and EPA.
    Mr. Frelinghuysen. If they are reliable numbers and they 
represent identifiable needs and we have had a strong 
partnership between the State and the Federal Government with 
both contributing towards this capital infrastructure, why are 
we now diverting funds for other purposes?
    Ms. Browner. Because in addition to the issues that this 
survey speaks to, there are many other pressing water quality 
issues. And what we are suggesting to Congress and to the 
American people and the States is, let us make sure we 
understand the full range of complex water pollution problems 
we face, let us structure a Clean Water Act to meet those, and 
then out of that process, let us look at all of the funding 
needs.

                                 cwsrf

    Mr. Frelinghuysen. You made reference, and I get the 
feeling that maybe you are holding hostage some money until the 
House moves ahead with reauthorization of the Clean Water Act.
    Ms. Browner. What?
    How could I hold hostage any money?
    Mr. Frelinghuysen. You are cutting this fund, as I see it, 
diverting more money for other purposes.
    Ms. Browner. No, absolutely not, Congressman Frelinghuysen. 
As you are probably well aware, when we structure a Federal 
budget, there are different outlay rates SRF money is some of 
the easiest money for an administration to put into a bill 
because of the way it outlays. We spend it over a very long 
period of time.
    Mr. Frelinghuysen. Why don't you leave it there then?
    Ms. Browner. I want to answer your question of why are we 
robbing Peter to pay Paul. The answer is absolutely not, they 
are different types of money. We are saying that there are more 
water needs in this country than the traditional sewer plant 
needs, and please work with us so wehave the full panoply of 
challenges and then let us make the funding commitments. I would like 
nothing better than to ultimately see water financial commitments grow.
    I am concerned, and I think there is a lot of concern in 
the Congress and across the country, that the kinds of water 
challenges that communities increasingly face are outside the 
scope of today's revolving loan program.
    Mr. Frelinghuysen. This is a program that has worked.
    Ms. Browner. No one disputes that.
    Mr. Frelinghuysen. I understand the buzz word these days, 
and it really depends on the year the flexibility is in, and I 
think we all realize, because we talk with our governors that 
flexibility is desirable, but in fact this is a program that 
has worked. It has worked----
    Ms. Browner. I don't dispute that.
    Mr. Frelinghuysen [continuing]. In States with Republican 
and Democratic leadership, and somewhat it is symbolic since so 
much in the way of State resources have been put towards 
correcting this infrastructure for the future. It is such a 
substantial investment.
    To many of those who manage that program that are waiting 
in line to get things cleaned up that have been out there 
polluting water supplies, this is sort of like a body blow. 
That is how I read it.
    Ms. Browner. I will be honest with you, I ran a State 
program. And I think this program has been a huge program. I 
ran this program. I don't disagree.
    Mr. Frelinghuysen. This has been, and I think the money 
ought to stay there. I would agree with you.
    Ms. Browner. I think there are other challenges. That is 
the only other point.

                         congressional earmarks

    Mr. Frelinghuysen. Let me comment on the earmarks issue. 
Maybe beauty is in the eye of the beholder. From time to time I 
am invited as the token Republican to go to events which quite 
honestly honor and promote the expenditure of certain earmarks, 
which, in fact, clean up our environment--and maybe that is 
what the chairman was alluding to, is that some earmarks you 
like better than others.
    The only reason there are earmarks because, as you said it, 
at times difficult issues are not addressed. So I think we need 
to look at earmarks----
    Ms. Browner. We don't disagree.
    Mr. Frelinghuysen [continuing]. As by and large being 
responsible, some may be indefensible but often, as you said, 
out of frustration. But it is ironic that oftentimes I find 
myself invited to events that celebrate the expenditure of 
decontamination money, which is, in fact, an earmark that I 
happen to join with the Democrat in promoting.
    Ms. Browner. We certainly honor earmarks and work hard to 
make sure that those projects fulfill all of the anticipated 
benefits.
    Mr. Frelinghuysen. And I salute you. And quite honestly in 
the nature of this beast, I think we ought to jointly celebrate 
whenever we can get anything done, whether it is under an 
earmark or under the State Revolving Fund. I would like to 
focus on my favorite subject actually.

                               superfund

    What you classify as significant progress with the 
Superfund program. Let me pass on a compliment to Jeanne Fox, 
your administrator, who I suspect is in large part here today 
just in case I get totally out of control. I want to thank her 
and Rich Caspy and you as well for the attention to a number of 
sites in New Jersey. I assume that your diligence is nationwide 
but I am most appreciative of all of the attention that you 
have given to a lot of sites, and I promised Jeanne through Ms. 
Browner not to raise any parochial issues, but I do have a 
number of questions which I would like to ask at a later time. 
Since we last met, Madam Administrator, how many sites are 
actually on the national priority list?
    Ms. Browner. The NPL list is 1,386.
    Mr. Frelinghuysen. How is that significantly different than 
when we were here last year?
    Ms. Browner. Through FY 1998 we have completed 585 clean 
ups from that list of 1380.
    Mr. Frelinghuysen. So the list is still 1380?
    Ms. Browner. We proposed 34 sites last year.
    Mr. Frelinghuysen. And that is usually done with some type 
of gubernatorial approval?
    Ms. Browner. Yes. Of the 34, only one didn't have the 
governor's support.
    Mr. Frelinghuysen. Just to make it clear, we have 
approximately 1,400 on the national priority list and since we 
were here last year, how many have been removed?
    Ms. Browner. 585 sites have been completed.
    Mr. Frelinghuysen. How many have been removed since the 
last time you were here?
    Ms. Browner. We were running an average of about 85 site 
clean ups a year.
    Mr. Frelinghuysen. How many have actually been removed 
since the last time we were here?
    Ms. Browner. Could I have a moment, Mr. Frelinghuysen. This 
is an issue important to a number of Members.
    Mr. Frelinghuysen. I have more of these sites than any 
other Member of Congress in the country and you have done some 
good things for me, but I think the public has a right to know.
    Ms. Browner. We are doing great things in every district.
    Mr. Frelinghuysen. I know that work is done at all of these 
sites, but what is actually the physical removal from the list?
    Ms. Browner. The cleanup construction plans have been 
completed at a total of 585 sites. We are averaging 
approximately 85 a year. We are doing them for less moneyper 
site and more quickly per site. I think we are averaging about 2 years 
less per site now. Our costs are about 20 percent fewer dollars.
    I think there is a nuance here and I am happy to engage in 
this, but I think it would be helpful if I can have a moment. 
But I don't want to take up the member's time.
    Mr. Frelinghuysen. I will give you a moment, go right 
ahead.
    Ms. Browner. The prior administration recognized that it is 
important to understand as a site comes through the process, 
when construction is completed. Unfortunately, many of the 
sites--and I think you are well aware of this in your own 
district--that we work on involve treating groundwater. So a 
groundwater treatment component facility is built, which will 
be turned on and off depending on the nature of the pollution 
over a long period of time. Some instances 5 years, some 
instances 20 years.
    Mr. Frelinghuysen. I have several in my district.
    Ms. Browner. Right, so you are familiar with that. We are 
done and the people of your district are free to make use of 
that site.
    Mr. Frelinghuysen. Some more than others.
    Ms. Browner. If there is a problem, we are happy to address 
it. There is only one congressional district that doesn't have 
a Superfund site in it, we think. Unfortunately, everyone is 
familiar with this in one way or another.
    Our goal is to give communities back the productive use of 
these sites, and that is what we count as a completion. That 
water treatment facility is built and the community can make 
use of the site. That is an accounting system that was created 
in the prior administration. We think that it is responsible--
--
    Mr. Frelinghuysen. So if there is on site remediation----
    Ms. Browner. If there is a water treatment facility there, 
we do count it as complete, yes. Does Pepe Field have--was that 
a groundwater issue?
    Mr. Frelinghuysen. Potentially.
    Mr. Sununu. Would the gentleman yield?
    Mr. Frelinghuysen. I would be happy to yield.
    Mr. Sununu. You described a situation where there is a pump 
and treat in process, for example, and there is an 
implementation plan in place. All of the remediation action is 
complete. Why not remove that site from Federal oversight and 
devolve it to the state regulators that have the ability to 
manage it?
    Second, in other cases there is no ongoing activity. That 
would call for natural attenuation, no further work required, 
and there are sites in that situation that have not been 
removed from the list. My question is directly related to Mr. 
Frelinghuysen's, why the reluctance to remove sites from the 
NPL and give them back to the States?
    Mr. Frelinghuysen. Madam Administrator, Mr. Sununu, 
reclaiming my time, let those questions be somewhat rhetorical.
    Ms. Browner. There is an answer.
    Mr. Frelinghuysen. If it is short we would be happy to hear 
it.
    Ms. Browner. If your State would like that, we would be 
happy to consider it.

                       superfund: reauthorization

    Mr. Frelinghuysen. At a recent Senate Environmental Public 
Works Committee hearing in February you said that you were, 
quote, ``increasingly of the mind that Superfund 
reauthorization is not likely''?
    Ms. Browner. Yes.
    Mr. Frelinghuysen. You probably saw the article in the New 
York Times on the whole Brownfields issue?
    Ms. Browner. It was yesterday. It was on the front page of 
the Metro section yesterday. I read that.
    Mr. Frelinghuysen. Where are we going relative to 
Brownfields? The article painted the picture for those who 
would actually like to reauthorize Superfund that there is a 
growing consensus among urban legislators that they can work 
with like minded other Members of Congress. Why do you feel 
that the prospects are so dim for reauthorization? And if there 
is a growing coalition that has not always existed for more 
reasonable standards, which is what those who are promoting 
Brownfields--why can't we sit together and get some----
    Ms. Browner. Every year we have supported it and every year 
Congress has declined to pass it. I think I was simply stating 
the obvious. I think every year that I have testified, of all 
of the issues that I have worked with Congress on in my 6 years 
and some month tenure, the one that I have spent more time on 
is Superfund. There is nothing more that I wanted than that law 
changed. But----
    Mr. Frelinghuysen. Many of us feel the same way.
    Ms. Browner. Invite me back.
    Mr. Frelinghuysen. Obviously there are things that you are 
demanding and we are demanding where----
    Ms. Browner. We have one demand.
    Mr. Frelinghuysen [continuing]. There has not been a proper 
resolution.
    Ms. Browner. Our one demand is that the polluters pay their 
fair share.
    Mr. Frelinghuysen. I would entirely agree but let's take a 
look at the degree to which people contribute; i.e. school 
boards and municipals, and we need to excuse these types of 
polluters.
    Ms. Browner. We couldn't agree with you more. For 6 years 
we begged you all to carve out the small businesses and 
municipalities.
    Mr. Walsh. You are addressing those requests to the 
subcommittee on the authorizing side, not this subcommittee.
    Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Welcome, Ms. Browner, a native Floridian, and a woman who 
has done an outstanding job with this agency. I congratulate 
you and I would like to say to you as a bit of advice before we 
start, when you mention earmarks and when you mention taking 
money from States, they will never understand what you are 
talking about. We don't understand you either. We are not even 
trying to understand you because when you mention these 
earmarks and when you mention the revolving loan funds and you 
mention these funds, States are very concerned about this. I 
just left a Federal-State meeting in Florida, and that was one 
of the things that they keep asking about. So it would be very 
difficult for each of us to commit to that kind of change but I 
am not the chairperson. I am talking about the state funds that 
we just finished discussing. It is going to be difficult 
because I don't think any state group would be willing when 
they look at the reductions that you are proposing, they will 
never understand that you are going to do it quicker and 
better.
    Ms. Browner. They do know that because they have the 
numbers.

                  brownfields: prospective purchasers

    Mrs. Meek. I don't think that they do and I talk to them 
quite often, particularly the ones in Florida that are drawing 
down on these funds.
    I want to commend you on what you have done with 
Brownfields in my area. I think that out of all of the sites, 9 
of them are on the Superfund list. I don't want you to think 
that we are satisfied, but you helped us out a lot last time 
over in Winwood, one of the poorest communities in the whole 
country, really had a problem with Brownfields but the problem 
is liability, Madam Administrator.
    The private sector does not want to take any liability for 
these Brownfields sites. The state helps a little bit. Local 
community laws for liability are also very, very strong and 
stringent.
    My question or my challenge is regardless of what we do on 
the Federal level for the Brownfields implementation, when it 
is time to implement this, usually these sites have a high 
liability. You have started some cleanup on some of them. Some 
of them you haven't. But each one has a high liability if a 
company goes in and decides that they are going to relocate to 
my district or to some of these districts with a Brownfields 
cleanup. Local liability laws are very stringent. State 
liability laws are stringent, and I wanted to call that 
challenge to your attention to show you the quagmire that we 
are in with the Brownfields situation.
    Ms. Browner. We don't disagree with you. The issue you are 
referring to is what we refer to as a prospective purchaser. 
You have a party that didn't create the problem who wants to 
come in and redevelop the site.
    Mrs. Meek. Right.
    Ms. Browner. This is probably the number one issue that we 
would like Congress to fix because we agree with you, it 
sometimes stands in the way of parties doing good things for 
communities.
    What we can do even though Congress hasn't fixed the law 
for us and these communities is enter into legal agreements 
with the prospective purchaser through the State, maybe the 
local government, to try and protect them. Many people are 
entering into these agreements with us. We are not saying that 
they are the best solution, but given that Congress hasn't 
changed the law, they are probably the only solution available. 
The easiest thing to do is for Congress to pass a law saying at 
a Brownfields site a prospective purchaser can go forward. We 
couldn't agree with you more and we see this all over the 
country.
    Mrs. Meek. I am going to ask Mr. Frelinghuysen if you will 
work with me on that.
    Mr. Frelinghuysen. Absolutely.
    Ms. Browner. If you wanted to pass a good toxic cleanup 
bill that I don't think that there would be a lot of 
disagreement on, it would address prospective purchasers, 
innocent landowners, contiguous property owners, and municipal 
waste generators. In those four issues, I bet you we wouldn't 
have a vote against it.
    Mrs. Meek. Well, that is debatable. But I will move on.
    Ms. Browner. Everyone agrees on what to do. There is no 
disagreement.

                            lead paint rule

    Mrs. Meek. My next concern is the lead paint rule that you 
have. It has been used in virtually every older building and 
HUD is doing a lot of changes, and this is a concern to EPA. 
They are doing a lot of changes to these old buildings, and it, 
as you know, impairs the ability of these children, 
particularly low income, mostly black neighborhoods live in 
this, and lead paint is a big problem and they are poisoned by 
this lead paint.
    I would appreciate you commenting on the rules that you 
have devised from the standpoint of safe homes and renovation 
in urban areas. Your proposed administrative rules on lead 
hazards involve remodeling and renovation activities, and they 
won't be final until the year 2000. Would you comment on that, 
please?
    Ms. Browner. We have had a program underway.
    Mrs. Meek. And then it will take longer to implement it.
    Ms. Browner. First of all, I am under the impression and I 
have no reason and I am sure this isn't what you were 
suggesting, that HUD undertakes all of their lead paint 
removals in accordance with all EPA requirements and 
anticipated safety precautions. We work closely with HUD.
    You are exactly right. In older urban housing, we still 
face a very significant lead issue and we are in the process of 
putting in place lead based paint certification and training 
for private contractors.
    We are also working to educate anyone involved in lead-
based paint removal about how it should be done to protect the 
worker. For example, we have taken enforcement actions against 
private contractors who were going out and hiring homeless 
people, people off the street and sending them into asbestos 
abatement, asbestos removal projects without any of the 
appropriate attire or safeguards. So the fact that that one 
portion of the lead program is still ongoing, the final 
standards, doesn't mean that we don't have lots of components 
of the lead program already in place.
    [The information follows:]

    Lead abatement contractors are going to need to be 
certified just as asbestos abatement contractors currently are, 
and the Agency wants to prevent illegal and unsafe lead 
abatement. EPA has taken enforcement actions against several 
landlords for failure to notify their tenants about the 
presence of lead.

    Ms. Browner. And we are involved. For example, we have 
already completed the real estate disclosure rule, which 
requires a home seller or realtor who knows of lead 
contamination to disclose it to the buyer.
    Mrs. Meek. Would you have staff send me some information?
    Ms. Browner. Yes.
    [The information follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]


                      children's health initiative

    Mrs. Meek. I notice that you cut that children's health 
initiative.
    Ms. Browner. No, we actually increased it.
    Mrs. Meek. All right.
    I have other questions. How much time do I have, Mr. 
Chairman?
    Mr. Walsh. You still have 8 or 9 minutes.
    Ms. Browner. Congresswoman Meek, the lead poisoning, we are 
asking for $30 million to continue that.
    Mrs. Meek. Thank you.

                         environmental justice

    I have a question on your civil rights compliance, the 
environmental justice kind of thing that the department is 
undertaking. It is sort of like 6 in one hand and half a dozen 
in another. There are standards which you are requiring and we 
know it is fair, but these poor minority communities usually 
are forced to share this, this disproportionate share of these 
burdens like waste treatment centers, waste dumping sites and 
all of these things. And the Civil Rights Act of 1964 calls for 
this fair treatment, so do you think in EPA that you should 
develop certain performance measures that will in some way say 
how you are going to do this and how well you meet your self-
assessment of how well EPA is accomplishing its objectives?
    Ms. Browner. First of all, we and the Justice Department 
certainly agree that the Civil Rights Act, the law as you 
referenced it, does apply and will apply to environmental 
decisions.
    Having said that, I will tell you that it is a brand new 
area of the law and how the two pieces ultimately weave 
together to provide all of the protections that are envisioned 
under both laws is very complicated.
    It is never a good day when something gets resolved because 
we were sued. It is a far better day if we can anticipate a 
problem and work to resolve it.
    We have used a number of different public groups and forums 
to help develop programs. So, for example, States can take into 
account the specific needs of minority communities when looking 
at permitting decisions and other decisions that may effect the 
quality of the environment in that community so that people can 
be cognizant of this on the front end and not simply wait to be 
sued on the back end. And we are making some progress, but this 
is a really hard issue.
    Someone said that you are taking two of the biggest changes 
in our lives, the civil rights movement and the effort for 
environmental and public health protections, and now you are 
going to put them together. We are working on it. We are 
working with lots of people. We do believe that these 
communities in many instances do suffer a disproportionate 
burden of our modern industrial life, and the goal is not to 
litigate all of this, but rather to work with industry, States 
and local communities to address these concerns raised by 
communities on the front end.

                        title vi: agency process

    Mrs. Meek. If I may go back again to another point I made 
in terms of EPA's assessment in terms of have you established 
guidelines for handling this; and, of course, I know that your 
agency doesn't like lawsuits, but as to how you handle 
environmental complaints within the agency?
    Ms. Browner. We do have a mechanism for receiving title VI 
complaints if the community or other individuals file a 
complaint, and for reviewing those complaints and ruling on 
those complaints.
    We made an effort to inform the public of the kind of 
thinking that we engage in when a complaint is received. It has 
been referred to as our interim guidance for title VI 
complaints. That created a lot of brouhaha, some very 
legitimate.
    I would also like to say that we were a little betwixt and 
between. We are getting these complaints. We have to deal with 
them. It is only fair to the communities, and it is only fair 
to the industry that wants the permit, and yet when we told 
people how we were going to try to deal with them in a timely 
manner, people said we shouldn't be doing that. So we are 
trying----
    Mrs. Meek. If I may interrupt.
    Ms. Browner. We are trying to work on it.

                      environmental justice budget

    Mrs. Meek. I hope that I have these figures right, you did 
recommend a cut in your civil rights compliance. I think you 
went from $1.6 million in fiscal year 1999 to $1.3 million in 
fiscal year 2000.
    Ms. Browner. The EJ fund is going up. There are different 
types of civil rights complaints that we deal with in addition 
to the environmental justice issues that you are raising. 
Obviously we are required to deal with civil rights complaints 
within our workforce, as is every Federal agency and 
department.
    The environmental justice portion is going up. It is an 
increase.
    Mrs. Meek. I guess the point that I am trying to drive 
across is that in an area that is so much needed that I think 
the agency would do well to pay better attention to these areas 
and that these are long-standing--environmental justice is a 
new terminology----
    Ms. Browner. But we are putting more money in.
    Mrs. Meek. Maybe you are, but environmental justice is new 
in your nomenclature; but this has been here for years and 
years and it is time that we really put a focus on these kinds 
of areas, and I want to make sure that this is something that 
the department really stresses that we need more emphasis 
because wherever that kind of condition exists in a local 
income community, it hurts all communities and the life of 
everybody.
    Ms. Browner. We agree and we are increasing the funding for 
that area and the civil rights complaints.

                           propane tank rule

    Mrs. Meek. My last comment, other than the cuts in the 
clean water revolving loan fund, has to do with the propane gas 
storage.
    We have been talking to the people back home and many of 
our constituents in that area, many of those gas places are in 
my district, and they are concerned about the risk management 
plans that EPA requires that suppliers and large commercial 
customers submit by June 1999. We use quite a bit of that in my 
county and almost all of Florida, and my constituents are 
concerned about the costs, Ms. Browner, the cost that it is 
going to take them to comply with the regulations as well as 
safety issues if the risk management plans are made widely 
available. Cost and safety, according to what they are telling 
me, are paramount issues, and would you please comment on that?
    Ms. Browner. We actually have issued guidance to exempt the 
small users and the farmers.
    Any propane gas user up to 18,000 gallons would be exempt. 
In the universe of who might have been covered by the 
congressional act, about 33,000 were covered.
    About 30,000 would have been covered. We are going to take 
out about two-thirds, about 20,000, so 10,000 will be left. We 
are going to reduce it so only the big ones are affected. There 
are propane accidents that do occur; but, Congresswoman Meek, 
we agree with you and we are fixing it so that the small people 
are going to come out. There was never any intention to cover 
them and we are fixing that.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Mrs. Meek. Mr. Knollenberg.

                             climate change

    Mr. Knollenberg. Thank you. I appreciate Mrs. Meek bringing 
up the EJ issue, and I will reserve that questioning for a 
later time, but I do want to talk about my favorite subject and 
probably yours, climate control.
    I noticed this year that the EPA is requesting about $243 
million. Last year it was $127 million. That is a big bump. 
Have you spent all of that 127?
    Ms. Browner. We have a program to spend it. I am not 
certain of what has been committed but we are halfway through 
the fiscal year. That is part of our operating budget that we 
provide to the committee.
    Mr. Knollenberg. If you can supply that in writing at a 
future time, I appreciate it.
    [The information follows:]

                                  CCTI

    Please provide the obligatins to date for FY 1998/1999 
funds and for FY 1999/2000 funds.

                     CCTI OBLIGATIONS TOTAL DOLLARS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                               Fiscal years--
                                   -------------------------------------
                                        1998-1999          1999-2000
                                     obligated funds    obligated funds
------------------------------------------------------------------------
EPM...............................           70,284.5           42,099.3
S&T...............................           16,902.5           13,721.6
------------------------------------------------------------------------

    Mr. Knollenberg. It is bothersome to me because with the 
history of what we did here with Byrd-Hagel, what we did here 
with the House and the Senate back in 1997, it may be required 
by the treaty that was signed in Kyoto over the objections of 
the Senate via the Hagel-Byrd resolution, which by a vote of 95 
to nothing said do not sign that treaty if there is going to be 
an economic impact or if you exclude the developing nations, 
130 at that time, 132.
    Well, they ignored that, and the administration signed that 
treaty. Last year this subcommittee worked very hard. Alan 
Mollohan and myself, together with Senator Byrd, put together 
language which was drafted to prohibit the Kyoto Protocol from 
being implemented through the back door, as we called it. That 
vote when the final bill was voted on was 409 to 14. The Senate 
went 96 to 1, and the message was very clear. It said that the 
EPA was absolutely prohibited from implementing the protocol 
through the back door.
    What bothers me is that now that the administration has 
submitted the new budget, I see that it proposes to delete that 
prohibition, the one that Mr. Mollohan and myself and others 
worked on. And what is troubling to me is that I can only 
assume that since they are deleting it from the budget that the 
administration intends to implement rules and regulations.
    So I have a couple of quick questions, and it doesn't 
require much from you except a yes or no. I know that this is 
dangerous and I believe it is a yes or no question. Is EPA 
planning to issue any rules, regulations, decrees or orders for 
the purpose of implementation or in preparation for 
implementation of the Kyoto Protocol?
    Ms. Browner. No.
    Mr. Knollenberg. Good.
    Is EPA planning to issue any rulings, regulations, decrees 
or orders regarding CO-2 or greenhouse gases or climate change?
    Ms. Browner. That does not lend itself to a yes or no 
answer. I am happy to answer, however. That does not lend 
itself to a yes or no answer partly because of the way that you 
have worded the question.
    Mr. Knollenberg. This is a very simple question. Rather 
than get into an entanglement----
    Ms. Browner. I don't want anything to be taken from my 
statement that it is not yes or no to indicate yes or no. I am 
happy to answer it.
    Mr. Knollenberg. I can only assume that your answerwould be 
one that would embrace some changing----
    Ms. Browner. No. That is not a ``no'' to your question, 
that is a ``no'' to your statement.
    Mr. Knollenberg. Let me go forward.
    Ms. Browner. This is a difficult issue. It is not yes or 
no.
    Mr. Knollenberg. I think maybe we can get to that question 
and perhaps your answer later on.
    Ms. Browner. Okay.
    Mr. Knollenberg. I think the administration's point here on 
this whole thing is that the language is unnecessary. In fact 
they use a rationale that I find very, very difficult to 
understand. ``For reasons that are primarily institutional and 
precedential in nature, therefore such language is 
unnecessary.'' That is their language. I find that rationale 
very, very curious.
    Ms. Browner. I don't ever attempt to speak for OMB. I can 
tell you what I am doing at EPA.
    Mr. Knollenberg. What are those institutional and 
precedential factors?
    Ms. Browner. I am happy to refer the question to OMB.
    Mr. Knollenberg. Now, if this prohibition has inhibited EPA 
in fiscal year 1999, please tell the subcommittee how?
    Ms. Browner. Well, the prohibition has not inhibited EPA 
because we never intended nor will we in the future adopt a 
regulation that is designed to implement Kyoto until Kyoto is 
ratified by the United States Senate.
    Can I give one more sentence?
    Mr. Knollenberg. All right.

                       co<INF>2</INF> regulations

    Ms. Browner. We are under rulemaking requirements in the 
Clean Air Act that have nothing to do with Kyoto but rather 
were part of the 1990 amendments to the Clean Air Act that may, 
for example, require us to set requirements for CO<INF>2</INF> 
emissions. That is under the Clean Air Act. It is not in 
contemplation of Kyoto, but it is under an existing statutory 
congressional requirement, and that is the one thing that I 
want to be clear on.
    Mr. Sununu. Will the gentleman yield?
    Mr. Knollenberg. Environmental law between Kyoto?
    Ms. Browner. We are not doing anything to implement Kyoto.
    I think if we were addressing some CO<INF>2</INF> issues, 
which we may well have to do under the Clean Air Act, I am sure 
there are people who will say you are implementing Kyoto. And 
all I want you to understand is we have ongoing 
responsibilities and until Congress changes the Clean Air Act. 
We have responsibilities which may be something that would also 
fall within what Kyoto spoke to. We are not doing it to 
implement Kyoto.
    Mr. Knollenberg. Let me yield briefly.
    Mr. Sununu. Just a point of information. Which section of 
the Clean Air Act gives the EPA or the Federal Government the 
explicit authority to regulate CO<INF>2</INF> emissions?
    Ms. Browner. I didn't say explicit authority.
    Mr. Sununu. You said that the Clean Air Act authorizes you 
to regulate CO<INF>2</INF> emissions, and I just want to know 
what section it is?
    Ms. Browner. Let me be more specific. When we for example 
set chlorofluorocarbon requirements, which we are required to 
do under the Clean Air Act, we would also potentially consider 
CO<INF>2</INF> impacts. We are not setting a CO<INF>2</INF> 
standard. You are right, the Clean Air Act does not say set a 
CO<INF>2</INF> standard. It says deal with CFCs.
    Mr. Sununu. Just to be clear, and you can go back and check 
your remarks and submit any clarification, but I believe what 
you said was that the Clean Air Act gives you the ability to 
regulate CO<INF>2</INF> and that simply isn't correct.
    Mr. Knollenberg. If I can reclaim my time.
    Mr. Sununu. You may have just misspoken.
    Ms. Browner. We have this in writing. We have given it to 
Congressman DeLay and we will have it for you here tomorrow.
    [The information follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]



    Ms. Browner. But the point, Mr. Knollenberg, I want to be 
abundantly clear on, whether or not the language is carried 
forward, the administration agrees, and it is not unique to 
EPA, it is across the administration and the President and Vice 
President have both said this publicly, that this 
administration will do nothing to implement Kyoto until such 
time as it is ratified.

                                 kyoto

    Mr. Knollenberg. That is a good answer at this point. Let 
me turn to something that is internal to EPA and this involves 
you.
    Last year for example you represented the U.S. at the G8 
environmental ministers' meeting in England, and the communique 
that you signed indicates that international emissions trading 
``cannot be used to evade painful domestic reductions in 
greenhouse gas emissions.''
    You also participated in a meeting more recently with the 
environmental ministers between March 26-28 that I believe 
resulted in either further erosion of our U.S. policy. Here are 
some of the statements in that communique you signed. ``On 
climate change we want to start immediately to develop and 
implement the domestic measures to achieve significant 
greenhouse gas emissions reductions.''
    Number two, ``The Kyoto mechanisms, emissions trading, 
shall be supplemental to domestic action.''
    Thirdly, ``We reiterate our call for the Kyoto compliance 
regime to include binding consequences for noncompliance.''
    How can you do that? How can you issue binding 
requirements? This thing isn't binding. We have not signed it 
yet. We have of course the 1991 agreement, the framework, but 
frankly how do you bind something that isn't binding?
    Ms. Browner. I agree with you. The Kyoto Protocol is not 
binding.
    Mr. Knollenberg. What does this mean? You signed this, and 
it must have been okay.
    Ms. Browner. Don't worry, we worked hard to make sure that 
it didn't violate----
    Mr. Knollenberg. Some countries may have signed that 
agreement, and they would be bound; but I don't see where we 
are.
    Ms. Browner. If you would like to read the sentence again, 
I could explain it. We stayed with our lawyers long into the 
night to make sure that we were doing nothing in violation of 
both the President's public commitments and the congressional 
language, which are exactly the same.
    Mr. Knollenberg. ``We reiterate our call for the Kyoto 
compliance regime to include binding consequences for 
noncompliance.''
    I would say, what does that mean? I don't understand it.
    Ms. Browner. As you well know, the international 
discussions go on long after the meeting in Japan. They went on 
before the meeting, and they go on after. There will be another 
round of meetings which I am sure Congress will have 
representatives at. It is in the fall. And that will continue 
to look at the details of how an international agreement, if it 
were agreed to by the United States and other countries of the 
world, would be implemented.
    One of the issues----
    Mr. Knollenberg. This is future. This is not current?
    Ms. Browner. No. We have agreed to continue to work in the 
public forums of the international organizations in the same 
way that we did in Kyoto, with lots of oversight from Congress. 
It is no surprise to anybody that there is a meeting coming up 
this fall that would go into these kinds of issues. It does not 
bind the United States. The only way to bind the United States 
is if the Senate ratifies the treaty.
    Mr. Knollenberg. And I appreciate that. So you have 
committed to implement domestic actions. You have not committed 
to implement domestic actions that----
    Ms. Browner. Not pursuant to the Kyoto requirements.
    Mr. Knollenberg. You don't feel that signing this 
communique, this agreement, in any way violates or compromises 
that position?
    Ms. Browner. Absolutely not.
    Mr. Knollenberg. Does EPA propose to do anything in the 
balance of fiscal year 1999 with respect to any commitment 
otherwise? Your intention is to not commit--or in the year 
2000?
    Ms. Browner. We will not adopt any regulations to implement 
Kyoto prior to congressional approval of the treaty. That is 
the law of the land. Whether your language is there or not, 
that is the law of the land. We are not free to implement the 
treaty absent congressional approval.
    Mr. Knollenberg. Just to conclude this, why are we doubling 
the budget? Where is the money going? That is an oversight 
responsibility of ours, and so we will look at that very, very 
closely.
    I appreciate this exchange because we can go from here. We 
have other rounds. Thank you.
    Mr. Walsh. You can respond briefly.
    Ms. Browner. As the President has said almost since the 
beginning of his tenure in office, we want to work in 
partnership with the business community, States and local 
governments to look at ways in which, on a voluntary basis, we 
can reduce both traditional air pollutants and greenhouse 
gases. And there has been no secret about that, and Congress 
has provided money over the last 6 years for us to do this.
    The increase is in keeping with what we have been doing. We 
have had very, very successful programs such as the Energy Star 
programs and the building efficiency programs. Last year we did 
the World Trade Center, the Empire State Building, and the 
Sears Tower. These programs reduce traditional pollutants, 
greenhouse gases and provide a savings to the business 
community. They are the kinds of partnerships that I think many 
in Congress have encouraged EPA to pursue, and they have been 
quite successful.
    Mr. Walsh. Mr. Price.

                      research triangle park (rtp)

    Mr. Price. Welcome to the subcommittee, Madam 
Administrator. I would like to take my time to address the 
issue of EPA research and, first, facilities issues with which 
you and I are quite familiar, having worked on the 
authorization and appropriations for the new EPA facility in 
North Carolina for many years. Secondly, some questions that 
have arisen about the quality of EPA research and particularly 
the use of the processes of peer review.
    But first the facilities. We are on track this year, I am 
very, very happy to say, to appropriate the funding necessary 
to complete construction of the new lab facility in Research 
Triangle Park which will let us get out of 13 rented facilities 
at last count and to consolidate EPA operations in a first-rate 
facility.
    Ms. Browner. Yes.
    Mr. Price. I wonder if you can indicate the significance of 
this new facility and the progress you are making on the 
construction effort, including the different building elements 
which are included and the time frame for construction?
    Ms. Browner. First of all, I do want to thank the committee 
for their support on this. It has not been easy, but it is 
extremely important to the quality of the science that we do.
    We are in 13 locations right now in Research Triangle Park. 
The ability of our people to work together is currently 
constrained. This will consolidate our people.
    We will move into a state-of-the-art facility. We will have 
state-of-the-art laboratories to do the kind of good science 
that is important to all of our decisionmaking. A lot of the 
work that will be done there will be focused, as you well know, 
on our air pollution challenges, but we also have other work 
that goes on there.
    There are savings to the government, ultimately. Moving us 
out of leased space and into government-owned space will bring 
savings, ultimately. And we are on track. The occupancy date is 
January 2001 and we will look to join you as our first 
employees enter the building. We are thrilled about it.
    If you would like to know more about this, I think you can 
feel very proud of what you have been a part of building and 
Mr. Price I am sure would be happy to show anybody around.
    Mr. Price. And the elements of the project about which 
there were some questions earlier, namely the high bay facility 
and the computer center, those are on track as well?
    Ms. Browner. Yes, all of those are on track. As you know, 
we did a very complex evaluation of relocating the computer 
center. We were able to demonstrate to this committee and 
others that there was a cost savings, and the computer has now 
made its first of what will ultimately be two moves to get it 
to the right place, and we are very happy with that.
    Mr. Price. Part of your request for the RTP project is $13 
million in funding for preparing the new facility foroccupancy 
and for decommissioning the current facility. Could you provide a bit 
more detail orally or for the record as to how those funds will be 
spent?
    Ms. Browner. We are happy to do it for the record.
    Decommissioning is a way of saying that we have a 
responsibility to clean up these buildings as we have been 
obviously dealing with materials in some of these buildings 
that will require appropriate and sound disposal. We will give 
you a list. We want to turn these buildings back to their 
owners in the form in which they would expect them.
    [The information follows:]

                     Research Triangle Park Project

    The Agency has identified $12.35 million in FY 2000 
Transition Costs necessary to close down existing facilities 
and prepare to move to the new Research Triangle Park Campus. 
Specifically, the FY 2000 costs can be broken into 4 major 
categories:
    (1) Telecommunications $7.38M; Costs here are for wiring 
the new campus for telephones and computers which will be used 
by the approximately 2,000 workers at the facility;
    (2) Furniture $3.32M; Costs to begin a lease to purchase 
contract for office furniture to upfit the new facility;
    (3) Overlap Expenses $0.65M; Costs needed to operate the 
new facility while still operating existing facilities. These 
costs will only be necessary during the period of the actual 
move (i.e. after acceptance of the new facility but before the 
end of leases on the current buildings). Examples of costs in 
this area would be duplicate security, custodial, and utility 
costs at current facilities and at the new campus; and
    (4) Decommissioning $1.02M; Costs here are to start the 
Environmental Due Diligence Process which begins with an 
assessment of needed environmental remediation to current 
leased facilities. This is particularly important in the labs 
where work with chemicals and other reactive agents has 
occurred. The labs must be screened, cleaned and returned to 
the property owner in a manner acceptable to the owner. Some 
State of North Carolina laws also apply to the shut down of the 
Resource Conservation Recovery Act (RCRA) permitted facility 
used in the research operations.

    Mr. Price. And we are hoping to make good use of those 
buildings for start-up firms. Lab space is very short in the 
Triangle, and so the facilities that you are leaving will 
potentially find very productive uses.
    Ms. Browner. And the decommissioning is a very important 
part of us leaving those in a state useful to the community and 
to the owners.
    Mr. Price. Good.

                         research: peer review

    Now, turning to the quality of research and, of course, the 
purpose behind all of this which is to make certain that 
regulation of air quality and water quality and other 
environmental matters is based on sound science. Questions have 
come up from time to time at hearings of this subcommittee and 
elsewhere about the quality of the research being funded by 
EPA, and so I want to take a minute here to clarify the nature 
of the way you review research, the peer review process.
    I guess the basic question is, does EPA use the same or 
similar peer review processes as other Federal research 
agencies such as NIH or the National Science Foundation?
    Ms. Browner. Yes, our scientific peer review process is 
similar in form and operation to NSF and NIH. In fact, there 
are instances where NSF uses our peer review panels rather than 
create their own. They view our panels to be of the same 
quality as theirs, and we sometimes use theirs rather than 
create a specific panel. And so there is a real back and forth 
between us.
    Mr. Price. Is there a difference between the peer review to 
which in-house research is subjected and contract research is 
subjected?
    Ms. Browner. All research is subjected to external peer 
review. This includes our graduate student funding that we 
provide where graduate students can make applications for 
certain types of research. That is externally peer reviewed.
    If we undertake research on a certain type of drinking 
water contaminant, that research plan is peer reviewed. We 
subject to peer review everything that is broadly viewed in the 
scientific community as being essential for peer review.
    Mr. Price. Have there been any changes in the last ten 
years in the kind of peer review procedures you undertake?
    Ms. Browner. A significant change. We have greatly expanded 
our use of external peer review.
    We established a peer review policy back in 1993. We just, 
for example, put out information which restates the policy and 
requires not just within our Office of Research and 
Development, but across the Agency sets the protocol for what 
is acceptable peer review. All of the programmatic parts of the 
Agency that may be engaged in some research are required to 
follow this.
    Maybe a good example would be in 1997, when we solicited 
within the Agency a list of all of those research projects that 
might be in need of a scientific peer review panel. We had over 
700 projects come forward as compared to, if you go back to 
1994, about 300 that came forward.
    So we do a very aggressive outreach within the Agency for 
the work we do within the Agency and also for the money that 
leaves the Agency for scientific research.
    I would like to say, Congressman Price and to all of the 
members, I am really proud of our peer review. It has been 
recognized in the scientific community as being some of the 
best government peer review.
    Mr. Price. How many peer review panels have been active at 
any one point?

                         science advisory board

    Ms. Browner. The large panel that we look to and sort of 
the overseer of this is our Science Advisory Board which right 
now has 40 panels sitting under it. That is made up of a mix of 
people from outside of the Agency--universities, industry, 
States, local governments.
    They will look at an issue that we need peer review on. 
They have very public and lengthy agendas. If they feel that 
they cannot do it, they will convene a panel under them. Some 
of the members from that advisory board may sit on the panel, 
and others may come to the panel. The panel members are chosen 
in the same way that the National Academy of Science chooses 
their panel members. We use the same comprehensive list that 
the Academy uses.
    Mr. Price. Who exactly are the peers? Who are the people 
who undertake this responsibility, where are they drawn from 
and how do you ensure that the membership on your review panels 
is balanced? For example, either orally or for the record, do 
you have any indication of how many of these peer reviewers 
come from industry, how many from academia, and how many come 
from research organizations that may have a particular 
environmental agenda? Do you have any way of breaking that 
down?
    Ms. Browner. Yes. We would be happy to provide to the 
committee the list of the thousand or so names from which panel 
membership can be drawn, and what you will see on here, this is 
both our SAB members and what they refer to as consultants. 
These are other scientists if they have to go beyond the 
original panels and bring other experts in, and you will see we 
draw from over 80 universities. There are 50 companies. We have 
Exxon, General Motors, and we have a number of States that we 
have now been able to bring to this.
    These are all people who have jobs somewhere else, and this 
is in some ways something that they are volunteering to do. But 
the panels are required to be balanced, and I ammore than happy 
to provide this list. It is a very prestigious list of scientists that 
are willing to give us their time.
    Mr. Price. I think it would be helpful to have that list 
and some indications of how people are deployed on specific 
panels----
    Ms. Browner. We can do that.
    Mr. Price [continuing]. And, also, how you balance the 
individual panels as you work on their composition.
    Ms. Browner. We can do that.
    [The information follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]


                peer review: number of scientific papers

    Mr. Price. What is the output in terms of peer-reviewed 
articles that the Agency can lay some claim to each year and 
are accessible to the wider research community?
    Ms. Browner. If you just looked at the Office of Research 
and Development, the scientists in that office in terms of the 
number of peer-reviewed, published scientific papers, we are 
over a thousand for 1997 and 1998, over a thousand individuals 
in our Agency who did work that was externally peer reviewed 
and thought of great enough value to be published in a journal 
having nothing to do with EPA, over a thousand papers in a 2-
year cycle. Pretty impressive.
    Mr. Price. It is impressive, and as much as we may debate 
environmental issues, issues of regulation and command and 
control versus other techniques of environmental protection, as 
much as we may debate these things, I think one issue that we 
have tended to agree on across party lines and across 
ideological lines is the necessity for quality research, 
research in which we all can have confidence and research which 
will serve as a factual basis for sensible and sound 
regulation.
    I think it is for that reason that most of the time over 
the last number of years we have had consensus on the need for 
the kind of research facility that we are bringing on line in 
North Carolina, and we have been able to get solid support for 
your research budget.
    This question of the quality control, the peer review 
process, has come up from time to time; and I appreciate your 
clarifying the process that you utilize. If there is further 
information that you would like to furnish for the record, I 
hope that you will do that.
    Ms. Browner. Thank you. We will do that.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Mr. Price.
    Mr. Sununu.

                    clean air partnersip fund: goals

    Mr. Sununu. Thank you, Mr. Chairman. Thank you, 
Administrator. I admire your stamina. I have been impressed by 
it before, and I remain so.
    A number of the members here have talked about various 
programs under the auspices of the EPA that have done some 
terrific things in local communities and in areas where we are 
spending funds and perhaps need to spend more. As a result of 
those priorities, I am always skeptical of new spending 
initiatives, and it is nothing specific to the EPA. When we 
advocate creating a new program and spending funds on it, it 
carries with it the implicit suggestion that this is an 
initiative that is not being covered in other programs or that 
all of the funds that you have access to are already being 
expended as efficiently as you can and we can't find savings to 
divert funds from other areas.
    With that in mind, I would like to talk a little bit about 
the partnership fund in particular, and I just ask that you 
describe in a little more detail, not excessive detail, but 
what the goals of that partnership, the Clean Air Partnership 
Fund would be?
    Ms. Browner. The goals----
    Mr. Sununu. That is the $200 million.
    Ms. Browner. I understand.
    The goals would be to provide, for those communities that 
wish to, an opportunity for some Federal dollars to develop 
ways to address both additional air pollutants--fine particles, 
ozone and others--and greenhouse gas reductions.
    There is a lot that goes on in these communities that is 
creative and innovative; and, quite frankly, it is not going to 
happen at the Federal level.
    Mr. Sununu. So is this a partnership with the EPA in a 
community or is this a partnership with EPA and private sector 
firms?
    Ms. Browner. It is up to the community to decide. It is up 
to the applicants to decide, as with Brownfields.
    Mr. Sununu. Are you looking for voluntary participants, 
basically anyone that wants to submit an application?
    Ms. Browner. I think we have suggested to Congress that the 
public sector is a piece of this. It does not have to be 
exclusively public but not exclusively private.
    Mr. Sununu. A voluntary program?
    Ms. Browner. No one is required to join this fund.
    Mr. Sununu. Are you encouraging people to participate in 
any way?
    Ms. Browner. Not yet. You have not appropriated the money.
    Mr. Sununu. In a hypothetical situation where some funds 
are appropriated, you say you haven't encouraged anybody to 
submit an application or to prepare an application or consider 
an application to date?
    Ms. Browner. I haven't spent a lot of time explaining to 
communities that we are asking you for the funds.
    Mr. Sununu. But if you had the funds, you would encourage 
people to participate?
    Ms. Browner. Absolutely.
    Mr. Sununu. Would you recognize those that participate in 
any specific way?
    Ms. Browner. Well, they would get money. That is probably 
the best recognition. Are you suggesting would we give them 
awards?
    Mr. Sununu. Sure. Any rewards other than the funds?
    Ms. Browner. Usually that is what they want. Would you like 
us to? Any time a local community----

                       clean air partnership fund

    Mr. Sununu. I am not designing the program. I would hope 
that those who are designing the program----
    Ms. Browner. It is not designed to simply hand out awards. 
It is designed to say to local communities, public-private 
efforts, we know that you frequently have creative, innovative 
solutions and you can't get funding through traditional 
sources. This is a pot of money for that kind of innovation, 
for that kind of new thinking.
    Mr. Sununu. Voluntary reductions?
    Ms. Browner. Voluntary.
    Mr. Sununu. What about future credits?
    Ms. Browner. Yes.
    Mr. Sununu. Get emissions credits against regulated 
emissions that would count for any future regulations that 
might be submitted, if you lower the particulate standard, for 
example?
    Ms. Browner. If you lower pollutants, you get--like in a 
SIP call, you would get----
    Mr. Sununu. Credits for CO<INF>2</INF> emissions even 
though it is not regulated right now by the EPA?
    Ms. Browner. SIP calls only cover pollutants regulated by 
the EPA, and that is where the credit program exists.
    Mr. Sununu. So if someone were to voluntarily reduce their 
CO<INF>2</INF> emissions, they would get no credit for it?
    Ms. Browner. But you are talking about the State 
implementation planned programs which are used to address 
traditional pollutants, and this fund would be for traditional 
pollutants and greenhouse gases. And so as it relates to the 
traditional pollutants and the reductions they achieve, they 
would be eligible for SIP plan credits, yes, as it relates to 
the traditional pollutants.
    Mr. Sununu. Has the program been submitted for public 
comment?
    Ms. Browner. You guys haven't approved the program, and so 
the way----
    Mr. Sununu. Usually we appropriate funds for programs that 
have been approved.
    Ms. Browner. We have authority under the Clean Air Act, 
under our grant authorities. If Congress agrees with us--and we 
hope that you will--we would go through a public process in 
terms of how to shape the specifics of the program.
    But, Congressman Sununu, I would think if I were out doing 
that today, asking people, well, should applications be 
received on that date versus this date, you would be critical 
of me for doing something that Congress had not given me 
permission to do.
    Mr. Sununu. Very possibly. I am asking what actions you 
have taken to date to evaluate whether the program has good 
criteria, whether it is within the bounds of your jurisdiction 
and whether there are duplicative programs. This is important 
to know before we appropriate $200 million.
    My final point is just I guess to ask if you share concerns 
that I have that are raised by the Court of Appeals ruling this 
week that struck down a voluntary program that OSHA had 
established. The Court of Appeals found that, although strictly 
voluntary, the CCP program that OSHA had amounted to a new 
government regulation and therefore should have been submitted 
for public comment. And that was reported in yesterday's Wall 
Street Journal. It seems to me that this is structured as a 
very similar voluntary program and, therefore, is subject to a 
similar--potentially a similar ruling. It obviously has not 
been litigated.
    Ms. Browner. The Clean Air Partnership Fund is a grant 
program. There is broad agreement, and in fact all of the 
earmarks we have been discussing move out through our grants 
process. We clearly have authority that Congress has granted us 
to make grants.
    Ms. Browner. This is simply for those communities that 
would like to take advantage of a grants program. You are not 
required to take advantage.
    Mr. Sununu. Under the OSHA programs, companies were invited 
to take part by agreeing to establish safety and health 
programs and fix hazards. It would seem to me in an analogous 
way to agree to the voluntary emissions requirements that you 
are suggesting. I simply raise this as a concern.
    Ms. Browner. I don't think the OSHA program was a grant 
program, was it?
    Mr. Sununu. I don't sit on the court, and so I don't know 
whether that distinction would make any difference in the eyes 
of the court in their interpretation as to whether or not the 
program would be legal or not. Again, I am raising it as a 
concern; and it was a very recent ruling.

               superfund: potentially responsible parties

    On to a different subject which I am sure you are happy to 
talk about. You spoke your one demand, which I found very 
interesting----
    Ms. Browner. On Superfund?
    Mr. Sununu [continuing]. On Superfund, yes. And clarity is 
always appreciated. And you said, well, polluters have to pay 
their fair share.
    Ms. Browner. Yes.
    Mr. Sununu. It sounds cogent enough. What do you mean by 
``fair share''?
    Ms. Browner. We made many proposals for Congress on how you 
could structure a fair share allocation system, including, for 
example, orphan shares would be honored out of the fund and not 
through the responsible parties. That is one example. There are 
others.
    Mr. Sununu. Is it fair for any entity, municipal or a 
private sector firm who wasresponsible for 5 percent of the 
pollution on the site to be responsible for 100 percent of the cleanup? 
Is that what you mean by fair share?
    Ms. Browner. I am happy to answer that question if you want 
to flesh out the example. Where is the other 95 percent? What 
is the situation with the other 95 percent? I am happy to 
answer it. Is it other parties?
    Mr. Sununu. Two firms, both private sector, one is 
bankrupt, went bankrupt 20 years ago, is responsible for 95 
percent of the pollution on a site. One firm is General 
Electric, just to use a very hypothetical example, is 
responsible for 5 percent of the pollution.
    Ms. Browner. General Electric would be thrilled if it was 
only 5 percent at one of their sites.
    Mr. Sununu. This is a hypothetical example. They 
areresponsible for 5 percent of the pollution; and, under the current 
law, under your definition of fair share, you would like to hold them 
responsible for 100 percent of the cleanup costs. I don't think that is 
what most Americans would define as fair share.
    Ms. Browner. You said my law. I didn't write the Superfund 
law. I asked you to rewrite it.
    Mr. Sununu. Under existing law, joint, several and 
retroactive liability. I am simply trying to clarify what you 
interpret to be fair share. If someone is responsible for 5 
percent of the pollution, is it fair that they are responsible 
for 100 percent of the cleanup?
    Ms. Browner. We have taken the position very strongly in 
all of the reauthorization debates that Congress should 
create--in fact, our budget asks you to do it yet again--an 
orphan share fund that would be used to pick up on a case-by-
case basis the liability--all or a portion of the liability of 
defunct parties.
    Mr. Sununu. If that is the responsibility that you think 
the Federal government should have, then why should the party 
that is responsible for 5 percent of the pollution be--subject 
to be held liable for 100 percent of the costs?
    Ms. Browner. Work with us to rewrite the law. That is the 
current law. I oppose the current law. I have said to you 
repeatedly it is not a good law.
    Mr. Sununu. You are taking a position--the administration's 
position is to oppose joint, several and retroactive liability 
that would hold that polluter responsible for 5 percent to 100 
percent of the costs?
    Ms. Browner. The administration's position is to create an 
orphan share. We have asked you every year, and every year you 
deny it. We have asked you to create a law.
    Mr. Sununu. Was that a yes? You are opposed to joint, 
several and retroactive liability for----
    Ms. Browner. You can ask these questions in a legal 
abstract or you can look at how it actually works out at the 
site. The best way to work this out at a site, we have many 
people who support this, is to create a fund of money set 
aside, protect it. We are here asking you in this budget to do 
it. That would allow us to pick up the people's share.
    Mr. Sununu. Whether or not that fund exists is irrelevant 
to whether or not the law holds parties responsible for a 
proportionate share or for the full share, no matter how little 
responsibility they bear on the site. Those are two different 
issues. And I may well support you and be inclined to support 
you in establishing a mechanism to ensure reasonable funding 
streams for an orphan share, but that is different than 
supporting the principle of joint, several and retroactive 
liability that will take a business, large or small, that is 
responsible for 1 percent of the pollution at the site and hold 
them liable for the full cost of the site.
    And that is, it seems to me to be, the administration's 
definition of fair share is--has nothing to do with 
proportionality, which certainly this administration has used 
in defense of many other areas of its involvement.
    We are not going to resolve this. But I think it is 
important that we make a clear distinction as to what the 
difference of opinion in fair share is, and fair share in and 
of itself doesn't necessarily specifically describe the 
problems that these sites have.

                          superfund: delisting

    You mentioned with regard to delisting sites, I think you 
stated--well, if a State would like to have a site delisted, 
they should talk to us.
    Ms. Browner. No, no, no.
    Mr. Sununu. No.
    Ms. Browner. Mr. Sununu, please, the question that I was 
asked is, if a State would like to take over operation of a 
pump and treat, do we have a problem? And I said they should 
talk to us. We are happy to talk to them. That is different 
than what--you just turned the question around. You said 
something different.
    Mr. Sununu. I said delist----
    Ms. Browner. And I said maintenance of pump and treat. That 
was your prior question. That is the question I answered.
    Mr. Sununu. Yes. And you make a distinction?
    Ms. Browner. No.
    Mr. Sununu. Are you supportive of both? I mean, you are 
supportive of States talking to you if they want to take 
responsibility for pump and treat?
    Ms. Browner. Absolutely.
    Mr. Sununu. If the State also wants to make an argument to 
have a site delisted, I assume you are willing to talk to them 
about that as well.
    Ms. Browner. Absolutely, but they are two separate issues.
    Mr. Sununu. Yes, one could lead to the other; but, yes, 
they are, sure. If that is the case, though, if States need 
only--if you are willing to engage in discussions about 
delisting or taking responsibility for pump and treat, which 
I--why have so few sites--let us leave that pump and treat case 
out, because this was originally a question about delisting. 
Why have so few sites been delisted? It comes back to the 
question that was asked before.
    Ms. Browner. Because of pump and treat; and because, as I 
am sure you understand, dollars are being spent to ensure that 
pump and treat is becoming----
    Mr. Sununu. What about the sites where there are no further 
remedial action that is under the natural attenuation, is it 
the current connective action program?
    Ms. Browner. We are happy to provide you of the 585 
construction completions. We are happy to provide you with, it 
is pump and treat of natural attenuation.
    Mr. Sununu. Are you saying there is ongoing operation?
    Ms. Browner. There are 274 with ongoing operations.
    Mr. Sununu. Put that aside, though. Are you saying that at 
all 1,400 sites that are currently on the NPL, 1,380 sites, 
there is remedial action being undertaken at all of them----
    Ms. Browner. No, they are in different States.
    Mr. Sununu. In other words, O&M costs?
    Ms. Browner. No, I am happy to explain the stages. I 
haven't said that, and I haven't suggested that.
    Mr. Sununu. My suggestion is this: At some of those 1,380 
sites, there are no further O&M being expended----
    Ms. Browner. Right.
    Mr. Sununu [continuing]. And they haven't been delisted. 
And that doesn't mean that no one would have responsibility. 
Obviously, the State would have responsibility.
    Ms. Browner. I can tell you last year we delisted about 30.
    Mr. Sununu. So we have a number?
    Ms. Browner. No.
    Mr. Sununu. We have a number now. I mean, we didn'thave one 
before. But that was asked earlier, how many have been delisted, and we 
didn't get an answer. But the number is 30 for last year; is that 
correct?
    Ms. Browner. Yes.
    Mr. Sununu. How many do you anticipate that would be 
delisted this year?
    Ms. Browner. Approximately 30.
    Mr. Sununu. About the same?
    Ms. Browner. Yes. We have a different point of view, 
obviously, you and I. And I think the real measurement of 
success is in communities and the fact that this administration 
has gotten the bulldozers out, has tidied up these sites. Pepe 
Field is a great example. You may have one in your field. I 
don't know. I am happy to hear about it. And that communities 
can use these sites is the most important measurement of 
success.
    We have done more in 6 years to do that for communities 
than the first 12 years of the program; and there is no 
disputing that, I don't think, when you look at the numbers.
    Now, the accounting system, in fact, was developed under 
the prior administration. I defend it. I think it is the right 
accounting decision to talk about construction completions. I 
didn't create it. I am used to using it.
    Mr. Sununu. Thank you. I am cognizant of the rate of 
cleanup and the amount being expended and the successes in 
getting work done on sites, and I don't believe I have said 
anything to detract from those achievements. I am focusing on a 
very specific problem, which is the tendency for sites--some 
sites, many sites, I believe--to remain on the priority list 
even once work is complete and operation and maintenance costs 
are zero or nonexistent. And you don't believe that is a 
problem?
    I take that to be a positive sign, because that means there 
is an intention on the part of the Agency to take those sites 
off the list; and if there is a specific problem that I am 
aware of, I won't hesitate to raise it as an issue. I have 14 
Superfund sites in my district, all in varying stage of 
construction complete. Some where all work and operation and 
maintenance has been complete, and they are still on the 
priority list. Some where there are minimal involvements, 
minimal operation and maintenance costs. Other cases where 
there is ongoing negotiations and implementation of new 
technology.
    Ms. Browner. Maybe if I could make this suggestion----
    Mr. Walsh. John, could I exercise my discretion?
    Mr. Sununu. I am done my questioning in the interest of 
time.
    Mr. Walsh. I will leave that as a rhetorical question/
statement. And I will give you an opportunity, since I am going 
to ask a question now, and what we will try to do is end with 
the remaining folks that are here, everybody get maybe one 
issue addressed before we close at noon. I will give you an 
opportunity to respond briefly if you would.
    Ms. Browner. Yes, very quick. Why don't we give you in 
writing 585 sites whether or not there is O&M--just--we will 
give you a status on every single one of them. If you think--
no, this is the best way to do it, and then you can say to us, 
if you think in your district or in anyone else's district one 
of them should have moved over to the D list as opposed to 
construction complete and let us have that discussion.
    There is no secret here. There is no effort to put 
something over on anyone. There is simply a commitment to get 
the job done. Nothing could make me happier than more 
delistings.
    Mr. Walsh. All right. We will let that stand. We would 
appreciate you getting back to us.
    [The information follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. I think we have--I have just to clarify. 
Obviously, no one is disputing the fact that this Environmental 
Protection Agency under your leadership has done more cleanups 
than any other. Let us be fair and say that much of the 
preliminary work that is required to be done, legal and 
otherwise, prior to the actual construction, mitigation process 
was done in prior administrations. I will let that stand at 
that.

                   enforcement compliance assistance

    Enforcement and compliance. Over the past few years, the 
committee has consistently expressed its support for increased 
compliance assistance in lieu of the more traditional 
enforcement activities. You might consider this as a--
supporting the carrot instead of the stick.
    I believe you have during the hearings also generally 
supported compliance assistance, although not necessarily in 
lieu of increased enforcement. I think it is fair to say EPA 
has for many years measured enforcement success in terms of 
both the number of civil and criminal cases referred to the 
Department of Justice and fines and penalties. Those and other 
enforcement actions generate what you said earlier in the day, 
notwithstanding that everybody hates lawsuits.
    As noted in previous committee reports, Federal 
environmental statutes typically require the States to 
eventually implement enforcement activities for each regulated 
media; and the States have, for the most part, succeeded in 
that role. It has been reported that States, in fact, provide 
about 90 percent of all enforcement activities. Nevertheless, 
despite the growing and successful enforcement role of the 
States and despite the fact that EPA has reported a decline in 
the number of both civil and criminal case referrals to the 
DOJ, you once again have asked for increased appropriations for 
enforcement activities and decreased appropriations for 
compliance assistance in and self-audit.
    According to your justification, enforcement activities 
would receive an additional 19--almost 20 million over the 1999 
level, while the increased use of auditing and self-policing 
activities would decrease by just over 8 million relative to 
the 1999 level. Compliance assistance, in particular, would be 
reduced by over $5 million from the 1999 level.
    Why should we provide you an increased enforcement budget 
including 114 new FTEs at a time when States are providing 
increased and improved enforcement?
    Ms. Browner. It is a large issue, and you raise a lot of 
points. But I will try to answer as quickly as possible.
    One, we continue to agree that compliance assistance, 
preventing the problems first, is always preferred. We have set 
up small business compliance centers. We have a number of 
compliance assistance programs, and those are carried forward 
in the budget. I would be happy to give you that in writing.
    [The information follows:]
                   Enforcement Compliance Assistance
    EPA is not requesting an increase to the enforcement budget. The 
2000 request for the Office of Enforcement and Compliance Assurance 
(OECA) is characterized differently from 1999. We made two major 
changes to our budget: (1) we consolidated resources used for state and 
local capacity building into a single objective; and, (2) we used the 
results from a study on OECA's Regional compliance assistance program 
to revisit the methodology previously used to estimate the number of 
resources dedicated to compliance assistance activities.
    In 1999, resources that were dedicated to state and local capacity 
building were placed in both objectives under the Deterrence goal. In 
2000, we moved 50 workyears (that had been identified for this purpose) 
from the objective that promotes the ``increase use of auditing and 
self-policing policies'' to the objective on ``enforcement tools to 
reduce non-compliance''. We moved these resources because the 
activities better support the capacity building annual performance 
goals under the ``enforcement tools'' objective. However, there is no 
change to the activities which will be carried out.
    OECA recently conducted a study of the compliance assistance and 
enforcement work being done in the Regions. Results from the study 
prompted us to revisit the methodology previously used to estimate 
regional resources dedicated to compliance assistance activities. We 
found that the previous methodology identified more workyears providing 
compliance assistance than were actually doing this type of work. In 
order to be consistent with the GPRA (Government Performance and 
Results Act) framework of aligning resources with intended use, our FY 
2000 budget request reflects how our regional resources have actually 
been utilized between compliance assistance and enforcement.
    In 2000, we moved the remaining workyears from the objective that 
promotes the ``increase use of auditing and self-policing policies'' to 
the objective on ``enforcement tools to reduce non-compliance''. The 
shift does not reflect a reduction in our actual efforts to deliver 
compliance assistance, but a technical correction to the amount of 
workyears (and payroll dollars) needed to continue to deliver a 
consistent level of compliance assistance. The level in the 2000 budget 
request is a more accurate reflection of the workyears needed to 
continue the level of effort we have been putting into our monitoring 
and enforcement efforts. The compliance assistance program is very 
leveraged with contract dollars and not as FTE intensive as enforcement 
work. While we are now able to more accurately identify the appropriate 
level of FTE dedicated to this effort, the contract dollars are 
consistent with past funding levels.
    EPA has a very robust compliance assistance program. We provide 
information on federal rules and regulations through the nine 
compliance assistance centers which we are committed on sustaining in 
the future. We have also developed 27 sector notebooks, 18 plain 
language guides, and self-auditing tools, such as the self-policing 
policy. The compliance assistance program requires contract dollars to 
maintain its current level of support while the enforcement program is 
people intensive. Compliance assistance is a very important component 
of our program and we are committed to sustaining our current efforts 
in the future.

    Ms. Browner. The second instance of----
    Mr. Walsh. But you have reduced your request in funding, 
have you not?
    Ms. Browner. No, not when you look across the Agency.
    Steve Herman.
    Mr. Herman. I am Steve Herman, Assistant Administrator, 
Office of Enforcement and Compliance Assurance.
    Mr. Chairman. The funding for compliance assistance has 
stayed the same. In our accounting for compliance assistance, 
we are not reducing any activities. We have done a truth in 
accounting.
    Ms. Browner. We can give that to you in writing.
    Mr. Herman. We can give you that in writing, but we have 
not decreased compliance assistance at all.
    Ms. Browner. If I might, Mr. Chairman----
    Mr. Walsh. Compliance assistance in centers--this is your 
document--fiscal year 1999, appropriated level $23.1 million. 
Your budget request is for $17.8 million, $17.9 million.
    Mr. Herman. The FTE moved so that it reflects where the 
people really were, but the actual funding has not gone down.
    Ms. Browner. Mr. Chairman, there are earmarks that we 
carried in that component of our budget which we do not carry 
forward. We will give you a full accounting of it. But we were 
told by Congress, and we have done it, to create certain 
compliance assistance mechanisms, and we are not carrying them 
forward.
    Mr. Walsh. So in terms of priorities, this has not 
diminished as a priority?
    Ms. Browner. No, we are not diminishing it. In fact, it has 
been very successful.
    If I might turn to the issue you raise of the number of 
cases filed, and I know you would agree with this, the question 
is not bean counting. It is not how many cases. I think it is 
the quality of those cases. It is the environmental benefits 
that came from those cases. And we have had a very concerted 
effort under way with the States to recognize that there are 
certain types of case enforcement activities that the States 
are better set up to do and there are others which they cannot 
do.
    The best example that comes to my mind quickly is the case 
that we ultimately settled against every single diesel engine 
manufacturer for violation of Clean Air Act standards on their 
emissions controls. No State would have been able to bring that 
kind of case. It took a huge amount of resources, the 
environmental benefits to the American people are quite 
significant, and for communities dealing with nonattainment, 
they are counting on these trucks meeting these national 
standards. It is part of the solution.
    And so what we have tried to do is focus our efforts on 
those kinds of very large, complicated cases and leave to the 
States some of the smaller, the more traditional cases. You 
need both.
    Now, we have, unfortunately--and this has been very 
public--had some problems with some of the States in terms of 
their commitment to enforcement. Our IG has done a number a 
reviews of State enforcement, and they have not always been, I 
think, what everyone would hope they should be. But to suggest, 
because States do more of a certain type of enforcement 
activity, that the ongoing work of EPA and our focus on these 
more large-scale programs means that the numbers have changed 
somehow, I think it is a more complicated strain. I actually 
think it is an appropriate reallocation of responsibilities 
between the Federal Government and the States.
    Mr. Walsh. I may return to that my next go-round.
    Mr. Mollohan.

                   Brownfields: Showcase Communities

    Mr. Mollohan. Thank you, Mr. Chairman.
    Madam Administrator, last year EPA designated 16 
communities as Brownfields Showcase Communities. What is a 
Brownfields Showcase Community?
    Ms. Browner. The Showcase Communities are communities that 
made applications to a particular program, which brought 
together the resources of not just the Environmental Protection 
Agency, but a whole host of Federal agencies and departments to 
address Brownfields' challenges.
    So, for example, in some of the Showcase Communities, it is 
a combined effort of EPA, HUD. In one instance, I think the 
Department of Justice has been involved. NOAA has been 
involved. We are taking our initial efforts at Brownfields and 
recognizing that some communities have moved further along. We 
are at a point now where what they need is a whole array of 
Federal coordination, which made available through the Showcase 
Communities.
    Mr. Mollohan. Is there a definition of a Showcase 
Community? Is it a separate program?
    Ms. Browner. It was a competitive process. The communities 
had to apply for it, and we received far more applications than 
there were resources available.
    Mr. Mollohan. Can you provide us with a list of the 
Showcase Communities?
    Ms. Browner. Yes. We have it right here, and we will submit 
it for the record.
    Mr. Mollohan. Okay, thank you. If you wouldn't mind 
providing me with a copy or telling me if we can find it.
    Ms. Browner. We can give this to you today.
    [The information follows:]

                          Brownfields Showcase

    There are 16 designated Brownfields Showcase Communities:
Baltimore, MD
Chicago, IL
Dallas, TX
East Palo Alto, CA
Eastward Ho! (Southeast Florida)
Glen Cove, NY
Kansas City, KS and MO
Los Angeles, CA
Lowell, MA
Portland, OR
The State of Rhode Island
St. Paul, MN
Salt Lake City, UT
Seattle/King County, WA
Stamford, CT
Trenton, NJ
    The following agencies have been involved with these 
cities:
Department of Agriculture (USDA)
--U.S. Forest Service (USFS)
Department of Commerce (DOC)
--Economic Development Administration (EDA)
--National Oceanic and Atmospheric Administration (NOAA)
Department of Defense (DOD)
--U.S. Army Corps of Engineers (USACE)
Department of Education (ED)
Department of Energy (DOE)
Department of Health and Human Services (HHS)
--National Institute of Environmental Health Sciences (NIEHS)
--Agency for Toxic Substances and Disease Registry (ATSDR)
Department of Housing and Urban Development (HUD)
Department of Interior (DOI)
--National Park Service (NPS)
Department of Justice (DOJ)
Department of Labor (DOL)
Department of Transportation (DOT)
Department of Treasury (Treasury)
--Office of the Comptroller of the Currency
Department of Veterans Affairs (VA)
Environmental Protection Agency (EPA)
Federal Deposit Insurance Corporation (FDIC)
Federal Housing Finance Board (FHFB)
General Services Administration (GSA)
Small Business Administration (SBA)

    Mr. Mollohan. Will additional communities be designated as 
Showcase Communities in 1999 and 2000?
    Ms. Browner. Mr. Fields is telling me that we are 
suggesting that the next round of applications will be 
submitted in 2000 with a selection made in 2001.
    Mr. Mollohan. There are no other opportunities in fiscal 
year 1999?
    Ms. Browner. We have other Brownfields programs that people 
can submit for in terms of the Showcase Communities. We were 
going to do that again in 2000. But the other programs are 
available, and we are happy to work with a community if they 
need assistance beyond the EPA program to provide that.
    Mr. Mollohan. But there is no Showcase Program for fiscal 
year 1999?
    Ms. Browner. The Showcase Community selected would be 
ongoing, but you are right.
    Mr. Mollohan. Just so I make sure you understand my 
question. What I am asking, there is not a round being 
processed for fiscal year 1999?
    Ms. Browner. That is correct.
    Mr. Mollohan. Or for fiscal year 2000.
    Ms. Browner. Applications would be submitted in 2000, the 
awards made in 2001. That is correct.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Frelinghuysen.

              Chemical Hazard Safety Board: EPA Assistance

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Madam Administrator, both Senator Lautenberg and I have had 
an interest in the Chemical Safety and Hazards Investigation 
Boards whose appropriations are also under the jurisdiction of 
this subcommittee.
    The Clean Air Act stipulates that the EPA administrator, 
and I quote, shall provide to the board such support and 
facilities as may be necessary for their operation of the 
board.
    Has the board requested any assistance from your Agency? 
What have they requested? It is my understanding that the board 
has requested assistance in the following areas: facilities----
    Ms. Browner. We have offered them space. I don't think they 
took it, though. I can find out for you. They declined the 
space we offered. Most people don't like Waterside Mall.
    Mr. Frelinghuysen. They may not like----
    Ms. Browner. That is what we have.
    Mr. Frelinghuysen [continuing]. Where they are potentially 
located, but what else have you offered in the way of 
equipment, administrative resources, personnel?
    Ms. Browner. We have offered that. We would be happy to 
give you a detailed explanation of what we have offered.
    We have offered technical assistance. We have offered 
administrative assistance. We have offered space.
                         Chemical Safety Board
    Provide a list of equipment, space, and administrative services 
offered by EPA and whether CSB accepted offer.
    1. Space: EPA worked with GSA to identify office space that would 
meet CSB needs. EPA offered space at the Fairchild Building 
(Washington, D.C., currently houses EPA employees) that could be built 
out to meet CSB needs. EPA also offered space at Waterside Mall 
(Washington, D.C., currently houses EPA employees). If CSB accepted 
either Fairchild or Waterside space, EPA offered architectural and 
planning services. CSB elected not to accept these offers.
    2. Investigation Support: EPA offered accident investigation 
support. Under Clean Air Act section 112(r)(6)(C)(I), the CSB can 
investigate or ``cause to be investigated . . . any accidental release 
resulting in a fatality, serious injury or substantial property 
damages.'' Further, section 112(r)(6)(D) authorizes the CSB to 
``utilize the expertise and experience of other agencies.'' EPA 
indicated a willingness to undertake a full investigation, the fact 
finding portion, or any other portion of an investigation, for 
subsequent independent review by the CSB in much the same way that the 
Federal Aviation Administration (FAA) collects information and conducts 
investigations for the National Transportation Safety Board (NTSB). CSB 
declined this offer.
    3. Information Sharing: EPA has offered any information in our 
files with respect to any accidents under investigation or with respect 
to our accident prevention programs and regulations. CSB has accepted 
regulatory background information with respect to explosives and 
accident investigation information with respect to two cases. No 
further requests have been received from CSB.
    4. Training, Analytical Services, Staff Support: EPA offered the 
CSB access to free (except for travel) training courses available at 
EPA locations and access to laboratory and analytical services as 
needed to support accident investigations. CSB has not yet taken 
advantage of these offers. EPA has also offered access to consultants 
and experts that have helped EPA on past investigations; CSB has taken 
limited advantage of this opportunity. EPA has explored the possibility 
that EPA staff investigators could support CSB investigations on loan 
or on a more formal (detail) basis, subject to mutual agreement. While 
this has not been recently discussed with CSB, EPA remains open to such 
arrangements.
    5. Coordination: Y2K, Research and Memorandum of Understanding: EPA 
participated with CSB in a Research Forum held in May, 1998, and in a 
Y2K workshop held in December, 1998. Although CSB did not take 
advantage of an opportunity to co-sponsor with EPA an ``Alert'' to the 
chemical industry on Y2K issues, CSB reviewed and supported EPA's 
product. EPA and CSB entered into a Memorandum of Understanding (MOU) 
in March 1999. The MOU outlines areas of responsibility, coordination, 
and cooperation on emergency response, accident investigations, 
information sharing, notification, research and international.
    6. Other Administrative Services: CSB has not requested EPA 
assistance for any other administrative services (e.g. contracts, 
payroll, travel, etc.).
    7. Miscellaneous Resources: CSB requested and EPA offered: Library 
Services, Books, Meeting Space, Computers, Scanners, Investigation 
equipment as needed (person protective equipment, other devices). CSB 
has not yet taken advantage of this offer.

    Mr. Frelinghuysen. And?
    Ms. Browner. I think in some instances it has been accepted 
and in others it was not to their liking.
    Mr. Frelinghuysen. So it is a nice way of saying you don't 
have a particularly cozy relationship with this group?
    Ms. Browner. I think we do.
    Mr. Frelinghuysen. What is the story?
    Ms. Browner. We did a lot of the investigations for them. 
We have a good relationship. They didn't like the space we 
inhabited. We have signed an MOU.
    Mr. Frelinghuysen. You have?
    Ms. Browner. Oh, yes.
    Mr. Frelinghuysen. So progress has been made?
    Ms. Browner. Yes.
    Mr. Frelinghuysen. I would like to shift here----
    Thank you, Mr. Chairman.
    Mr. Walsh. We are trying to make these quick. Thanks.
    Mrs. Meek.
    Mrs. Meeks. Thank you, Mr. Chairman.

                propane gas rule: impact on small users

    Just quickly, Secretary Browner, it is just a follow-up to 
the question that I asked you about the propane gas. These 
little people, I mean these little users, they must be in 
compliance by June 15th, June 21st?
    Ms. Browner. We are taking them out. They are not going to 
have to be in compliance with anything.
    Mrs. Meeks. So you don't have to announce it? You don't 
need to?
    Ms. Browner. We are happy to tell anybody that. But don't 
worry. What would happen on June--normally, what would happen 
is----
    Mrs. Meeks. I am sorry. I don't want you to answer it, 
because my time may go away. You already said. It is okay. Is 
it all right?
    Ms. Browner. Let us be really clear. If you store 18,000 
gallons or less, and I think all of you have this, they are not 
going to have to submit by June 21st.
    Mrs. Meeks. All right.
    Ms. Browner. Okay?
    Mrs. Meeks. I am trying to get into another little edge. 
That is for the small users. What about the dealers? You didn't 
make any kind of exception for them.
    Ms. Browner. I am sorry. The exception refers only to 
gallons. We don't care what you call yourself. It is gallons.
    Mrs. Meeks. Okay. My question is, why are you picking on 
the little propane people?
    Ms. Browner. We didn't. Congress suggested.
    Mrs. Meeks. It is a pretty clean fuel, pretty clean gas, 
isn't it? Clean burning at least?
    Ms. Browner. Lots of things are good and clean when used. 
When they explode, they present hazards. And, for example, 
firemen need to have some information to deal with those 
hazards. There have been a half dozen instances of large 
propane facilities that have had accidents. And the whole point 
of this is to deal with that.
    When Congress first passed the law--I think they included 
everything. I don't think there is any disagreement here. We 
recognize that below a certain level an accident does not 
present the same kind of problem, and so we are making that 
distinction. We would be happy to provide a list of some of the 
large facilities and the nature of the accidents.
    For example, there was one accident in Ohio at a large 
facility, and seven were injured, buildings were destroyed, 
homes were evacuated. So this information that will be required 
on the 21st, will be important to the emergency response teams. 
But we recognize that below a certain size we don't care what 
you call yourself, your accident does not pose the same 
potential threat.
    Mrs. Meeks. All right. I knew you were going to answer that 
way, because it is a very smart lady. But I knew I could have 
predicted your answer.
    But the fire people--this is it, Mr. Chairman--fire people 
aren't that concerned about this?
    Ms. Browner. They are about the large ones.
    Mrs. Meeks. They are more concerned about safety, and gas 
people are concerned certainly about the fact that it is a 
clean burning fuel. But I won't belabor that.
    Ms. Browner. I think the line we are drawing was a source 
of a lot of discussion with emergency response officials.
    Mrs. Meeks. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thanks, Mrs. Meek.
    Mr. Knollenberg.

                greenhouse gas: Assistance to Argentina

    Mr. Knollenberg. Mr. Chairman, thank you.
    Ms. Browner, you have been pretty clear about what EPA is 
not doing in terms of implementing the protocol. I wondered 
though if I could just turn to this question: Has EPA been 
involved in any activities involving consulting with countries 
implementing the Kyoto protocol? And since October of 1998 when 
this bill was signed, you have not?
    Ms. Browner. We have been very public about it. We continue 
in discussions, for example, with developing countries on the 
challenge of greenhouse gases.
    Mr. Knollenberg. Let us take Argentina?
    Ms. Browner. I have not had any discussions with Argentina. 
People may have.
    Mr. Knollenberg. Do you get involved with Argentina?
    Ms. Browner. There may have been people involved with 
Argentina. What I was going to get to, I was recently involved 
in China.
    Mr. Knollenberg. Who is shaking their head?
    Ms. Browner. Have you had any discussions with Argentina?
    Mr. Knollenberg. I didn't get the answer.
    Ms. Browner. He said yes, that EPA officials worked with 
Argentina.
    Mr. Knollenberg. Who is it?
    Ms. Browner. David Gardiner.
    Mr. Knollenberg, if I might--we do not in any way believe 
that discussions with Argentina, China or any other country are 
in violation with the congressional prohibition.
    Mr. Knollenberg. You may be right, but there is a draft, 
the working plan for the adoption of Argentine greenhouse gas 
emissions targets. There is a list of people that I have that 
attended as a U.S. team, including the folks from the 
Agriculture Department, from the Department of Energy, from the 
Department of Transportation, EPA, and other individuals. What 
do they do?
    Ms. Browner. There is no rule or regulation. We are 
prohibited----
    Mr. Knollenberg. Do you spend any money helping them 
advocate?
    Ms. Browner. There is no rule or regulation. There is no 
EPA rule or regulation vis-a-vis Argentina.
    Mr. Knollenberg. Do you spend any money?
    Ms. Browner. I am sure we do. I went to China recently.
    Mr. Knollenberg. How much money?
    Ms. Browner. We are happy to answer that for you.
    Mr. Knollenberg. I would like to have the answers to those 
questions. I realize time doesn't permit further delving into 
that, but I would just like to know----
    Ms. Browner. Yes, we would be happy to provide that.
    Mr. Knollenberg. [continuing]. What we were spending and 
what we are doing.
    [The information follows:]

                             Kyoto Protocol

    No funds from EPA are being used to support advocacy 
efforts by any entity, public or private in Argentina. 
Environmental Protection Agency has obligated $275,000 in FY 
1999 to support technical studies on climate change and 
greenhouse gas emissions by the Argentine Department of Natural 
Resources and Sustainable Development. This support is similar 
to past technical cooperation with developing countries, such 
as has occurred throughout the U.S. Country Studies Program.
    EPA support to the Argentina Department of Natural 
Resources and Sustainable Development is being used to support 
the following technical work program: Determine the baseline 
for greenhouse gas (GHG) emissions; perform GHG inventory for 
1997; revise the 1990- and 1994 GHG emissions inventories; 
determine future emission projections; establish different 
mitigation scenarios and analyze their impacts, and costs/
benefits; elaborate alternative proposals for GHG emissions 
goals under the Framework Convention; and prepare a Second 
National Communication or a Revision of the Initial National 
Communication
    A statement by President Clinton announcing support for 
establishing emission targets and finding cost-effective 
solutions to emission reductions was made in Bariloche, 
Argentina in October 1997 and can be found on the White House 
website--http://www.pub.whitehouse.gov (statement attached).

                          International Travel

    The Agency has not spent money on trave to Argentina. We 
have spent money on Travel to China to discuss the challenge of 
greenhouse gas emissions. We do not believe that discussing the 
challenges of greenhouse gas emissions with China or any other 
country violates any Congressional prohibition. Since October 
of 1998, the Agency has spent $4,535 on travel to China.
    Ms. Browner. There has been no secret in any way, shape or 
form about the fact that the administration and experts from 
EPA, not me in the case of Argentina but with other countries, 
have engaged in dialogue about the challenge of greenhouse 
gases. These efforts are not to implement Kyoto but they are 
country-to-country partnerships to address the challenge of 
greenhouse gases. These efforts are not to implement Kyoto.
    Mr. Knollenberg. No back door?
    Ms. Browner. No, this is very public.
    Mr. Knollenberg. It isn't very public. Because, frankly, we 
had to dig this information up. And when you look at the number 
of people that are attending from the various agencies, you 
begin to wonder what are they doing.
    And with reference to the working plan for the adoption of 
Argentina's greenhouse gas emissions target, you have got to 
wonder, what are they doing?
    So my time I think has ended.
    Ms. Browner. I think that agreement was actually announced 
by the President, is that correct? I think that is the case 
with the one you are referencing, I think that is right. I 
think he went to Argentina and announced it.
    Mr. Knollenberg. I can't answer that. I am looking for an 
answer.
    Ms. Browner. We can get that for you.
    Mr. Knollenberg. All right. Thank you.
    [The information follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Mr. Sununu.
    Mr. Sununu. Thank you.
    In regard to that last question, it would seem to me that 
secrecy per se is not the issue, whether you do something in 
public or not. I think the concern of Mr. Knollenberg and 
others on the subcommittee is just simply whether or not it is 
in contradiction to any limitations that have been put in 
place, whether it is done publicly or not.
    Ms. Browner. But there were no rules or regulations on 
Argentina or in any other country.

                       propane gas rule: security

    Mr. Sununu. I also just wanted to follow up on Ms. Meeks' 
questions about the propane tank disclosure. 18,000 gallon 
tanks or smaller, you say they won't have to file?
    Ms. Browner. Correct.
    Mr. Sununu. Ever?
    Ms. Browner. Right, that is correct.
    Mr. Sununu. Okay.
    Ms. Browner. Yeah.
    Mr. Sununu. I thought they wouldn't have to file by the 
23rd.
    Ms. Browner. No, ever, period. I understand your point.
    Mr. Sununu. Ever?
    Ms. Browner. Yes.
    Mr. Sununu. How do they file? Is this going to be posted on 
the Internet?
    Ms. Browner. They don't have to file.
    Mr. Sununu. Sorry, how do those that do have to file--those 
with 18,000 gallons or more have to file. They have to file by 
the 23rd. How do they file?
    Ms. Browner. Many of them are doing it in various ways. We 
are accepting it in a number of ways.
    Mr. Sununu. There is no longer any plan to post all of 
these filings on the Internet, is that true? There were some 
security concerns that were raised.
    Ms. Browner. You are talking about the worst-case scenario 
portion?
    Mr. Sununu. That is correct.
    Ms. Browner. The worst-case scenario portion, we agree with 
the FBI's concerns; and we will not be posting. That is 
correct.
    Mr. Sununu. But all the other information, size of the 
tank, location, scope of the facilities, all of that will be 
posted, just not what would happen exactly if it blew up?
    Ms. Browner. Under the worst-case scenario, that was the 
FBI's concern. Yes, that was their concern; and we have 
addressed that.
    Mr. Sununu. No one else has raised any security concerns 
about posting that information on the Internet, about the 
additional information? I would think posting the location,the 
size of the facility----
    Ms. Browner. Not that I am aware of. The concern raised by 
the FBI, as you are well aware, was a national security 
concern. We shared that concern. We have worked with the FBI to 
understand which portion caused the concern. It is a lot of 
material, and it is not just propane. It is other things that 
are coming in. We worked with them to draw the appropriate 
line.
    Nobody at EPA wants to be in a position where the national 
security interests of the country are threatened. We will not 
be in that position.

                            propane gas rule

    Mr. Sununu. The last question, the 18,000 gallon tank size, 
that does not only apply to manufacturers and distributors. I 
mean, there are a lot of regular users of propane gas that have 
an 18,000 gallon tank.
    Ms. Browner. That is what we said. We don't care what you 
call yourself. It is the size of your tank.
    Mr. Sununu. Right. So this is not a rule that is intended 
simply to address areas of production or distribution or high 
levels of storage in that an 18,000 gallon tank is providing, I 
suppose, some residential use but a lot of commercial use as 
well?
    Ms. Browner. If your tank, regardless of what business you 
are in, is less than 18,000 gallons, you are not covered.
    Mr. Walsh. On that note, we will go into an hour and a half 
recess. We will reassemble at about 1:30 sharp. And we thank 
you for your comments and thoughts----
    Ms. Browner. Thank you.
    Mr. Walsh [continuing]. And answers, and we will see you in 
about an hour and a half.
    Let's begin this second round, and I think what I will try 
to do this time is, a number of Members who have conflicts, so 
we will try to get through these in about, each of us about 
five minutes and that is as they leave. Those of us who have 
more time will have more time. So if there is no objection to 
that, I will begin holding it to 5 minutes. Then we will go to 
Mr. Mollohan and Mr. Knollenberg, in that order.

                    ig report: management weaknesses

    These issues, the issue that I am going to focus on a 
little bit here is management issues, and I would like to ask 
OIG Nikki Tinsley, would you like to come forward or would you 
like to respond from there?
    Ms. Browner. I think you need to come forward.
    Mr. Walsh. It might be better for you to come over. I will 
begin with a sort of a general--I would like to welcome 
Inspector General Nikki Tinsley to the hearing. She has 
provided the Congress with an updated report of what the OIG 
believes are the 10 most important management challenges facing 
EPA.
    You will recall that this matter was raised in last year's 
budget hearing as well. According to the IG's report, 10 key 
areas of concern are, in this order, accountability, 
environmental data--I am not going to run through all of these, 
but I would like to get both of you to respond. I had mentioned 
the IG also noted two additional problem areas, including the 
need to establish contingency plans to ensure uninterrupted 
system operation related to Y2K and the need to improve the 
accuracy and timeliness of billings to responsible parties for 
agency oversight on Superfund sites.
    I will have specific questions on a number of these issues 
at a later portion. In the meantime, Madam Administrator, could 
you comment on what are the Agency's 10 key areas of concern, 
how those areas of concern jibe with your areas of concern.
    Ms. Browner. We would agree with those areas of concern. I 
have tried to set up a structure where we look to the IG to 
provide us with the kind of direction we need. We are a large 
operation. There are a lot of things going on. The IG is an 
important part of how we manage the Agency. I don't think we 
have any disagreement with the 10 areas of concern. We maintain 
our maintain our own list in addition to the IG list. Between 
the two it gives you the full universe, but there is a great 
deal of overlap.
    The only one that I would just single out quickly is on 
Y2K. We did get an A in the most recent congressional grades. 
We do have all of our criticalsystems fixed at this point in 
time.
    Mr. Walsh. Is that right?
    Ms. Tinsley. That is true and that is actually not one of 
our top 10. That was an extra comment that you just cited. We 
can never lose sight of that.
    Ms. Browner. Right.
    Mr. Walsh. Okay. I assume you have had the Inspector 
General's report, it was dated December '98. Since early 
December, then what specific actions has the Agency taken to 
address the concern raised in the report?
    Ms. Browner. You mean in terms of each of the 10 issues 
that were listed in the letter to----
    Mr. Walsh. Yes, if you would like to make a general 
comment.
    Ms. Browner. In each area, we have a specific response, and 
we can provide them to you in writing, but we have specific 
steps underway to address the concerns raised by the IG. For 
example, in terms of quality, they are lengthy, about one page.
    [The information follows:]

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Mr. Walsh. You can give us that.
    Ms. Browner. We will give you that.
    Mr. Walsh. All right. Would you care to comment on the 
progress made by the department since this report was filed?
    Ms. Tinsley. In all of these areas, there are some steps 
underway. And we were aware of that. None of these items were 
surprises to the Agency. But they are the issues that we think, 
if they don't continue to get attention, will cause the Agency 
a problem in accomplishing its environmental mission, and that 
is why they are on the list.
    Mr. Walsh. Has the Agency provided sufficient resources in 
these identified problem areas to resolve them?

              IG Management Issues: Employee Competencies

    Ms. Tinsley. I think so. The only one I guess, if I were 
going to bring something up, would probably be resources to 
enhance employee competencies. I think that the training is 
really a big issue for the Agency. So that was a new thing that 
we put on, because of the difference in the way it does 
business now than it did 20 years ago.
    Mr. Walsh. I see the Administrator nodding. Is it just such 
a big problem you don't have the resources?
    Ms. Browner. I think this is an issue that the IG is right 
to note. How we do our job is changing dramatically as is true 
I think in every Agency, and we have to constantly educate our 
work force in the new ways of dealing with these problems. It 
can be resource intensive.
    We do invest a significant amount of resources in the 
ongoing effort of training our work force. But it is one of 
these things, you never stop. I am sure GE never stops, no one 
ever stops. It is just constantly there. And you have to have a 
plan, and we have a plan, and we are doing it. Would more 
resources be better? Obviously more resources are always better 
when it comes to training. But you make a set of choices.
    Mr. Walsh. You don't feel that it is an issue of affecting 
your department's performance?
    Ms. Browner. No, I don't think so. And I think that is hard 
to talk about our work force as if it is uniform. We have a 
large diversity of skills we look to, everything from a lawyer 
to an engineer, to a biologist, to support staff. One of the 
greatest challenges I think we face right now in the world of 
computers e-mail, and voice mail is, what is the role of a 
support staff?
    It is a very different job today than the traditional 
secretary of 10 years ago, and how do we make sure they, that 
support staff have the skills to do what you need to do in the 
world of computers.
    Mr. Walsh. Does this report--is it helpful?
    Ms. Browner. We couldn't run the place without it. We are 
large, with 18,000 FTE. This is a large amount of money. We are 
responsible for the American people's money. And, you know, any 
good business, any good organization needs someone looking over 
their shoulders, saying, yeah, but did you think about this? 
The role that an IG plays is absolutely crucial to good 
management.
    Mr. Walsh. Do you have the resources you need to do your 
job?
    Ms. Tinsley. Yes, I do.
    Mr. Walsh. How much time do we have on the vote?
    Mr. Mollohan. 10 minutes.
    Mr. Walsh. That is 10. Okay. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.

                     CLEAN WATER ACTION PLAN (CWAP)

    A couple of questions, Ms. Browner, about the President's 
Clean Water Action Plan. First of all, can you tell us what the 
President's Clean Water Action Plan is and how it is different 
from your other water programs?
    Ms. Browner. It is a comprehensive national blueprint on 
how to address the remaining water pollution challenges we face 
in this country. As I said earlier, and as I think you 
recognize, it goes beyond the traditional command-and-control 
approach and says as you bring all of that on-line, and we are 
a large part of the way there. So the new approach includes 
everything from animal feeding operations, to wetland 
protection, to stormwater runoff.
    There are over 100 concrete actions that the administration 
has committed to take in partnership with States, local 
government, communities, businesses to addresswater problems in 
the country.
    Mr. Mollohan. What is the idea behind it? It is not asking 
for any additional authorization. Is it simply a refocus, a re-
assessing of resources and approaches?
    Ms. Browner. It is a list of priorities to be undertaken. 
And we believe that when fully implemented it will, give every 
community in this country the quality of water that the 
original act envisioned.
    Mr. Mollohan. Is there a list somewhere?
    Ms. Browner. Yes. The Clean Water Action Plan provides a 
list of key action items and indicates who would be responsible 
for implementing each action. A lot of work went into crafting 
this.

                        CWAP: WATERSHED APPROACH

    Mr. Mollohan. What do you mean by is the watershed 
approach.
    Ms. Browner. It recognizes that--a watershed----
    Mr. Mollohan. I know what is meant by the term 
``watershed'', but what is the watershed approach?
    Ms. Browner. Sorry.
    Mr. Mollohan. Sorry. That is all right. It is a humbling 
job we have here.
    Ms. Browner. It is the idea that challenges will vary from 
watershed to watershed. And so you look at the entire watershed 
and you write a plan based on the needs of that watershed.
    Mr. Mollohan. Is that the way you approached watershed 
quality issues in the past?
    Ms. Browner. It was philosophically and fundamentally 
different. What we had done is pipe by pipe, and river 
segments. This new approach steps back and says, okay, we have 
done all that, that made a lot of progress.
    Given what is left in the watershed, given the needs of the 
watershed, the agricultural needs, the industrial needs, and 
the drinking water needs, if you look at all of the impacts 
left in that watershed, what should you do first, second, 
third. And it will be really different from your watersheds to 
Onondaga Lake for example.
    Mr. Mollohan. So it is looking at----
    Ms. Browner. I got it right.
    Mr. Walsh. There is no `w' in there.
    Mr. Frelinghuysen. I thought it was Condaga.
    Mr. Walsh. We are describing the Iroquois, go ahead.
    Mr. Mollohan. It is looking at a watershed systemwide and 
prioritizing the needs within the system.
    Ms. Browner. Yes, right.
    Mr. Mollohan. So this just came out, I guess.
    Ms. Browner. It is a year old.
    Mr. Mollohan. It was just announced. Do you have any 
assessment on the progress you are making?
    Ms. Browner. Yes, we have the first year report. And we 
will also make that available.
    [The information follows:]

               Clean Water Action Plan Anniversary Report

    A copy of the Clean Water Action Plan Anniversary Report 
has been provided to the members of the subcommittee.

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. We have just about 5 minutes to get over and 
vote and return. So I think we will take the break right now 
and be back as quickly as we can. It looks like just one vote 
for now, so--there are two votes actually, so it will be 
probably 20, 20 minutes before we get back or so.
    [Recess.]
    Mr. Walsh. We, I believe, have had our last vote of the day 
which usually reduces attendance fairly rapidly, but we do have 
some stalwarts here, and as soon as Anne Northup is ready, we 
will yield to her.
    Mrs. Northup. Thank you, Mr. Chairman. Mr. Chairman, I am 
sorry, I was at another committee meeting this morning. What is 
the time of the rotation?
    Mr. Walsh. We began the day with about 15 minutes each, so 
if you have that much requirement for time, take it. If not, 
yield back and we will go from there.

                              Peer Review

    Mrs. Northup. Welcome. It is nice to have you in front of 
us, Ms. Browner. I have always been interested in EPA and 
believe that it has and should and can have a profound effect 
on this country.
    I have been somewhat concerned with the direction in which 
EPA goes and the way that it applies or makes decisions, and so 
I do have a couple of questions along that line. Specifically, 
I would like to start with peer review. I know that it was 
talked about somewhat this morning, but I understand that you 
said that your peer review was second to none; is that right?
    Ms. Browner. I said that it is widely recognized 
amonggovernment agencies as being very high-quality peer review. For 
example, the National Science Foundation and NIH sometimes use our peer 
review panels, and we sometimes use theirs. It is a cooperative 
arrangement.
    Mrs. Northup. Are those the grant programs that are under 
the STAR program?
    Ms. Browner. The STAR grant applications is one of the 
areas in which we use peer review, but that is only one of many 
areas where we use peer review.
    Mrs. Northup. All of the research grants that you all give 
out and then get back and make decisions based on those 
reports, why don't they all go through the same process?
    Ms. Browner. They do. They are all subject to peer review.
    Mrs. Northup. Why are some under the STAR grant?
    Ms. Browner. That is one particular grant program that the 
agency runs. There are other grant programs. There are other 
research programs. The peer review requirement, regardless of 
the type of program, is done subject to certain guidelines. We 
would be happy to provide you with a copy of our peer review 
handbook that directs the agency on how to run peer review 
regardless of where it is being done.
    Research projects that apply to us for money are all 
subject to peer review. Research we do internal to the agency 
is subject to external peer review. So it is not as if we are 
picking and choosing between things.
    Mrs. Northup. What about after you give a grant to someone 
who has----
    Ms. Browner. Is external to the agency?
    Mrs. Northup. Yes. Is the result peer-reviewed?
    Ms. Browner. The short answer is yes. An example would be 
under the STAR grant, in receiving the grant, the application 
is subject to peer review.
    Mrs. Northup. Right.
    Ms. Browner. Then the results of that research, which is 
ultimately a publication, is subject to peer review. None of 
this is done by EPA scientists. This is done by external peer 
reviewers, representatives from the scientific community, 
industry, universities, people outside of the agency who sit on 
these panels for us.
    Mrs. Northup. It seems to me like when you all have made 
decisions, that basically you cite research that you have 
depended on----
    Ms. Browner. It is all peer-reviewed research.

                        global warming research

    Mrs. Northup [continuing]. As though it is very clear, even 
though there are other studies that come to different 
conclusions. How do you explain that?
    Ms. Browner. Do you have any specific examples?
    Mrs. Northup. Global warming.
    Ms. Browner. I would be glad to review a specific study and 
tell you why we don't agree. There are over 2,500 world-
renowned scientists who have all said that global warming is a 
real threat and deserves real attention by the world.
    Mrs. Northup. There are far more scientists than 2,500.
    Ms. Browner. There are 2,500 scientists that have signed a 
public document saying global warming is a real problem.
    Mrs. Northup. I am saying if 2,500 have signed on, 
considering the total number of scientists, that is a lot that 
have not signed on.
    Ms. Browner. That does not mean that they disagree. The 
point is, who are the experts in the field? Yes, there are 
millions of scientists in the world. Not all of them are 
experts in the global warming field or microbial contamination.
    The question is, within the field of experts, what do those 
experts say?
    Mrs. Northup. And have the 2,500 who have signed on, are 
they all experts in that particular field?
    Ms. Browner. They are well-recognized experts in a variety 
of fields, including climatic conditions and ecosystem 
disruption. Many are Nobel Prize winners. I would be happy to 
give you the list.
    Mrs. Northup. I have heard so many complaints about it--and 
I don't purport to be a scientist--about the lack of peer 
review and lack of scrutiny. And I guess what got my attention 
was last year when we were going through the appropriations 
process and there was a proposal to formalize within the 
appropriations bill or to add an amendment to it in committee 
which would have formalized the peer review process and--no? 
You all opposed it?
    Ms. Browner. Yes, we actively opposed it and we will oppose 
it again this year. That proposal was not in keeping with what 
is acceptable within the scientific community or EPA. It is not 
acceptible in the scientific community with valid scientific 
principles.
    Mrs. Northup. Would you think that your peer review process 
is the same as NIH, for example?
    Ms. Browner. Yes, it is.

                 peer reviewed science: access to data

    Mrs. Northup. And is the data that supports the conclusions 
as available from EPA research as it is from NIH?
    Ms. Browner. I answered this question previously, but just 
to give you an example, we had over 1,000 published peer-
reviewed journal articles on our research in a 2-year period. 
So that is one way in which it is available. It is also 
available directly from us.
    I don't want to read between the lines. I think I knowthe 
question you are asking. And I think it might be a slightly different 
question, and I am happy to answer it.
    Mrs. Northup. I think that the complaints that I have heard 
and the clarification that I am seeking are along the lines--
and these are general, it is not from a specific group--it is 
not the first person that complains, it is from the 25th person 
that complains. These are from people who believe that 
regulations are being applied based on what they believe is not 
sound science. Their perspective is that the data is not 
available that supports the conclusions; that it is not 
available, that there was this measurement, this measurement, 
and that measurement.
    Ms. Browner. That is simply not the case. I can explain if 
you would like me to.
    Mrs. Northup. Sure.
    Ms. Browner. I think the issue you are asking about goes to 
the public health standards that EPA set for air pollution 
approximately a year and a half ago. We did that based on 87 
published peer-reviewed studies done by people outside of the 
agency. They were subject to peer review and published in 
credible, reputable scientific journals. They were not EPA 
scientists. This was all work done outside of the agency.
    One of those studies looked to a database of public health 
information. For example, the database in question involved 
people who were willing to make accounts of their daily lives 
in terms of when they experienced effects from air pollution; 
what they ate; information about their reproductive history was 
included in it.
    That database is owned by Harvard University. It is 
available to scientists who have legitimate scientific research 
questions. It is not EPA's database.
    The studies that EPA looked at that relied on the 
underlying data collected and then evaluated portions of that 
data were peer-reviewed studies.
    The question wasn't, was that database owned by Harvard 
publicly available; the question was, was it available to the 
scientific community? The answer is yes.
    But the more important question: Was the study that EPA 
relied on, subject to rigorous scientific peer review? And the 
answer to that is absolutely yes, and no one has disputed that.
    Mrs. Northup. Would you oppose somebody developing a 
legitimate, formalized process for peer review?
    Ms. Browner. We have a legitimate formalized process. We 
would welcome any comments you would like to provide on it.
    Mrs. Northup. Were there critical comments?
    [The information follows:]

                              Peer Review

    During the hearing, an EPA response regarding the Peer 
Review Handbook, indicated that it had been externally peer 
reviewed. In fact, the Handbook was circulated for comment 
within the Agency. The Peer Review Policy and the Peer Review 
Handbook have been publicly available on the U.S. Environmental 
Protection Agency's web site on the Science Policy Council home 
page.

    Ms. Browner. We will provide for you the record of 
comments. Would that be helpful?
    Mrs. Northup. That would be fine.
    [The information follows:]
                          Peer Review Process
    EPA has a formal peer review process. The Peer Review Policy and 
the Peer Review Handbook are publicly available on the U.S. 
Environmental Protection Agency's web site on the Science Policy 
Council home page. The Peer Review Policy appears in the attached Peer 
Review Handbook, which implements the Policy. The Peer Review Handbook 
was circulated for comment within the Agency.
                         background information
    The U.S. Environmental Protection Agency's 1994 Peer Review Policy 
sets the overall tone for the Agency about the importance of peer 
review for major scientific and/or technical work products. The level 
of peer review is commensurate with the degree of complexity, impact, 
etc. of each work product. To implement the Policy, the Administrator 
asked the Agency's Science Policy Council (SPC) to develop a formal 
process for the Agency.
    The SPC oversaw the development of the formal process to augment 
existing peer review work with expanded peer review within the Agency. 
The implementation program relied on the major ``users'' of peer review 
across the Agency to assemble standard operating procedures. After 
working for almost four years with the Policy and the related 
procedures, the implementation program culminated in the issuance of 
the EPA's Peer Review Handbook (attached). The Handbook underwent 
several rounds of comment from Agency personnel involved in the many 
aspects of performing peer review. This resulted in a Handbook 
detailing many of the processes the Agency can consider when matching 
the appropriate peer review procedure to each major scientific and/or 
technical work product.
    Prominent comment themes received on several Handbook drafts from 
Agency personnel included: Clarification for Agency users on the 
distinction between peer review and peer input presented in the Policy; 
Criteria for determining what is a major scientific and/or technical 
Agency work product; Inclusion of major economic work products as major 
scientific and/or technical work products; Insights on how to identify 
and approach potential conflicts of interest; Formatting for an annual 
Agency reporting process to further institutionalize peer review across 
the Agency; Clarification of the various roles Agency people and 
organizations have in peer review; Examples for Agency use of peer 
review mechanisms for both internal and external peer review; 
Instructions on what constitutes documentation for Agency peer review 
record; Details for what constitutes a charge to peer reviewers; 
Include examples of charges; Need for a graphic flow chart that 
visually conceptualizes the peer review process from beginning to end; 
and Compliments received on the plain language and Q & A approach used 
to explain the Agency processes for peer review.

                      science advisory board role

    Mrs. Northup. Are regulations still the result of 
recommendations by the Scientific Advisory Board? Do you still 
have the SAB?
    Ms. Browner. Yes, the SAB is an ongoing entity at the EPA. 
They meet monthly.
    Mrs. Northup. Do they make recommendations for 
recommendations setting new levels of acceptable----
    Ms. Browner. They review how we are doing our scientific 
analysis. I will give you an example. In the air standards we 
looked to 87 peer-reviewed studies. In this instance it is 
another board, the Clean Air Scientific Advisory Committee, but 
it is also made up of scientists. We say to them, here are 
these 87 studies. Did we miss any? Did we include any 
inappropriate studies? We all agreed that these are the 
appropriate studies.
    Then we said, here is how we interpret these studies. What 
is the weight of the evidence? We take that to them. Have we 
misread the study or not considered the interaction between 
this study and another study? They review all of that.
    Scientific peer review panels, be it the Science Advisory 
Board or the Clean Air Scientific Advisory Committee, do not 
tend to recommend the standard you should set.
    What they say is did you use the right scientific process, 
did you make the right evaluation of the science in making that 
regulatory proposal. They play a very different role, and that 
is the role that they choose to play. If they wanted to say you 
set the wrong standard, we would obviously listen to them.

                          cwsrf budget request

    Mrs. Northup. The State Revolving Fund cut is proposed to 
be cut about 50 percent. What was your original request to OMB 
for that?
    Ms. Browner. Our budget reflects our priorities and our 
concerns.
    Mrs. Northup. So in other words, you actually requested to 
OMB that you cut the State Revolving Fund?
    Ms. Browner. We worked with OMB, and the budget before you 
is the administration's budget and we support it, yes.
    Mrs. Northup. Isn't your original request available?
    Ms. Browner. It is an iterative process. You look at 
priorities across not just the EPA, but the administration at 
large. It is a dialogue.
    Mrs. Northup. I sit on several other committees and usually 
the original request is reliable. I just wondered----
    Ms. Browner. We will give you anything that you want.
    Mrs. Northup. I am interested in what the original proposal 
was. Clearly you decide what you think is needed?
    Ms. Browner. I support this budget. It meets the needs of 
the American people.
    Mrs. Northup. But you originally draft an estimate of what 
you think the State Revolving Fund should be, at what level, in 
order to meet the need out there. I wanted to know what you 
thought that level should be.
    It happens that Kentucky depends on that money a great 
deal. We are one of the States with the most difficult problem 
with clean water, and we depend on the State Revolving Funds, 
and I wanted to know what level you thought would meet this 
country's needs. I realize the administration has some new 
priorities that had to be squeezed into the budget and it may 
have had to have been cut.
    Ms. Browner. We are happy to provide you with all of that.
    [The information follows:]

            Clean Water State Revolving Fund Request to OMB

    EPA's FY 2000 submission to the Office of Management and 
Budget (OMB) for the Clean Water State Revolving Fund (CWSRF) 
was provided to meet an established Administration target. In 
doing so, the EPA submitted an $800 million level for the CWSRF 
to OMB. The Agency recognizes the Nation's significant needs 
for clean water infrastructure improvements. Accordingly, EPA 
requested an additional $550 million for the CWSRF (for a total 
of $1.35 billion), in the event the Administration was able to 
increase CWSRF resources within the Congressionally-approved 
budget caps.

    Mrs. Northup. Thank you.
    I would like to also--I don't know, Mr. Chairman, do I 
have--is my time up?
    Mr. Walsh. You have a couple of minutes.

                        flood compensation bank

    Mrs. Northup. The Flood Compensation Bank--in Jefferson 
County we have a situation where EPA is standing in the way of 
helping the metropolitan sewer district and the Army Corps of 
Engineers.
    Ms. Browner. You know, I have been at EPA a long time but 
you have found something that I have never heard of. The Flood 
Compensation Bank? I don't think that we run it. Maybe I know 
it by a different name.
    Mrs. Northup. The Army Corps is involved in it.
    Ms. Browner. It may be theirs.
    Mrs. Northup. There is a piece of land where the worst 
flooding was, and a private company, Waste Management, wants to 
allow that to become part of the basin for drainage of water. 
And in return, there is one section of it, a small strip of 
land, that is a wetland, and they want to relocate that wetland 
to another portion so it frees up this 33-acre plot in order to 
use as a basin.
    A couple of years ago EPA became the primary--they had to 
sign off on any changes on that wetland, and I have forgotten 
why they had that right, but it was under agreement with Waste 
Management for something else.
    In any event, today Army Corps, the metropolitan sewer 
district, the airport that is threatened by these flood waters, 
all want to relocate this strip, something that falls under all 
of the guidelines, except EPA because of a prior agreement a 
number of years ago will not sign off.
    Are you familiar with this?
    Ms. Browner. No, we are not. We are happy to look into it. 
Do you know the name of the site?
    Mrs. Northup. Well, it is currently owned by Waste 
Management.
    Ms. Browner. It is probably referred to as the such-and-
such wetland. What city is it in? We will know tomorrow.
    Mrs. Northup. It is in the Pond Creek.
    Ms. Browner. What is the airport?
    Mrs. Northup. Stander Ford Field Airport.
    Ms. Browner. If you can give us enough names like that, I 
imagine by tomorrow we can get you an answer. I apologize, I am 
not familiar with this one.
    Mrs. Northup. It is a complicated issue. The problem is 
that everything that they want to do normally would not even 
have EPA involved.
    Ms. Browner. We are involved in wetland decisions. I think 
I have a feel for what is going on. This may have been a 
wetland that was preserved so that Waste Management couldget a 
prior permit to disrupt other wetlands, but now the use is changing.
    Mrs. Northup. It was a farm, and the person who wanted to 
farm it wanted to move the wetland. And so in agreement for 
letting them do it, EPA got to sign off on anything else. Now, 
according to the Army Corps and everybody else, what they want 
to do--it is a low quality, it is full of junk and trash.
    Ms. Browner. Even those low-quality wetlands do something.
    Mrs. Northup. And EPA stands in the way of every other 
agency that sees this as a real help to the flood management 
problem.
    Ms. Browner. Can you give me 24 hours? I have never heard 
of it before, but I promise you by tomorrow I will know 
everything that there is to know.
    [The information follows:]

                  Pond Creek, Kentucky Wetlands Issue

    A letter dated November 30, 1998 detailing EPA's concerns 
regarding the proposed project from William L. Cox, Chief of 
the USEPA's Region IV Wetlands Section, to Colonel Harry L. 
Spear, District Engineer, U.S. Army Corps of Engineers, 
Louisville is attached for the record.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Northup. That is fine. I am interested in whether or 
not EPA is flexible enough to help resolve this.
    Ms. Browner. Here is a test.
    Mrs. Northup. And I would hope that they would be.
    Ms. Browner. If we can help you, I will do everything I 
can. To be honest with you, sometimes when these issues come 
up, sometimes people are told it is EPA. And sometimes they are 
ours, and sometimes they are not. I will be honest with you 
tomorrow.
    Mr. Walsh. Your time is up. Mrs. Meek.

                          minority contracting

    Mrs. Meek. Thank you, Mr. Chairman. Good afternoon again to 
Administrator Browner and her staff.
    My question is more of an inquiry than a direct question. 
Your 8(a) Minority Contracting Program, in your opinion is it 
working fairly well? If it is, it is my understanding in some 
places that there is such a long time delay in terms of 
turnaround time and you are trying to give some people 8(a) 
contracts, that the person who holds the contract, such a great 
amount of time elapses, it appears as though you are extending 
the contract that person already had. And it gives a small 
person trying to get an 8(a) little or no opportunity to do 
that. Does that make sense to you?
    Ms. Browner. I thought we had someone here who manages the 
program. Bear with me for one moment.
    Mrs. Meek. Excuse me; have you awarded many contracts in 
the past?
    Ms. Browner. Yes. We worked very closely previously with 
Mr. Stokes to strengthen the program and make it competitive.
    You may be asking about a particular series of grants, the 
telecommunications contract?
    Mrs. Meek. That is the one that I am talking about, yes.
    Ms. Browner. We did set that aside for an award to an 8(a) 
firm. Hold on one second. I am reading this quickly.
    Mrs. Meek. All right.
    Ms. Browner. In May we do anticipate issuing what is called 
a ``sources sought'' announcement in Commerce Business Daily to 
identify and encourage qualified 8(a) firms to apply. You are 
right to raise a concern and we are aware of it, and in May we 
intend to issue this notice in the Commerce Business Daily.
    Mrs. Meek. The concern is that it may not be awarded before 
December.
    Ms. Browner. Right. In May we may have this problem on the 
back end. I think we can address----
    Mrs. Meek. Which might ostensibly lead to the fact that the 
person with the contract is the prime source, and it is not 
EPA's intention to do that because of the time delay that is 
involved there?
    Ms. Browner. I think the issue as we understand it, and 
maybe there is another issue and we need to know this, but the 
issue was if a new contractor came in on January 1, what would 
they be responsible for, because obviously if we choose a new 
contractor, the old contractor leaves, there is a lag time.
    The old contractor will continue to hold responsibilities 
as the new contractor comes on line. And the issue is a Y2K 
issue in part. If the old contractor were not selected as the 
new contractor, we would continue to require that the old 
contractor honor all of their commitments to us, and the new 
contractor would pick up the new responsibilities.
    Mrs. Meek. Does it seem exceedingly long to EPA, the time 
frame for this service and the time it takes to implement it 
after you have issued it?
    Ms. Browner. No. This is a very large contract. Our 
telecommunications needs, as you can well imagine, are large. 
And making sure that we do the solicitation right and enter 
into the right agreement and there are all of the checks and 
balances is not a small undertaking. We have set aside $50 
million to $60 million for this contract. This is a large 
contract.
    Mrs. Meek. Small business is concerned about this 
telecommunications contract. They are concerned with the time 
delay which might ostensibly seem as if it gives the man who is 
currently holding the contract more time. But you are saying 
that is not correct?
    Ms. Browner. The current contract holder has to finish 
their obligations to us, and that may mean that they will do 
work past January 1 when the new contract is issued. But it 
does not mean that there will not be a new contract issued. It 
means that we have ongoing commitments from the existing 
contract that have to be completed.
    Mrs. Meek. I have one more question, Mr. Chairman.
    Mr. Walsh. Yes, you have time.
    Ms. Browner. And on section 8(a), we have been growing the 
program and it has been successful.
    Mrs. Meek. You know, my frustration is many times with 
Federal agencies, the little business people I represent never 
get a chance. There are a whole lot of promises and people make 
a lot of good seminars and workshops when they come to the 
District. But these little people--and I serve a large 
community of Hispanics and minorities, blacks and women, and it 
is very difficult. And that is why I am interested in the 
telecommunications contract. They ask me about them all of 
time, and usually somebody big gets it, and no one in the 
trenches get a chance, and I know that I can't resolve that 
here.
    Ms. Browner. I think if you have particular businesses that 
are interested, when we go out on a public solicitation, we are 
happy to make sure that they get a copy of that solicitation. I 
think we can accept a name or names from you or any members of 
the committee, of firms that you think would be interested; and 
not only do we put this in Commerce Business Daily, we can send 
them directly a copy of the solicitation.
    But the good news is, and you mentioned the question of 
minority businesses, from 1997 to 1998 in terms of minority 
businesses, we have almost doubled the percent of applicants 
receiving contracts. So we are working on it.
    Mrs. Meek. All right. Thank you.

                           coastal management

    My other question has to do with a coastal question.
    In Florida we have the second longest coastline in the 
country. I hope that I am right on that.
    Ms. Browner. You are.
    Mrs. Meek. Congress didn't give any funds in fiscal year 
1999 for coastal environmental monitoring. Did we?
    Ms. Browner. Are you asking about the Coastal Zone 
Management Program?
    Mrs. Meek. Yes.
    Ms. Browner. That is not an EPA program. The money would 
not come through the EPA.
    Mrs. Meek. Don't you monitor the coastlines, environmental 
standards of coastlines?
    Ms. Browner. This is an interesting jurisdictional issue. 
EPA covers water right up to the moment it hits the beach. It 
is then picked up by NOAA. We work with them because there is a 
huge interplay, and often beaches are shut down because of 
contaminated water in a river or something like that.
    But in terms of the funding, we do not tend to get----
    Mrs. Meek. Aren't you requesting money for fiscal year 
2000?
    Ms. Browner. We have a research program which is different 
from a monitoring program. We are trying to set up a national 
demonstration project, monitoring the status, trends and the 
health of estuaries, which are the interface between the fresh 
water and salt water. We do have some responsibility for that. 
We are trying to fund a research program on estuaries, which is 
sort of the upland side of the beach issue.
    Mrs. Meek. Okay. And you did mention NOAA so you are 
sticking to your script, Madam Administrator.
    Ms. Browner. Just the facts.
    Mr. Walsh. Thank you, Mrs. Meek. Ms. Kaptur.
    Ms. Browner. I was going to add, EPA is very proud of the 
fact that we are, for the first time ever, making public 
information about the health of beaches across the country. We 
have set up a beaches Website. It is the first ever Federal 
effort to give the public access to information about the 
health of beaches. It is the first coordinated location in the 
Federal Government for that information.
    Mrs. Meek. Thank you.
    Mr. Walsh. Thank you. Ms. Kaptur.
    Ms. Kaptur. Thank you. We are happy to have you, Ms. 
Browner, and I wanted to congratulate Sallyanne Harper for the 
award that you have received, and we are very proud of you and 
the service that you have performed for the American people.

                         Mexican Border Program

    I have several questions. My first concerns page 6 of your 
testimony where you talk about an additional $50 million 
increase for the Mexican border in direct grant assistance to 
address health problems associated with untreated industrial 
and municipal sewage on the border. Which side of the border? 
Both sides, north, south?
    Ms. Browner. They are not asking to continue the colonias 
projects. If Bill Nitze can explain.
    Mr. Nitze. I am Bill Nitze, the Assistant Administrator for 
International Activities. I think you are referring to 
additional funding for EPA to subsidize water infrastructure 
projects along the border.
    Ms. Kaptur. A $50 million increase along the Mexican 
border.
    Mr. Nitze. Those projects are on both sides of the border, 
and in both cases we only fund projects certified by the Border 
Environmental Cooperation Commission. They go to the BECC and 
they work with them to develop projects that are well designed, 
cost effective, and that meet the communities' needs. Those 
projects are certified, and then because the interest rates on 
money are fairly high for many of the poorer smaller 
communities in particular, we in effect make grants to help 
reduce the front-end costs of thoseinfrastructure projects.
    Ms. Kaptur. Who do the grants go to, sir?
    Mr. Nitze. To the communities themselves for the actual 
construction of the wastewater treatment plant or the drinking 
water facility.
    Ms. Kaptur. Do they go to public organizations?
    Mr. Nitze. Public authorities, correct.
    Ms. Browner. Wastewater authorities.
    Ms. Kaptur. Now, you mention here, Ms. Browner, untreated 
industrial and municipal sewage on the border. Do you have a 
list of which industries contribute to the pollution that you 
are trying to address?
    Ms. Browner. We can provide for you each of the proposed 
projects information on the waste streams. And the same as for 
your city, we can provide information on small businesses for 
each of the projects.
    [The information follows:]

               U.S./Mexico Border Infrastructure Projects

    Attached is a summary of U.S./Mexico Border projects slated 
for funding in FY 2000 (Mexico-side projects only) and 
accompanying notes indicating the current and future 
disposition of industrial flows surrounding those facilities. 
As indicated, additional information is currently being 
collected on the nature of those industrial discharges and 
could be provided to the subcommittee at a future time.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Ms. Kaptur. I would be very interested in this. This is 
purely my own view, and perhaps other members of the committee 
don't share it, but I have seen a number of companies locate 
from my part of the country down to Mexico. One of the reasons 
they do is because environmental enforcement is literally 
nonexistent. The law looks great down there in Mexico City, but 
when you get up to the border, it is not enforced. It is not 
enforced and does not protect community health.
    Then I look at other policies of our government such as our 
labor laws, when you can pay people a dollar or less an hour, 
you can make a whole lot of money on cross-border trade. What I 
see this request as is a way for many of these companies 
shifting to the public sector costs that they would normally 
have to pay in this country, and I don't like it at all. It's 
not that there isn't a health problem there. There is a severe 
health problem, and I have a hunch who is causing it. And I 
resent that the people in places like Salina, Ohio, where 900 
people just lost their jobs manufacturing bicycles and a way of 
life that they have known for years to Mexico. We know now that 
production will be done down there, that my taxpayers have to 
pay the costs of these additional funds, Just as we knew when 
NAFTA passed what would happen. I am after them, and I would 
like to know which corporations, be they private or public, 
will benefit from the expenditure of these dollars. I thank you 
for that.
    Ms. Browner. A needs assessment is done before any project 
is considered by the board, obviously. Maybe the best thing we 
should give you is the needs assessments and in some instances 
they may name companies. And if you need additional 
information, we will work with you to get it.
    Ms. Kaptur. I happened to visit one of the General Motors 
facilities in one of the border communities. It was the first 
one, because of community pressure in Mexico, that had been 
forced to put in a wastewater treatment plant. That was only 
about 6 years ago that I was down there. General Motors is the 
largest employer in Mexico apart from the Government of Mexico. 
The placement of these big companies and what they are doing 
down there is something that needs to be brought to the 
attention of the American people as well as the Mexican people.
    You can help me in that regard, because if we are going to 
develop a continent that is safe for the future, we have to pay 
attention. The American people can't continue to subsidize this 
kind of environmental neglect.

                         Chemical Right to Know

    The second question: On the same page, $19 million for the 
Chemical Right to Know Program. You are going to be screening 
and testing 2,800 highest production volume chemicals used in 
the United States.
    Does this mean you are going to be going to industries that 
are producing chemicals. I don't quite understand----
    Ms. Browner. This is a great success story, if I might just 
take a brief moment. We worked very closely with the Chemical 
Manufacturers Association and the Environmental Defense Fund to 
craft a cooperative agreement to work with those chemical 
manufacturers who will come forward and provide information on 
high-volume chemicals for appropriate testing. CMA has agreed 
to this and 190 companies have now signed up for this. This is 
not a regulatory program. We view it as working cooperatively 
to get information that will enhance our decisionmaking and 
provide a level of public health protection.
    I joined the Vice President when he announced that we have 
the head of CMA and the head of the environmental group, and 
the three of us signed the agreement.
    One of the problems is that we don't have a lot of the 
information, and the chemical companies are agreeing to provide 
it, and that is good news.
    Ms. Kaptur. How do you use that, then? When I go out and 
buy a pesticide, it says on there how you are supposed to use 
it.
    Ms. Browner. It is not pesticides, it is other high-volume 
chemicals. We have other programs for pesticides, but it would 
not tend to be pesticides. It is the high volume chemicals used 
in various industrial and manufacturing processes.
    Ms. Kaptur. Once you know that, you notify the community 
that this chemical is being manufactured?
    Ms. Browner. No. We don't have the kind of quality database 
that we would need to make broad-based decisions, and the 
chemical manufacturers recognized that it was in their interest 
to work with us to develop both that database and the testing 
protocols for these chemicals.
    I guess I see this as a good news story. It is not that 
common that you can get CMA, EPA and EDF to all agree to the 
same plan, and that is what we did.

                      toledo water treatment plant

    Ms. Kaptur. Thank you.
    I will ask for the record, the city of Toledo and EPA have 
been involved in extensive litigation--and I represent Toledo--
over the water treatment plant. The cost of improvements are 
multimillions of dollars, and the city has already spent over 
$30 million.
    How much money has EPA spent on litigation related to the 
city of Toledo? And I am going to ask the city of Toledo for 
the amount of money that the city of Toledo has spent on 
litigation in trying to resolve this, and my hunch is that it 
is millions.
    Ms. Browner. We will be happy to provide that.
    [The information follows:]

                       Toledo and EPA Litigation

    The Agency and the Department of Justice is currently 
litigating this case. Therefore, most information can not be 
released at this time. However, EPA can provide some general 
information on the case.
    EPA has assigned attorneys and technical staff to the city 
of Toledo case since the case was originally filed in 1991 for 
effluent violations resulting from delayed installation of 
secondary treatment. The complaint was amended in 1993 to add 
claims for by-passing, monitoring and reporting violations. 
Shortly before trial in 1995, the parties agreed to an 
alternative dispute resolution process which ended 
unsuccessfully in January 1999. The litigation is continuing.

    Ms. Kaptur. And for the record, the city has not applied 
for a State revolving loan fund to augment the dollars that 
they have already spent on the water treatment plant because 
the interest rate that they would be asked to pay is too 
expensive. So they are trying to self-fund.
    I am very curious, we seem to get into all of these legal 
suits. I would like to know how much money has been spent 
completely litigating this. And if we could have put this into 
the plant, could we have solved the problem?
    Ms. Browner. The interest rates are not set by EPA, they 
are set at the State, through your bonding mechanism. Perhaps 
we can talk to you more about this and work with your State.
    This was a common criticism, that interest rates had gone 
up and cities could do better in the public market than in the 
bond market that their State was offering.
    That has changed in most States now, so this money is 
attractive again. This is not an EPA issue, this is a State 
bond issue. I don't know why it has not changed in Ohio. 
Florida as an example; people were coming out of it, and they 
are going back into it now. We should talk to them about it.

                       animal feeding operations

    Ms. Kaptur. All right. Mr. Chairman, I am going to say to 
the Administrator, I am very interested in the work that you 
are doing in industrial agriculture and trying to get a handle 
on what is going on across our country with these incredibly 
large facilities, especially livestock, and the impact that 
they have long term on the environment, on the water, on the 
air.
    I only want to sensitize you, as I try to sensitize USDA, 
that as you develop your regulatory schemes, whatever they are, 
please distinguish between the very large facilities that may 
produce 850,000 hogs a year and the poor guy with 1,000 head a 
year who can hardly make it in this economy. Please, whoever 
writes these regulations, think of a way to help the small 
farmer who is in a life-and-death fight to survive, and try to 
make your regulatory regime sensitive to the size of the 
economic unit.
    Ms. Browner. The cutoff is 1,000 animal units.
    Ms. Kaptur. I will be happy to talk with the agency people 
about whatever they are doing. All I can tell you is that the 
Federal Government tends to come in with big hammers and treat 
everybody the same, and they literally can't afford it.
    Ms. Browner. If you are below 3,000 hogs, you are not 
covered; with one exception, if you are within an impaired 
watershed, and that is up to the State to figure out.
    Some of these large facilities are generating more waste 
than the city of Toledo. Someone just told me that there is one 
that is being built that will have more waste than L.A. I can't 
believe that is true, but that is what I was told. That is what 
we are concerned about. We are not concerned about the farmer 
with 2,000 or 3,000 head of hog. That is not what this is 
about, and we did draw a line.
    Ms. Kaptur. Between 3,000 to 10,000 hot units, really look 
at the economics of this from the standpoint of American 
agriculture because this is a very difficult. Our farmers are 
in depression all across the country. I am trying to sensitize 
you to looking at the various categories of farmers, and to 
compare them to these big operations just isn't fair.
    Mr. Chairman, do I have time for one other item?
    Mr. Walsh. Go ahead.
    Ms. Kaptur. Thank you.

                daimlerchrysler jeep plant certification

    In the city of Toledo again, we had an application related 
to the construction of a DaimlerChrysler Jeep plant, which is a 
billion dollar facility. And in conjunction with that, the city 
had applied for an Economic Development Administration grant, 
which they got; and EPA stopped the disbursement, which we 
found very curious. But my question to you is: How did EPA get 
involved in that? And if you are going to be stopping another 
agency's grantmaking ability, shouldn't you do it before that 
agency announces to the city that this has occurred?
    Ms. Browner. Well, I don't disagree with that. I willget 
you an answer why it would have happened that way.
    The law requires that we provide certification on a project 
of this nature because there is a sanitary sewer connection. In 
other words, the facility is going to hook up into your city 
sewer system, and this will be an industrial or a manufacturing 
discharge into the city sewer system. So we have to certify 
back to EDA that your city sewer system can manage the waste 
that it is going to be receiving because obviously EDA doesn't 
want to be in the position of funding something, turning it on 
and not having the wastewater be able to go somewhere.
    [The information follows:]

                    EDA Grant to the City of Toledo

    On October 19, 1998 the City of Toledo requested a 
Certificate as to Adequacy of Treatment for EDA Project No. 06-
01-02914. The Certificate was requested in connection with the 
proposed extension of sanitary sewers, as well as storm sewers, 
to serve proposed commercial and industrial development 
associated with Phase 2 of the North-Cross Industrial Park in 
the northeast portion of Toledo. After internal analyses and 
discussions with the city consulting engineer, EPA notified the 
Chicago Regional Office of the Economic Development 
Administration in a December 2, 1998 memorandum that it was 
unable to issue the Certificate at that time. A copy of that 
December 2nd memorandum, detailing the basis for the Agency's 
action, is attached for the record.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Ms. Kaptur. That should have been known before.
    Ms. Browner. It may be that EDA did not come to us. I think 
your point is that people should find this out. We should find 
out how it happened.
    Ms. Kaptur. Thank you.

                         hudson river dredging

    Mr. Walsh. Thank you. I asked questions earlier on budget 
and general policy, and I would like to ask more specific 
questions on a couple of sites.
    As you know, the Hudson River PCB problem involves one of 
the largest Superfund sites in the country. Our new colleague, 
Congressman Sweeney asked me to ask you a couple of questions.
    Ms. Browner. We have seen the newspaper reports of Mr. 
Sweeney asking you to ask me questions.
    Mr. Walsh. If you already know the question, why don't you 
just give me the answer?
    Ms. Browner. The question has not changed from Mr. Solomon. 
It is the same question. The answer is that we haven't made any 
decision.
    Mr. Walsh. What he is saying is, 2 years ago EPA 
acknowledged that they commissioned a secret study to locate a 
landfill site. After this revelation, Region II officials 
publicly apologized and promised to conduct a more open 
process. However, my friend and colleague, Mr. Sweeney, 
believes that the reassessment process is not open and that EPA 
has done everything to stifle opinion public in opposition to 
EPA's plan to dredge the Hudson River. Would you be kind enough 
to comment?
    Ms. Browner. I think you are correct that the region issued 
an apology, and appropriately so. The most important thing, I 
think, is for everyone to know we have made no decision about 
where dredge material should go because we have not concluded 
the process to determine what will be the appropriate scope of 
dredging. We are awaiting a National Academy of Sciences study 
on dredge material. No decision has been made about where any 
dredge materials from the Hudson will ultimately go if, in 
fact, that is where this ultimately concludes.
    Mr. Walsh. If in fact you do dredge? Is there an assumption 
that you will dredge?
    Ms. Browner. Most people who have looked at this believe 
that some amount of dredging will take place. We are in a very 
public process, what is the right remediation, and we are 
awaiting this Academy study.
    Mr. Walsh. What happens downstream when you dredge?
    Ms. Browner. No two rivers are the same and it is a very 
complicated issue to figure out.
    Mr. Sweeney's issue is not so much the dredging, but what 
you do once you get the materials up. These are contaminated 
materials, and that is why you dredge them. No decision has 
been made on where do you put them. And there is a public 
process underway. And if he feels like in some way there is 
more we can do to engage the public, we are happy to look at 
that.
    Mr. Walsh. Is there a scientifically accepted way of 
removing the PCBs from the sediments or mitigating them 
somehow?
    Ms. Browner. It depends on the river and it depends on the 
nature of the contamination.
    Dredging PCB hot spots have been used in a number of 
instances. It is an area that gets cordoned off. They can be 
decontaminated in some instances. PCBs refers to a lot of 
things. It is not a simple, one-size-fits-all approach.
    Mr. Walsh. One of the things, as you know, is that the 
level of PCBs found in fatty fish downstream have gone down to 
the point now where I believe they are--in the striped bass.
    Ms. Browner. We have not received the official study, but 
that may well be.
    Mr. Walsh. I thought that there had been data that showed 
over time--do you have an answer?
    Ms. Fox. My name is Jeanne Fox, Regional Administrator from 
Region II.
    My understanding is that there was a study done by the 
Department of Health that the striped bass numbers have gone 
down, so that they might be acceptable levels.
    Mr. Walsh. The PCB numbers?
    Ms. Fox. But the Commissioner has not yet decided to 
withdraw that for striped bass.
    Mr. Walsh. I understand that. But the concern would be if 
you do dredge and you send PCBs downstream, those numbers are 
going to start to go up again.
    Ms. Browner. Obviously, one of the things you worry about 
in a dredging decision, which we have not made, is whether or 
not you may resuspend some of the PCBs. That is clearly an 
issue that has got to be on the table. This is true not just on 
this issue but many environmental issues. They are not black 
and white. They are not yes or no. They are complicated, and 
they can have consequences. The solutions can have 
consequences.

               Contaminated Sediment Management Strategy

    Mr. Walsh. Some additional information I just got, and I 
will mention it. The conference report stated that the 
conferees expect EPA to implement its contaminated sediment 
management strategy by evaluating long-term and short-term 
impact of cleanups and relationship to the reduction of risks 
and other benefits. Given that many sites with contaminated 
sediments contain PCBs--I know on the Onondaga Lake, we have 
mercury; I don't think we have PCBs, fortunately--will you 
assure us that in implementing the strategy, whatever it is, 
EPA will incorporate the latest epidemiological research on 
health effects of exposures to PCBs, including not only we have 
this----
    Ms. Browner. This is the GE study.
    Mr. Walsh. Well, it is the Kimbro study. Apparently, GE 
paid for it.
    Ms. Browner. That study.
    Mr. Walsh. They would probably prefer it to be called the 
Kimbro study. But, interestingly, the conclusions that EPA is 
now--the assumptions they are now working on are based on a 
study that this very same doctor did 20 years ago. And what he 
is saying in his long-term study there is no association 
between actual human exposure to PCBs and deaths from cancer or 
any other disease.
    It makes note of the fact that a number of years ago he did 
a study that helped----
    Ms. Browner. I think it is a she.
    Mr. Walsh. She, I am sorry. My apologies to Dr. Kimbro. The 
Federal government has characterized PCBs as probable human 
carcinogens based in part on Dr. Kimbro's 1975 study of PCBs in 
rats that were fed large quantities of PCBs in their diets. 
This gal has seen both sides of this issue. Is this--will this 
be considered as part of your database?
    Ms. Browner. We will fully evaluate. I think we only just 
received it. Obviously, if it is a credible scientific study, 
we will fully consider it. I don't know that it has been peer 
reviewed, and I do know some people have already raised some 
concerns about the pool of individuals who were studied.
    I think it was GE workers who were studied, and they looked 
at whether or not in the workplace there were exposures and 
what that meant. But I think they also studied things like 
receptionists and secretaries who may not have been in the work 
force. Anyway, we have got to work with them and figure out the 
study and make sure it is what it should be.
    Mr. Walsh. You are working on the assumption that PCBs 
cause cancers?
    Ms. Browner. At this point in time, yes. EPA has made a 
determination that PCBs are a probable human carcinogen, and at 
this point in time we have seen nothing in the scientific arena 
to change that assumption. That is sort of one piece.
    Mr. Walsh. I think most people are working on that same 
assumption.
    Ms. Browner. Right.
    Mr. Walsh. But it is what is based on--and, you know, as 
science improves and the studies get more accurate, maybe this 
is a good study, maybe it is not. But it should be considered.
    Ms. Browner. We were certainly looking at it, and we are 
aware of the study. We have received it.
    Mr. Walsh. Now, another area--we are going to finish up at 
3:30, so I think I will cease and desist and go to Mr. 
Mollohan. Alan.
    Mr. Mollohan. Okay.
    Mr. Walsh. We will be back tomorrow.
    Ms. Browner. Okay. I was just trying to find out ifthat 
study had actually been peer reviewed yet, and I don't know the answer 
to that. Do we know? We don't know what peer review panel it went to, 
so we will check on that.

                          Technology Transfer

    Mr. Mollohan. Ms. Browner, I want to ask you a couple of 
questions about technology, commercialization and technology 
transfer. Congress has placed a substantial emphasis on the 
commercializing of technologies. I think the real benefits 
would be if we could bundle EPA technologies and scientific 
developments with the technologies and scientific results from 
other laboratories and universities. Is EPA doing anything to 
explore opportunities to coordinate its technology transfer 
activities with other agencies?
    Ms. Browner. Yes, we have a number of things that we are 
currently involved in; and we absolutely agree with you that 
the technology transfer is a very important issue. We, through 
the Cooperative Research and Development Agreements, the 
CRADAs, which I think you are aware of. It is not a money 
issue, but we forged cooperative agreements for transfer with 
research and development facilities, for example, as well as 
universities and others where we are sharing technology and 
working together.
    This committee created the National Environmental 
Technology Commercialization Center, which is now up and 
running. It is a mechanism for transferring EPA, environmental 
technology to the private sector that we think provides a lot 
of opportunities. We are also working through the Environmental 
Technology Verification Program.
    From my perspective, I think this may be one of the big 
opportunities. And, in part, I see this when I travel around 
the world, which is not very often, but the desire to know that 
a particular environmental technology has been validated by EPA 
is very, very big in other countries. It is like an insurance 
policy.
    And so, you know, we have had some funding issues on this. 
Congress has given us money. Then we haven't always gotten the 
same money. I think of that program in terms of validating 
technologies for American companies who want to do business in 
the worldwide market. The program for environmental technology, 
is extremely important and could be very successful.
    Mr. Mollohan. And you encourage your scientists and 
researchers to pursue Cooperative Research and Development 
Agreements (CRADAs)?
    Ms. Browner. Yes.
    Mr. Mollohan. I would like a packet of material on that if 
you would.
    Ms. Browner. Okay.
    Mr. Mollohan. How many patent attorneys are available in 
the EPA to process patents?
    Ms. Browner. On CRADAs, we have 106 of them right now, but 
we will get you some breakouts on those.
    [The information follows:]

                     Technology Transfer and CRADAs

    Question. Provide EPA patents on technology transfer and 
provide information on number of patent attorneys.
    Answer. EPA has one patent attorney at that is responsible 
for CRADAs, patents and licensing agreements, copyright issues, 
trademarks, and patent relating to Grants and Contracts. EPA 
has 106 CRADAs and has received 80 patents since FY 1990 
(please see attachments).

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Ms. Browner. We have two patent attorneys. Do you think we 
should have more?
    Mr. Mollohan. Do you need more?
    Ms. Browner. I don't know.
    Mr. Mollohan. I beat you to it.
    Ms. Browner. What am I going to do if he says, yes? I am 
going to have to give them to him. He is waiting for the Senate 
to vote on him. We don't get many.
    Are you hearing of concerns? Is there something that I need 
to know that maybe----
    Mr. Mollohan. I just want to make sure. I am laying a 
groundwork for following up with you on some things, and we 
just want to make sure that you are keyed in and robust in this 
area----
    Ms. Browner. Okay.
    Mr. Mollohan [continuing]. Or we can help you be robust.
    Ms. Browner. I think, on CRADAs, we actually use outside 
counsel, so maybe we should look at that with you, too.
    Mr. Mollohan. Knowing the importance that Congress has 
given to this subject, can you tell me where the EPA Federal 
Technology Transfer Act Coordinator fits into the overall EPA 
organization?
    Ms. Browner. They work for ORD. See, I looked at the right 
person.
    Mr. Mollohan. Where is that?
    Ms. Noonan. Cincinnati.
    Mr. Mollohan. Thank you.

                   NO<INF>x</INF> Emissions Standard

    Ms. Browner, I wanted to follow up on some questions I 
asked you last year regarding ozone and nitrogen oxide. As you 
know, West Virginia is one of the States that would be required 
to substantially reduce its NOx emissions under EPA ozone 
transport rulemaking. The resulting call for State 
Implementation Plans (SIPs) is now in litigation, and West 
Virginia is one of the plaintiffs. Can you explain the current 
situation with respect to the NOx rulemaking and the SIP call 
list?
    Ms. Browner. We did set a new standard, and that is in 
litigation. We have argued the case, and we would anticipate 
rulings in the not-too-distant future. It has been some time 
since we argued it.
    The NOx SIP call that the States are currently responding 
to, is designed to address both the 1-hour standard and the 
newer 8-hour standard. And I think the States have roughly 
divided eight States suing against opposing the SIP call and 
then a group of I think eight States who are supporting the SIP 
call. As you can well imagine, it falls out along geographic 
lines, the northeast States supporting it, and the Midwest 
States opposing it. The briefing was completed with the court 
in March, and we are now awaiting a ruling on that litigation.
    Now, Mr. Mollohan, if I might just to put one more thing on 
the table, and I know you know this, but if for some reason the 
court were to say the SIP call can't go forward, that it is 
invalid, the northeast States have filed an insurance plan, if 
you will. They have filed with us under another section of the 
Clean Air Act, which they are allowed to do, a petition 
referred to as the section 126 petitions. What this would 
require EPA to determine almost facility by facility which 
facilities are impacting the upwind or, in this instance, the 
northeast States' air quality. So there is another issue that 
sits behind the SIP call litigation.
    Mr. Mollohan. West Virginia and a number of States 
requested that you accept alternate plans that would phase in 
to achieve similar results. They weren't approved. Why is that?
    Ms. Browner. A number of States, not all of the States, 
suggested that the levels of reductions that we proposed in the 
SIP calls were not the right levels of reductions.
    Mr. Mollohan. As I understand, these plans achieved the 
same results over a longer period of time.
    Ms. Browner. The period of time over which the reductions 
occurred would be one of the concerns.
    Mr. Mollohan. Which, as I understand it, impacted the 
negative effects on the industries that would have to 
accommodate these new regulations.
    Ms. Browner. We did work in the SIP call to address the 
concerns which industry raised to us. I don't want to suggest 
that industry would say we addressed every one of their 
concerns. But, for example, one of the issues that was raised 
as part of our discussions with both the States and industry 
had to do with the possibility for brownouts.
    And so, for example, we have allowed for States, if putting 
in place pollution control devices could in any way lead to a 
brownout, to have the ability to create whatever extension 
might be necessary to prevent that.
    Mr. Mollohan. If the SIP call moves forward, are you all 
prepared to be flexible in order to allow us to meet these 
targets in a way that has the least adverse economic impact?
    Ms. Browner. It is up to each State to come up with how 
they want to meet the reductions targets.
    Mr. Mollohan. We have done that, and EPA hasn't been very 
receptive.
    Ms. Browner. We haven't gotten that piece of it yet. I 
think what we were debating first was the level of reductions, 
and now we are discussing implementation.
    Mr. Mollohan. What I am trying to get at is, how will you 
ensure that the States will have the maximum flexibility to 
meet these things?
    Ms. Browner. We think we are doing that. If there are 
issues that arise down the road, as States complete the SIP 
calls, then we will look at how to make adjustments, for 
example, the way we dealt with the brownouts. We are also 
looking at the trading program.
    We have recommended to the States to adopt a model trading 
program, which we think will give them greater flexibility, 
more cost efficiency. Some States are seriously considering 
that. There are ways to pool sources to get the reductions.
    Mr. Mollohan. What if States need more time? Is there 
flexibility.
    Ms. Browner. Well, at this point in time, we do believe 
that the reductions that are necessary to meet the public 
health standards can be met within the time frames. I 
definitely won't be here when you get here, but I would dare 
say that the administrator who will have thisjob at that point, 
as I have done on current issues, will have to make those judgments. We 
have certainly provided those extensions against some opposition where 
they have been necessary. I have done that on issues we are dealing 
with today.
    Mr. Mollohan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Ms. Northup.
    Mrs. Northup. Thank you.

                       underground storage tanks

    Ms. Browner, I have a letter here from a constituent who 
wrote me--I have a series of letters--wrote me talking about 
how their petroleum marketing company--they have a number of 
underground storage tanks, all of which they have replaced, 
asking whether or not you are going to change the date of 
enforcement.
    Ms. Browner. No.
    Mrs. Northup. And I have the assurance back from you that 
you are not going to change it, December, 1998.
    Ms. Browner. No, the statute actually--I am happy to 
explain this to you, but I think that is not a fair reading of 
the statute, and I can explain to you what we have done. Do you 
want me to?
    Mrs. Northup. Sure.
    Ms. Browner. Our goal in this entire program has been to 
first protect public health to ensure that small businesses had 
the time and the resources they need to meet the requirements 
of this program. As we reached the end of last year, it became 
clear to us that, particularly for small businesses, and also 
for small communities and for some larger communities like New 
York City, that they needed to get the job done.
    And so we have worked with them, with all of the parties 
that remained to address their tank programs, to bring them 
into compliance, and what we have done is said--and, again, a 
lot of small businesses are taking advantage of this--if you 
come to us and voluntarily disclose that you have a tank that 
has not been upgraded, we can enter into a consent decree, an 
enforceable legal action, with you to see that tank upgraded.
    That is the best way for us to make sure, one, the public 
health is protected; two, all of the tanks that need to be 
replaced are replaced; and, three, that the small businesses 
who could have ended up unfairly treated in this program are 
not unfairly treated.
    Mrs. Northup. I am confused about why they would be 
unfairly treated. Again, like I was saying, I have a letter 
from your office saying that the December 22 deadline 1998 
would remain, that it would not be extended and that it would 
be enforced.
    Ms. Browner. It is being enforced. That is correct. That is 
what a consent decree is. It is an enforceable agreement.
    Mrs. Northup. And do all the local communities have the 
same requirement to pay? I mean, when you say a consent decree, 
they all pay a fee for not being in compliance.
    Ms. Browner. No, it is a small penalty. There were two ways 
to get all of these tanks that hadn't been upgraded. One was to 
send inspectors out and to apply the highest possible fines. 
The other was to say, across the country, we know there are 
some tanks out there that still need to be upgraded.
    It is as if you voluntarily disclose the fact that you 
haven't done what you were required to do, we can enter into an 
enforceable agreement. It is the same thing we would do in an 
enforcement case, except the difference is we didn't send 
inspectors out. People came to us. And we found a lot more 
tanks than we would have ever found.
    We only have 33 inspectors in this program. We couldn't get 
to every tank that we are finding. So what we are doing is 
using this announcement to say, rather than having an inspector 
come out and you feeling like this inspector showed up and told 
you you had to shut down, if you voluntarily disclose and enter 
into this agreement with us, they pay a modest penalty, we are 
going to get exactly what we need for the public health 
protections, and we are going to make sure that small 
businesses who want to stay in business aren't being shut down.
    I have a feeling that if we had done it the more 
traditional way of sending inspectors out and telling people to 
shut down, I would be up here answering questions on why we are 
shutting down all of these small businesses. We looked at this 
and what we determined is the best way to get the public health 
protection and preserve the business interests of people across 
the country was to allow them to come forward and disclose that 
they had a problem, and it is working.
    Do you know how many tanks we found this way? I don't have 
enough inspectors in the entire EPA to find all of the tanks we 
found.
    Mrs. Northup. And you all had a compliance and action plan 
for compliance.
    Ms. Browner. Yes.
    Mrs. Northup. And is what you all have done in accordance 
with the action plan that was sent to my office a couple of 
months before the deadline?
    Ms. Browner. Yes. The point is to find all of thetanks. It 
is a real simple goal, which is to find the tanks that haven't gone to 
the double wall or the liners, whatever they are required to do. And 
the question for me as a manager and the keeper of a statute and a 
person responsible for public health, was what is the best way to do 
it? If I only had 33 inspectors, I wasn't going to find them very 
quickly. With a disclosure and a consent decree process I am finding 
them.
    Tim, how many tanks have now disclosed?
    Mrs. Northup. Let me just----
    Ms. Browner. Two thousand towns have come forward under 
this program.
    Mrs. Northup. There are a couple of things here.
    First of all, all the way up until the deadline, the chains 
and the--I mean, it has been a 10-year process. They have had a 
10-year warning that this was going to happen, they had to be 
in compliance.
    Ms. Browner. Yes, and nothing has changed. They can be put 
under consent decrees.
    Mrs. Northup. And they have asked whether there would be 
any extensions, and there were assurances through my office----
    Ms. Browner. There is no extension.
    Mrs. Northup. Well, that they in a sense--that they would 
not be allowed to operate. If they weren't in compliance, they 
would not be allowed to operate.
    Ms. Browner. Under our enforcement practices, we cannot 
simply shut someone down the day we find the violation. It 
would take months to shut people down. Using the consent 
decree, we are getting the public health protections much more 
quickly, much more expeditiously, and in a much more rational 
manner for the small business owner than simply coming in and 
filing an enforcement action against them. I would be stunned 
if anyone in Congress would have liked, because that is not 
what I have heard from Congress for the last 6 years.
    Mrs. Northup. I think what the people in--the businessmen 
in my district object to is the fact that they made the 
investment, that they, in fact, did comply with the law, and 
that there is one person that didn't, and they don't see that 
that person is bearing the costs of that.
    And let me just----
    Ms. Browner. They are signing a consent decree.
    Mrs. Northup. Let me go a step further in that the local 
communities have continued--I mean, local communities have in a 
sense been the worst offenders in terms of complying, and 
either they ought to have to buy from the suppliers that have 
complied or they ought to get--you know, they should have been 
in compliance over 10 years.
    Ms. Browner. If they violate their consent decree, it is 
over. But we have an enforceable agreement against them. If I 
had to send an inspector out and find every single one of 
those, I wouldn't have found any of the ones you are talking 
about yet. I couldn't do it.
    Mrs. Northup. The local communities, how long do they have 
to do it?
    Ms. Browner. The consent decrees are generally running 6 
months. They had to notify in February, and then they got 6 
months. And there is a penalty.
    What I am trying to say to you is I don't have enough 
inspectors to have found those by February, let alone by June 
or July. So they would have continued to operate with nothing 
happening. Under this, they are paying a penalty, they are 
signing a consent decree, and we know where they are without an 
inspector. It is a rational process.
    Mrs. Northup. I understand your thinking. I also understand 
the thinking of the people who did comply and their frustration 
with being in competition.
    Ms. Browner. Don't they understand I could have shut them 
down by now?
    Mrs. Northup. I don't know whether they understand that or 
not.
    Ms. Browner. We are happy to help them understand.
    Mrs. Northup. I think they have a fair question here. And I 
think--you know, and I appreciate your answer.
    Ms. Browner. Right now, we have 33 inspectors. We have 
already found 2,000 tanks, which means more tanks because 
parties generally can have more than one tank. Thirty-three 
inspectors couldn't have found a thousand tanks by now because 
States don't always identify them.
    It is the self disclosure that is getting us this list and 
which is creating the fairness for people who made the 
investment.
    Mrs. Northup. Are States not the enforcers of this? You are 
actually the enforcer. I thought it was the States.
    Ms. Browner. It depends on the States. We have different 
agreements with different States. I set up the one in Florida. 
I would like to report that Florida was the first one to be 
done, but different States have different agreements.
    Mrs. Northup. I just want to tell you that in Kentucky they 
did hold firm on the dates. They did not give any extensions.
    Ms. Browner. They did.
    Mrs. Northup. They did.
    Ms. Browner. Yes.
    Mrs. Northup. I was under the impression, my information 
from Kentucky, they were not.
    Ms. Browner. We don't know of anyone being shut down in 
Kentucky.
    Mrs. Northup. Maybe they are all in compliance.
    Ms. Browner. I don't think so. Hope springs eternal.
    Mr. Walsh. Thank you. And Mr. Price will have the last word 
today.
    Mr. Price. Let me just ask one question following up on 
this discussion.
    What about those who don't come forward, and how many such 
owners do you estimate there are and what are you going to do 
about it?
    Ms. Browner. A couple of things. One is, the people who 
supply, won't supply, is one of the ways that it will work.
    Mr. Price. You don't know who these people are necessarily?
    Ms. Browner. The problem is, this has been an ongoing 
problem in this program. People didn't keep lists of who had 
tanks. Some of these tanks are quite old, and there were no 
lists. So our inspectors will be out there. We will be taking--
--
    Mr. Price. All 33 of them?
    Ms. Browner. That is the problem. That is why a self 
disclosure was a much quicker way to do this.
    Mr. Price. I understand that. Do you have any estimate, 
though, of how many are not coming forward and what the 
magnitude of the remaining task will be?
    Ms. Browner. You know, I will be honest with you. Idon't 
know that we know the answer to that. They are estimates, but that is 
all they can be at this point.
    Mr. Price. What is the estimate?
    Ms. Browner. We are estimating that the universe of tanks 
that we started the program with was 2 million. We estimate 
that a million just off the top shut down because they decided 
they would never be able to meet the requirements and that we 
are dealing with something on the order of about 800,000 or 
850,000, of which about 75, 77 percent are in compliance.
    And it is not going to be easy to find the rest of them. A 
lot of them are in very rural, small places. Not all of them. I 
don't want to suggest that New York City, for example, didn't 
have a problem. It did. It was one that came forward.
    But it is not going to be easy, but that is why we did it 
this other way, because we got so many more than we could ever 
get through our inspectors. And we didn't have this situation 
particularly where a small business owner felt like this 
enforcer was showing up and shutting them down. It was called 
red tagging their tank.
    Mr. Price. Presumably, at some early point, you will have 
the estimate of the success of this program, the compliance 
rates and the remaining task and that no doubt will be 
reflected in the future budget request.
    Ms. Browner. Yes.

                     endocrine disrupter screening

    Mr. Price. I want to ask you about this screening program 
for endocrine disrupters. Congress asked EPA, as you know, to 
develop a screening program for endocrine disrupting chemicals 
by August of 1998. You have indicated that you are basing your 
proposed program on the consensus recommendations of the 
Endocrine Disrupter Screening and Testing Advisory Committee, 
which I guess we can call EDSTAC.
    How much funding was allocated in fiscal year 1999 and how 
much have you proposed for fiscal year 2000 for implementing 
EDSTAC's recommendations? And I would think that estimate 
should not include funds for ORD's ongoing research program for 
endocrine disrupting chemicals, except where these are 
specifically linked to EDSTAC goals.
    Ms. Browner. 1999 was $12.5 million. That is the enacted. 
The request is for $12.7 million.
    Mr. Price. 12.7 for EDSTAC implementation in fiscal year 
2000?
    Ms. Browner. That would be the second or the third year of 
funding for that program. There are two parts to the program. 
One is the research part of the program. I think those are the 
numbers I just gave you. The other is the part of the program 
that is managed in the Office of Pollution, Prevention and 
Toxic Substances, and that funding was, in 1999, I think $4.2 
million, and the request is for $7.7 million.
    Mr. Price. We are talking about the screening program now?
    Ms. Browner. The second numbers I gave you for OPPTs are 
the screening program. The first numbers are the research 
program.
    Mr. Price. The second number for fiscal year 2000 is?
    Ms. Browner. The FY 2000 request for the screening program 
is $7.7 million.
    Mr. Price. All right. Now, EDSTAC recommended a program of 
eight screens and five tests. How many of these are scheduled 
for standardization and validation by the end of the current 
fiscal year and how many by the end of fiscal year 2000?
    Ms. Browner. Can we answer that for you tomorrow to make 
sure we get it right?
    Mr. Price. Certainly, or for the record. But if you can 
bring that in tomorrow, that would be good.
    I know you envision this endocrine disrupter screening and 
testing as a joint effort. You apparently have some cooperation 
with other governments and cooperation with the private sector.
    Ms. Browner. Yes.
    Mr. Price. Maybe you could also furnish this later. I would 
like to know what kind of funding commitments you have from 
other governments and from the private sector to assist with 
the standardizing and validating of these EDSTAC recommended 
screens and tests.
    Ms. Browner. We will provide that for you, yes.
    [The information follows:]

                          Endocrine Disrupters

    There are several stages to the standardization and 
validation process. The first stage is assay development, which 
is usually completed in our laboratories and Office of Research 
and Development (ORD) funds this stage. The second phase is 
assay standardization. This involves running an assay in one 
laboratory to develop an optimized protocol. The final stages 
is inter-laboratory validation in which the standardized 
protocol is conducted in multiple laboratories on several 
different compounds. The purpose of this last stage is to 
determine whether the procedure can be reliably performed in 
different laboratories to give comparable results.
    EDSTAC recommended eight screening assays plus several 
alternates and five tests. The number of screening assays and 
tests scheduled for standardization and validation is as 
follows:

Standardization:
    Fiscal year 1999..............................................     3
    Fiscal year 2000..............................................     3
Validation:
    Fiscal year 1999..............................................     2
    Fiscal year 2000..............................................     5

    EPA's FY 2000 budget request assumes that three 
laboratories are necessary for validation of each of the 
screens and tests and that EPA will need to cover the costs of 
one of the laboratories. The costs of the validation program 
for all screens and tests is estimated at $48 million dollars. 
EPA will need \1/3\ of that amount or $16 million. The 
Organization for Economic Cooperation and Development (OECD) 
has made commitments to validate two screening assays and one 
test to date. EPA anticipates that OECD will sponsor validation 
in one laboratory for most of the Tier 2 tests but this issue 
has not been decided. Also, the U.S. chemical industry has not 
decided on their resource commitment to the validation 
exercise. We anticipate that they will cover the costs of one 
of the three laboratories and expect to be notified of their 
plans soon.

    Mr. Price. Congress asked EPA to implement the screening 
program by August of 1999. Based on the answers you have 
provided and assuming the standardization and validation is 
successful, what is the earliest date by which EPA expects to 
have the job done, to have a complete set of screens and tests 
validated?
    Ms. Browner. We are hoping to meet the date for the high 
through-put screening protocols. Once the protocols are in 
place, which I think, as you point out, Congress had said by 
August of this year, then we would move into the actual 
screening process, which would be a 2-year process as I 
understand it.
    Mr. Price. The validating of the screens?
    Ms. Browner. Yes, you run the screens, right.
    Mr. Price. Running of the screens?
    Ms. Browner. You run the screens, yes.
    Mr. Price. All right. And the validation of the tests is a 
concurrent process; is that right?
    Ms. Browner. Yes.
    Mr. Price. All right. That is a 2-year time frame after 
August of 1999?
    Ms. Browner. As you are developing the screen, you are 
trying to validate it. You don't officially run the screen on 
anything until your validation is done. So I think we have 
always interpreted the congressional requirement that by August 
we had to have this program ready to actually be running things 
through. That means a validation would have to be done.
    Mr. Price. All right. And then the actual screening is a 2-
year----
    Ms. Browner. Yes.
    Mr. Price [continuing]. 2-year process?
    Ms. Browner. That is just a screening. Then you go to 
something more complicated after the 2-year screens.
    Mr. Price. Yes. All right. And if there is further 
clarification of any of this, you can furnish that for the 
record.

                        propane tank regulation

    I want to move on, before my time runs out, to return to 
some questions raised this morning on propane risk management. 
And I know this morning you talked about changes in the 
threshold quantity of propane for submitting a risk management 
plan.
    Ms. Browner. Yes, 18,000 gallons.
    Mr. Price. Right. You said you intend to make or have made 
a change to the rules that anyone storing less than 18,000 
gallons will not have to submit a risk management plan.
    Ms. Browner. Correct.
    Mr. Price. Now I understand you are making this decision 
based on safety considerations, not necessarily on the 
categories of who it might exempt from the requirements, 
although, as I understand it, the likely effect will be to 
exempt most farms and/or small users.
    Ms. Browner. A farmer with more than 18,000 gallons has got 
a lot of propane out there.
    Mr. Price. Right, right, most farmers and other small 
users. Larger users and virtually all dealers will still be 
required to submit RMPs; and, of course, they feel that 
complying with these requirements is going to be difficult.
    Now, has the change in the threshold quantity of propane, 
that 18,000 gallon threshold, already been made? Does this 
require formal notice and a request for comments? What is the 
process?
    Ms. Browner. What you would normally do is, if someone 
failed to meet a requirement, you would file an enforcement 
action against them. We won't do that for anybody who is 18,000 
or less. We will then have to ultimately make a modification to 
the original rule changing the limits, but we will use what is 
referred to as enforcement discretion until that rulemaking has 
been completed.
    Mr. Price. So you are simply announcing how you are going 
to utilize your discretion?
    Ms. Browner. Yes, we do that.
    Mr. Price. But there will later be a formal change in the 
rule?
    Ms. Browner. Yes, just to codify it, but no one is 
required.
    Mr. Price. And will that involve formal notice, comments, 
the full machinery of rulemaking?
    Ms. Browner. Yes. You can't change the rule without the 
full machinery of rulemaking.
    Mr. Price. We don't have to wait on that to have the 
discretion exercised?
    Ms. Browner. Right.
    Mr. Price. I understand dealers and large users will be 
required to submit their RMPs by June 21st of this year.
    Ms. Browner. Yes.
    Mr. Price. Very soon. Now, you published your guidance 
document for dealers and users on complying with the 
regulations in November of last year, I believe.
    Ms. Browner. Yes, that may be. That is correct.
    Mr. Price. Any question or any doubt in your own mind about 
the adequacy of that time frame since the publication of the 
document for them to effectively be able to prepare for meeting 
these regulatory requirements and the RMPs in particular?
    Ms. Browner. I think they have known for, God, the better 
part of 3 years now. We have been working with them, and that 
was the final step of a lengthier dialogue with the industry 
and the final guidance. Maybe there is the person out there 
that has got more than 18,000 gallons that this is a surprise 
to, but it has been going on for several years now.
    Mr. Price. In a letter to EPA last fall I inquired as to 
whether the RMP plans, the requirements, could be partially 
redundant in light of other State and Federal regulations and 
standards. The response you sent back asserted, and I am 
quoting here, that Clean Air Act requirements passed by 
Congress established a critical link between prevention and 
right to know through a risk management program and that OSHA 
and national fire protection standards do not adequately 
address this connection.
    The response also seems to imply that propane dealers and 
users already complying with existing regulations and standards 
should not face a significant burden for the most part----
    Ms. Browner. Right.
    Mr. Price [continuing]. In meeting the risk management plan 
requirements. So to what extent do the risk management plan 
requirements represent new information? Will they require new 
information not already being supplied by theaffected dealers 
and users to Federal agencies or to State governments? And I guess the 
question to follow would be, is there any way to focus your 
requirements--your RMP requirements on the gaps in information----
    Ms. Browner. Yes.
    Mr. Price [continuing]. Without duplicating what is already 
required of propane users and dealers under existing 
regulations and standards, at either the Federal or State 
level.
    Ms. Browner. Yes is the short answer. And the way that we 
are trying to do this--you brought up NFPA. NFPA, as you point 
out, does have standards. We are talking with them. If they 
could, we think, make some adjustments in what is referred to 
as their standard 58 so that it would cover some additional 
activities that we felt needed to be covered under the risk 
management program, then the same thing will work for both. And 
so we are working on that with NFPA now.
    Mr. Price. I guess it is more difficult with respect to 
State level regulation, although----
    Ms. Browner. Yes.
    Mr. Price [continuing]. Does the same principle apply? And 
to what extent do we have State regulatory regimes that address 
the issue?
    Ms. Browner. Obviously, States do have an interest in this; 
and many of them probably do have programs. We can get you the 
number of States that have programs.
    [The information follows:]

                     Propane Gas--RMP Requirements

    Provide a list of states with Risk Management Programs
California
Delaware
Florida
Georgia
Hawaii
Louisiana
Mississippi
Nevada
New Jersey
North Carolina
Ohio
South Carolina
Virgin Islands
Puerto Rico

    Ms. Browner. I think the hope would obviously be that if we 
and NFPA can come to an agreement that States would look at 
that; and if they could find out that it adequately covered 
their needs, that would be it.
    It is hard to imagine what the Clean Air Act requires and 
NFPA requires or desires that a State might want. But there may 
be something out there that we just have not thought about, 
that a State has thought about. But, obviously, what we can do 
is, when we have reached an agreement with NFPA, which I think 
we are making real progress on, we can double back to the 
States and try and make sure they understand exactly everything 
that we are picking up. They will get what we are getting to 
facilitate whatever it is they feel like they need to do.
    One of the problems that is going to occur is propane may 
not be covered by the environmental agency in a State. That is 
who we tend to have a relationship with. I know in Florida, for 
example, there is a State fire commissioner who actually would 
have jurisdiction over this. And so part of the problem we are 
going to run into is it is in a variety of State agencies that 
we are going to have to try and work with.
    Mr. Price. I notice my time is expired. I would like you to 
submit, if you will, for the record, whatever you would like to 
report to us about your enforcement plans.
    Ms. Browner. Okay.
    Mr. Price. If I had more time I would ask you to elaborate 
on the Agency's enforcement requirements for these RMPs. Thank 
you very much.
    Mr. Walsh. Thank you. There will be another full day 
tomorrow of hearings. We will begin at 9:30 a.m. sharp.
    And before we conclude, I would just like to enter for the 
record some testimony from the General Accounting Office that 
will be included in its entirety in the record.
    Mr. Walsh. Thank you very much for your responses today.
    Ms. Browner. Thanks.
    Mr. Walsh. And I look forward to seeing you again tomorrow.
    This hearing is adjourned.
                                         Wednesday, April 14, 1999.
    Mr. Walsh. The subcommittee will come to order. I think we 
have enough to get started now.
    Welcome back to all of you folks. We intend to go a morning 
session and an afternoon session, if the interest remains. If 
we get our work done this morning, I suppose that we could give 
you the afternoon off, but I am not going to make any 
predictions on that. I do have a lot of ground to cover myself.
    We will try to take about 15 minutes each and rotate as 
people arrive.

                          reinvention programs

    The first question that I would like to ask is regarding 
the Sustainable Industry Program.
    I met with some metal finishers up home last week and they 
really like this program. They use it as bragging rights not 
only about the quality of their product, but their commitment 
to the environment and the community and so on. So I would like 
to commend your Agency's work with the metal finishing 
industry. It has been a success story in the administration's 
effort to reinvent environmental regulation.
    I understand that you are now working with the Sustainable 
Industry Program to repeat the success with several other 
industry sectors, including professional batch chemicals, meat 
processors, and the metal cast industry.
    The Agency's budget request unfortunately reduces funding 
for the good work that you are doing in these areas to get a 
win for both industry and the environment. Instead of focusing 
on new initiatives and other reinventive efforts, why are you 
not committing resources to follow through on successful 
programs underway but not yet complete?
    Ms. Browner. We are. Our reinvention programs at EPA have 
largely been a commitment to move in an industry-by-industry 
approach as opposed to a one-size-fits-all approach, which had 
been the focus of the first 20 years of efforts. We said at the 
beginning of this that we would start with bringing together 
people from across the Agency into one operation to do the 
initial work, but that the real success would come when we 
could integrate this way of thinking into all of the parts of 
the Agency, and we are now moving into that integrated phase.
    So the fact that you look at a budget line and you may see 
a change does not mean that the work is not going on and the 
resources are not there. They are simply back in the individual 
offices where they needed to be.
    It is a pretty significant step for us to go from having 
isolated projects sitting off by themselves, to integrating 
this industry-by-industry approach across all of our 
programmatic areas. It is working with the metal finishers, and 
there are other examples where it is working extremely well.
    We have actually hired consultants to come in and review 
what we have done in this area to tell us what we could do 
better, and we would be happy to provide all of that to the 
committee. We have had a fairly public review of what 
reinvention efforts have been successful and what hasn't 
worked, and we are happy to share that.
    Mr. Walsh. To have industry business owners come in and 
tell me that this is a good program--I have actually toured 
both of those facilities. I didn't know what I was looking at 
most of the time, but they really have built an infrastructure 
within their own industry to deal with these effluent problems, 
heavy metals and chemicals. They use some pretty nasty stuff, 
but they really are making an effort to grab those and put them 
back into the process. It saves them money. And as I said, they 
use it as part of their marketing to say that ``We are 
environment-friendly. Our competitors are not. You ought to buy 
our product.'' But the idea that they can do the self-
monitoring saves you money, and it saves them money.
    Also, as you know, in our watershed, in the Onondaga Lake 
watershed, permitting is a big issue, and anybody who wants to 
get into this industry or who has similar sorts of effluent 
problems has problems getting permits, and so this helps them 
and they want this effort invested in. They see it as a good 
tool for them.
    Ms. Browner. Yes. We agree. I would like to just sayabout 
the metal finishers, probably of all of the separate industry sectors 
that we have worked with, they have really been one of the best. They 
have some leaders, David Marsh and others in their organization. They 
have some individual business owners who really understood that for 
this industry to stay competitive, they needed to come to the table. 
And it wasn't only the metal finishers, we also had to bring the local 
sewer plants to the table.
    Now we have an agreement, the wastewater management, metal 
finishers, EPA, all of us working together. We have a computer 
program for them. We have this recipe book for them. So if you 
are a metal finisher and you don't have money to hire your own 
engineer, here it is; we wrote it with the trade association. 
It is how you can get the job done, how you can achieve 
environmental compliance. I have been going to their annual 
meetings. We are signing up companies and States and wastewater 
facilities. It is a huge success.
    Mr. Walsh. This impact on wastewater facilities is extended 
further, especially--I am not sure about other parts of the 
country--but in the East, this land spreading of metropolitan 
sewage sludge is a real issue, especially if there is heavy 
metals in it. I am not going to allow any of this to be spread 
on any farmland in my constituency if we are putting mercury 
and lead and so forth into farmland, which obviously sooner or 
later ends up in food. So the less heavy metals, arsenic and 
other things that are going into sludge, the better.
    Ms. Browner. The more we can pretreat, the better for the 
wastewater treatment facility at the local level. And if you 
can recapture it, that is money saved.
    Mr. Walsh. So you are not reducing your commitments?
    Ms. Browner. No.

                    clean air regulation enforcement

    Mr. Walsh. This goes back to enforcement and compliance. It 
has been suggested to us that the Office of Enforcement and 
Compliance Assurance, Mr. Herman, has on occasion conducted 
what are in effect rulemaking activities through enforcement 
activities which are not necessarily consistent with current 
regulation. Would either of you care to respond to that?
    Ms. Browner. Is there a specific area? Mr. Chairman, if you 
can excuse me for a minute, I can't see you because there is 
this halo behind you.
    Mr. Walsh. It must be the window.
    I am trying to get from the staff if there is a specific 
area.
    Ms. Browner. If there is a specific area, maybe I can be 
more helpful.
    Mr. Walsh. I can't be real specific, but in clean air 
regulation enforcement, the rulemakers are enforcing the 
existing law by enhancing the rules somehow.
    Ms. Browner. I think I know the specific issue area that 
this may have arisen in, and let me see if I can answer it more 
generally.
    When we undertake an investigation and we find what we 
believe to be a violation of a requirement in the law or in a 
rule regulation, particularly of a large scale, perhaps an 
industrywide-type violation, we then enter into, through our 
Enforcement Office and the Justice Department and our 
Programmatic Office, extensive negotiations with the parties in 
an effort to reach a consent decree. It is far better for 
everyone if we can do this without going into a lengthy trial. 
Generally we are very successful.
    In some instances the consent decrees have many facets to 
them, perhaps a penalty. The most difficult aspect of the 
consent decrees is where you have pollution clearly released 
into the environment but we can't grab it back. It was put up 
into the air over 10 years. How do you fix that past wrong?
    In some instances, we come to an agreement that the next 
round of pollution reductions that that industry is responsible 
for under the law, they are going to do it sooner. We move up 
the dates to balance out the fact that the pollutants were 
released and we can't get them back.
    Some people in some industries may say that is a rulemaking 
outside of the traditional rulemaking. But remember, we had an 
enforcement action. We had the right to be in court. They had 
the right to refuse to sign the consent decree and litigate all 
of this.
    Mr. Walsh. So they are taking issue with what you are 
asking them to consent to?
    Ms. Browner. Which they don't have to sign. They are free 
to litigate, and in some instances that is the choice that they 
make.
    Mr. Walsh. In the litigation process, the violation that 
they are being charged with is the violation of the existing 
rule?
    Ms. Browner. Yes.
    Mr. Walsh. Do the judges look at, or whoever is hearing 
this, look at the consent decree as something that EPA can use 
to enhance existing law?
    Ms. Browner. A consent decree is an agreement between the 
parties, to whatever the parties are willing to agree to. If we 
litigate, there is no consent decree and we look to the judge's 
order. In the judge's order there is a penalty part.
    There are three parts: Is there a violation, yes or no; if 
there was, the penalty to be paid--and the maximum penalties 
are set forth in the statute, and then it is determined how to 
correct the past wrong. And I think that may be the issue that 
you are hearing about, and there are some companies who may 
ultimately sign consent decrees but feel that----
    Mr. Walsh. All right.
    Let me run this by you. The idea that the enforcement 
people are more vigorous in enforcing than the rulemakers had 
intended them to be, but intended the rule to be--in other 
words, their interpretation of the rule, the enforcement 
people, is more stringent than the initial rule, or different?
    Ms. Browner. It is not as if the Enforcement Office is free 
to act on their own. It has to be in party with the 
Programmatic Office and with the Justice Department.
    I should be very careful to say consent decrees are 
actually recorded with the court and a judge does review them. 
Attorney General Meese signed a memo during his tenure which 
this administration adheres to, that is, a consent decree 
cannot ask for something that is not allowed for in the law. It 
can change a date on something.
    Mr. Walsh. So you have clarified the consent decree part, 
but this issue of enforcement versus the rulemakers and the 
differences in positions, is that real? Has that happened?
    Ms. Browner. I think that may be one of those thingsthat is 
to some degree in the eye of the beholder. When people are enforced 
against, they do not welcome it and they may argue this was never 
intended. We have to prove our case. The parties that we are enforcing 
against obviously have access to our rulemakings and our documentation 
in support of the rules to argue if we are going beyond what the 
rulemakers would have originally intended.
    I don't know that you are asking about a specific case. 
There is a complicated issue right now in a specific case that 
is somewhat similar to this. I have met with the parties in the 
case. We do have a consent decree that has been lodged, and I 
think that it was convenient to read the rule to support the 
industry position. That is not our program's reading of it, 
that is not enforcement's reading of it, or the Justice 
Department's reading of it.
    Mr. Walsh. We will be watching this and let's consider this 
as a cautionary thing.

                           regional structure

    This one goes to management issues. The discussion of EPA's 
management shortcomings has been going on for many years. Most 
assuredly it is not something characteristic of your watch. EPA 
is generally perceived, fairly or not, as being extraordinarily 
decentralized, with significant if not overwhelming autonomy 
exercised by many of the 10 regions. Some have commented over 
the years that each of the regions often takes on the 
personality of the regional administrator.
    In any case, there is significant opinion among States and 
regulated industry that policies or guidelines described and 
set forth in headquarters sometimes bear little relationship to 
those policies or guidelines as actually implemented in the 
field. Would you agree that this is a problem that occurs in 
the regions at least occasionally; and, if so, what steps have 
you taken to address this?
    Ms. Browner. I think this can be a problem. When I first 
came to EPA we were roundly criticized for the fact that we had 
a one-size-fits-all approach, that what was right for Maine 
would be right for California. And these States were 
fundamentally different. The environment was different, the 
resources, the laws that they had structured were different. So 
we did go through a process of recognizing that States are 
different, regions are different, and the needs are different. 
We sought to shape each of our regions to meet the needs of 
those States.
    Your State, New York, is a very large operation at the 
State level, and we have a very good relationship over which of 
us does what.
    Another state, like Wyoming, doesn't even run the Drinking 
Water Program in their State. We continue to run it for them. 
They have never wanted to run it. They are the only State left 
in the country where that is the case. So the regions are 
different.
    I think the challenge is managing the tension in a healthy 
way. So, one, we are responding to the differences that States 
and regions need, but at the same time we are making sure that 
the business community gets the kind of predictability and 
reliability they need to function across the country.
    Mr. Walsh. So as opposed to reflecting the personality of 
the administrators, it reflects the needs of the region?
    Ms. Browner. That is the goal, yes.

                          agency restructuring

    Mr. Walsh. Now that EPA is 25 years old, do you believe 
that it would be useful for the Agency to take an internal look 
at itself with an eye toward possible restructure for adaption 
of available management efficiencies?
    Ms. Browner. Thomas Jefferson said that government has to 
keep pace with the times, and I completely agree with that.
    I will be honest with you, Mr. Chairman. We have made some 
efforts at this, and we have all but gotten our heads handed to 
us.
    One issue I looked at early on in my tenure was the 
structure of our regional labs and whether we should 
consolidate them. My phone was ringing off the hook. ``Don't 
you dare shut down the lab in my State.''
    Mr. Walsh. From Members of Congress were you getting these 
calls?
    Ms. Browner. Members of the public. I am going to get my 
head handed to me; the phone is probably ringing already. I 
mean, in the day of FedEx or the good Postal Service, I 
couldn't understand why you had to have all of these labs. When 
I was in Florida, I shut down all of the regional labs. I went 
to a central location. It was a very good thing for the Agency, 
but that it was not something we could do, was made abundantly 
clear to me.
    Mr. Walsh. That is those checks and balances that we hear 
about?
    Ms. Browner. Yes. The Enforcement and Compliance Assurance 
Office was created. It had been disbanded under Ann Gorsuch, 
and we have gone through a large reorganization for that. We 
have gone through a reorganization in terms of our financial 
management operation.
    Mr. Walsh. Any new initiatives?
    Ms. Browner. Yes. For our Office of Information, we are in 
the process of consolidating all of our information collection, 
management and dissemination, and we have been going through a 
lengthy and important process involving a lot of public 
outreach. We have met with our stakeholders, States and 
industry, on how we should manage information for the next 
century. And I think we are getting a lot of very positive 
feedback.
    We also created the Office of Reinvention. We thought it 
was important to have a place where all reinvention efforts 
were being not necessarily run on a day-to-day basis, but 
managed and looked over so we created the Office of 
Reinvention.
    We have, I think, made some efforts. As you say, there are 
checks and balances, and some of the things have resulted in 
cost savings for other people, perhaps outside the Agency and 
inside the Agency, too.
    We have a very large supercomputer and it had been housed 
at Bay City, and we moved it to North Carolina because that is 
a cost savings for us. We were featured on an evening news show 
as wasting the taxpayers' money for doing that even though we 
have an independent study that Congress told us to go get that 
will show that we are actually going to save the taxpayers' 
money. So all of these things have come with pros and cons.
    Mr. Walsh. Alan.

                           information office

    Mr. Mollohan. Thank you, Mr. Chairman.
    Ms. Browner, I want to continue with the Chairman's line of 
questioning with regard to some of your new initiativesand talk 
with you a little bit about this Central Information Office.
    Ms. Browner. Yes.
    Mr. Mollohan. What are your information needs and how do 
you provide for them right now?
    Ms. Browner. The Agency needs information for a variety of 
reasons, and not in any particular order, but let me just 
briefly mention some of them. One is to make sound decisions.
    Two is to provide----
    Mr. Mollohan. I am sorry; what I'm really looking for are 
the kinds of records challenges do you have? Do you have old 
records?
    Ms. Browner. You mean in terms of documents that we keep?
    Mr. Mollohan. Yes.
    Ms. Browner. It varies from office to office, but permit 
applications present document requirements. Probably one of our 
greatest challenges is in our Office of Pesticide Registration 
because there we receive confidential business information and 
we are required to keep that obviously under lock and key. So 
it really will vary across the Agency.
    The Information Office is not going to be the keeper of 
documents per se. It will be the keeper of information. That is 
a little bit different. Information would not necessarily be 
individual permits and all of the permit conditions, but it 
would be the State report on water quality. Your State is in a 
process of determining which rivers and lakes need attention 
first, second, and third. The Information Office would be 
keeping that kind of information.
    Mr. Mollohan. Is this a paper or a digital repository?
    Ms. Browner. We are increasingly going to digital and 
computer information, so it is digital. We can receive close to 
everything over a modem. All of our right-to-know reporting in 
the TRI Program is digital. If people want to send us floppy 
disks, we will take it that way.
    Mr. Mollohan. How about environmental records? I would 
imagine that you have millions of environmental records keeping 
track of water quality over time and----
    Ms. Browner. Yes.
    Mr. Mollohan [continuing]. In all of the watersheds around 
the country.
    Ms. Browner. We hold a lot of that now in computer 
databases. But you are right; we have a lot of that historical 
information, and one of the big challenges for us as we come 
into the next century is data quality. For example, your State 
may have reported in one way versus New York. There is a lot of 
focus on data quality to make sure that it is apples to apples. 
We are starting to carry disclaimers where we think that there 
are differences between State reporting.
    Mr. Mollohan. How, historically, has that information been 
captured and stored?
    Ms. Browner. Let us say a company in your district reports 
to the State. That gets keypunched in at the State. The State 
sends us a copy, and we would keypunch it in. Every time there 
is keypunching, there are errors. Industry wants us to go on-
line with their reporting requirements. What the city needs, 
they take it down. What the State needs, they take it down, and 
we take down what we need so there are no keypunching errors.
    Mr. Mollohan. Does this effort to create a Central 
Information Office address all those issues across the board?
    Ms. Browner. It is designed to. Some of those will take 
time. For example, electronic reporting and electronic 
permitting is something we are committed to. We have to come 
through a whole series of steps to do it.
    Mr. Mollohan. What about historic records? There was a 
precomputer time. Do you have warehouses full of paper?
    Ms. Browner. Oh, yes. There are warehouses full of paper, 
yes.
    Mr. Mollohan. Who is the person who manages this 
information?
    Ms. Browner. Romulo Diaz, our Office of Administration and 
Resources Management. We have warehouses out in Maryland where 
all of the Superfund cases are stored.
    There is a Federal law that requires Federal agencies to 
maintain paper records in a certain way, and we are in 
compliance with that law. Our Chief Information Officer is also 
here, Al Pesachowitz.

                           coral reefs damage

    Mr. Mollohan. Thank you. Last month there was a government 
study that revealed that record sea temperatures and pollution 
destroyed much of the coral reefs in the last year, and they 
cite areas where as much as seventy percent destruction was 
experienced.
    Ms. Browner. Yes.
    Mr. Mollohan. And that the reefs are under attack primarily 
from man-made pollution, mostly from septic systems, which 
obviously would be on shore.
    In addition I am struck by the growth of the dead zone area 
in the Gulf of Mexico. The information that I have is that it 
has doubled in the last year and this is caused by farm run-off 
of agricultural fertilizers.
    Ms. Browner. That is the suspicion; right.
    Mr. Mollohan. How is EPA addressing these issues and do 
they represent new areas for you? What jurisdiction do you have 
to address them?
    Ms. Browner. You raised two issues. One is septic tanks and 
the other is run-off.
    Mr. Mollohan. I grouped those as land-generated pollution 
which ends up polluting the oceans and the gulf. I would like 
to understand how you are approaching them and what is your 
jurisdiction.
    Ms. Browner. The President's Clean Water Action Plan, which 
we provided copies to all of the members last night, addressed 
these issues as being important, and we have a number of 
actions that we have proposed. An example would be to increase 
buffer strips so that agricultural areas that are adjacent to a 
river would be a buffer to help eliminate some of the run-off.
    Mr. Mollohan. Could you explain to me what your 
jurisdictional authorizations are?
    Ms. Browner. Yes. The Clean Water Act----
    Mr. Mollohan. So you can address these problems?
    Ms. Browner. Yes, under existing law.
    Mr. Mollohan. In an enforcement mode?
    Ms. Browner. That is not our desire at this point.
    Mr. Mollohan. Could you?
    Ms. Browner. Yes, in some instances. For example in the 
animal Feeding Operation Strategy, we looked at the biosolids 
issue,and have made recommendations to the States on biosolids. 
States could enforce on biosolids applications if not managed properly.
    Mr. Mollohan. That is not your approach of choice?
    Ms. Browner. No.
    Mr. Mollohan. What is your approach of choice?
    Ms. Browner. Once we enforce--the pollution is there. What 
this plan allows us to do is work with the Natural Resources 
Conservation Service--and farmers to construct buffers. There 
is a lot of money available for the buffers.
    Mr. Mollohan. From where?
    Ms. Browner. USDA has a number of programs, such as the 
Conservation Reserve Program. In the Chesapeake Bay, we have 
had a big program to go to no-till farming which has really 
reduced run-off. So we are working in a cooperative 
partnership, frequently through the USDA, which has the on-farm 
relationships that we think are the most important.
    Mr. Mollohan. Are these two situations different with 
regard to your approach to trying to correct the conditions? 
The gulf versus the coral reefs?
    Ms. Browner. For example, I think the coral reef issue----
    Mr. Mollohan. And septic tanks?
    Ms. Browner. Off of Florida it is septic tanks. It is a 
Keys issue. Open hole discharge is the big issue down there.
    Mr. Mollohan. How are you approaching that situation?
    Ms. Browner. We have been working with the State of Florida 
for a very long period of time, and I think they have moved 
towards a ban on new septic tanks in the Keys. These septic 
tanks discharge literally right offshore.
    There are also two projects that we seek funding for. One 
is our Gulf of Mexico Program, where we are involved in a 
research effort on hypoxia and harmful algae blooms. We also 
have an earmark that we are still working on for the Atlantic 
Caribbean Reef Research Project.
    May I add something? The 20 percent set-aside that we are 
suggesting for the Clean Water SRF could be really helpful in 
farm communities. The State might want to use some of that 20 
percent set-aside for these buffers in addition to what the 
EQUIP and the Conservation Reserve Program might offer. It 
would be more flexibility in terms of funding for States, and 
particularly for the farming community.

               sport utility vehicles: emission standards

    Mr. Mollohan. I have a couple of questions that I am going 
to try to combine with regard to vehicles. Light trucks and 
sport utility vehicles (SUVs) now comprise about one-half of 
new vehicle sales in this country.
    Ms. Browner. Yes.
    Mr. Mollohan. And they are wonderful vehicles.
    Ms. Browner. Oh, yes. We don't disagree. I am surrounded by 
people who own them.
    Mr. Mollohan. That is probably encouraging for the 
industry.
    Ms. Browner. We are no different than the rest of America.
    Mr. Mollohan. Such vehicles do not have to comply with 
emission standards as cars. They tend to use more fuel and 
pollute more. Having said that, they are obviously very 
popular. EPA has been addressing the issue about what to do 
about SUV emissions and fuel economy for at least a couple of 
years. Please tell the subcommittee the status, the timing, and 
the salient features of the new regulation that you are 
contemplating?
    Ms. Browner. There is an article in one of the newspapers 
today. We will shortly propose new tailpipe emission standards.
    Mr. Mollohan. Have you proposed that?
    Ms. Browner. It is at OMB right now. We are finishing up--
--
    Mr. Mollohan. Have you solicited comments?
    Ms. Browner. I have personally spent more time on this rule 
in the last year than anything else. We have made extensive 
outreach with the oil industry and the car industry, the States 
and the environmental community. We drafted our proposal. It is 
at OMB. The entire administration is reviewing it. We think 
that will end in the next couple of weeks. Then we go out for a 
60-day public comment, and we are going to do four public 
hearings across the country.
    Mr. Mollohan. Prior to it being published in the Federal 
Register?
    Ms. Browner. This is a proposal, and then we would hope to 
take all of the comments and sign the final requirements by the 
end of year.
    Mr. Mollohan. For proposed rulemaking?
    Ms. Browner. The proposal will come in the next couple of 
weeks.
    Mr. Mollohan. When you publish in the Federal Register, 
that is a proposed rulemaking. My question is, when do you plan 
on getting to the point that you are going to publish the 
proposed rules?
    Ms. Browner. In the next several weeks.
    Mr. Mollohan. You are going to publish in the next couple 
of weeks in the Federal Register?
    Ms. Browner. Yes, and then 60 days for public comment and 
four public hearings.
    Mr. Mollohan. And then you get the comments back and you 
analyze them, and you estimate coming up with a final rule by?
    Ms. Browner. December 31. Let me tell you why by December 
31. The Clean Air Act requires us to give the car manufacturers 
so many years' notice when there is going to be a change in 
tailpipe standards. It also said that the first year that we 
could require more tailpipe reductions was model year 2004. If 
we are going to meet that 2004, we have to be done this year.
    Mr. Mollohan. I have a couple of questions that I want to 
follow up with regard to that when my next round comes around.
    Mr. Walsh. We will recess until the other two return. Then 
we will reconvene and pick up with where we left off.
    [Recess.]

                        climate change research

    Mr. Knollenberg [presiding]. The subcommittee will come 
back to order. The Chairman will return in due time, and in the 
meantime, we will continue with the questioning process.
    I just want to hit this and then leave it so we can put it 
to bed, Mrs. Browner, but this thing about sound science and 
how it applies to the whole issue of climate change. What I am 
concerned about, and I think you are too, is the politicizing 
of science in the sense that if we manipulate science to 
further a political agenda, that can get us all introuble. 
Although each of us in this room wishes it to be different, it is an 
unfortunate reality and all too often Agency decisions are based on 
skewed or maybe incomplete science.
    I fail to see how the administration can continue to press 
for sweeping climate change initiatives when there are so many 
information gaps on this issue. At times I feel that the 
administration may be putting the cart in front of the horse.
    I know that GAO did a study some time back and they 
criticized EPA, and you can challenge that criticism, but they 
criticized EPA regarding the need to fill some of the 
information gaps. I have a copy of that. They say, for example, 
that more information is needed, more comprehensive information 
on the conditions of the environment to effectively set 
priorities. They say that the data 
systems are often outmoded and that important gaps in the data 
appear to exist.
    If you are searching for the data, this is January 1999.
    Ms. Browner. No, it is not a climate change report, it is 
an information report.
    Mr. Knollenberg. I will turn it around and come back to 
that. I just mention the GAO report because some of this does 
turn back and stare us in the face in terms of this idea of 
information. And the information gaps I know are a separate--
they apply to a number of things. But let me just turn on the 
sound science.

                  g8 meeting environmental communique

    We all believe that there should be peer review and there 
should be criteria, and there should also be complete 
information before you go forward. There is something that is 
referenced in that communique that was signed just a couple of 
weeks ago. This does not apply, I know, to Kyoto. It does not 
apply to the situation at hand, but it is this kind of 
information that you signed onto via environmental communique 
that you signed the 26th or the 28th of March.
    Ms. Browner. You are referring to the G-8 meeting.
    Mr. Knollenberg. There is a statement therein that says, 
``Environmental action should be based on sound science.'' 
Obviously I buy that and you do, too. It goes on to say, ``At 
the same time, however, in accordance with the principle of the 
precautionary approach,'' I don't know who invented that, but 
``according to the principle of the precautionary approach, 
lack of scientific certainty should not be used as a reason for 
abstaining from environmental action.''
    That tells me while they want to have science, they are 
really wondering if they can't get the result that they want, 
they will turn to some other approach. You say that is not 
true. I guess the question that I would raise with you is--does 
any of it give you license outside of the U.S. periphery, 
because I recognize that you are talking with a group of the G-
8 folks, but is there anything in that statement that kind of 
suggests to you that you have some latitude that is prohibited 
by the language in last year's bill which we have referred to 
previously?
    Ms. Browner. No. Nothing in the G-8 communique commits the 
United States to any rule or regulation in an effort to 
implement Kyoto. Absolutely not. Nothing.
    Mr. Knollenberg. This is all external to the U.S. entirely?
    Ms. Browner. Right. The United States has made no 
commitment. I represent the United States in these meetings. We 
are extremely clear. I bring up the language at all of these 
meetings. I point out that our Congress has a point of view on 
this which has been embodied in law and that we adhere to that.
    Mr. Knollenberg. Let me go to another topic entirely. In 
July of 1997 you finalized a new ambient air quality standard 
for particulate matter. During the course of the debate over 
the standard, several Members, including Tom Bliley, requested 
a copy of the data used from two key long-term studies used in 
developing that standard.
    Ms. Browner. Ms. Northup asked about that.
    Mr. Knollenberg. Did she ask if EPA waived its rights to 
that data?
    Ms. Browner. It is a lengthy answer. I am happy to make the 
answer.
    Mr. Knollenberg. If it is going to be lengthy, let me 
suggest if it has been discussed previously, let me hold on 
that to get some information on it, and then make a 
determination as to whether or not I want to go into it. If I 
go, I will do it in writing.

                         environmental justice

    Let me go to environmental justice.
    Ms. Browner. Okay.
    Mr. Knollenberg. I know this is a very sensitive issue and 
EPA has struggled with it and we struggled with it and we have 
worked together.
    Ms. Browner. Yes.
    Mr. Knollenberg. And last year this subcommittee prohibited 
EPA from implementing the flawed interim guidance until a final 
guidance is used, a prohibition that I note that the President 
has deleted from his budget. For some time EPA has been 
searching for a way to adjudicate environmental justice claims, 
but I have some concerns and I am going to share those with you 
about the process that your agency is deliberating.
    One of the concerns raised last year was by going through 
the guidance process versus rulemaking, there were several 
procedural steps that may be left out. For example, working 
with the SBA on small business panels to determine the impacts 
of such a policy on small business would be one of those.
    In fact, in January 1999, a letter dated January 20, 
nonpartisan GAO issued an opinion which stated that the interim 
guidance constitutes a rule under SBREFA. That is the Small 
Business Regulatory Enforcement Fairness Act.
    Ms. Browner. Yes. We work closely with them.
    Mr. Knollenberg. And it is subject to congressional review. 
It seems to me that clearly EPA is going through some 
rulemaking. Now, do you envision this guidance as binding?
    Ms. Browner. May I have just a moment, maybe?
    Right now there is well-recognized agreement that parties 
can file civil rights claims with EPA. And we have had a number 
of them filed.
    While we were working in a public forum to develop a whole 
policy and ultimately final guidance on these issues, we didn't 
want to sit on these specific cases because generally they 
involved permits for operations of a particular facility.
    So what we did--and maybe this was wrong, but I hope people 
can understand why we did it--rather than make decisions on 
these individual complaints that were filed without anyone 
knowing what our thinking would be as we considered them, we 
put out the interim guidance with a commitment to change it, 
and to finalize it, but to say to people in the meantime we are 
not going to hold these petitions. It is not fair to the State 
or the communities. It is not fair to anybody.
    We were roundly abused for having done this. And now we are 
doing exactly what we said we would do, we are reviewing the 
interim guidance. But in the meantime, I am still getting 
petitions and I am still legally bound to dispense with these 
petitions and I have to do it within some framework.
    The alternative would be to sit on the petitions, which 
would mean that facilities wouldn't get their permits to 
operate until the entire revision of the interim guidance on 
environmental justice is done.
    I think we have kind of come to a balance here where people 
understand that we do have to address the petitions. I think we 
are doing it in a thoughtful manner. I think generally people 
think our answers to the individual petitions have been solid.
    At the same time, we are moving through the revision of the 
interim guidance and we have a schedule which I can provide for 
the record on how we will manage these in the future.
    [The information follows:]
                       Title VI: Interim Guidance
    The Office of Civil Rights' (OCR) Interim Guidance for 
Investigating Title VI Administrative Complaints Challenging Permits 
revision is not a formal rulemaking. Nonetheless, EPA intends to engage 
in vigorous public involvement as described to the Committee.
    The Interim Guidance is internal EPA guidance that outlines how OCR 
will process and investigate Title VI complaints filed with EPA 
involving allegations of discriminatory impacts from state and local 
government permitting decisions. To ensure full public awareness of 
EPA's approach to these complaints, EPA released the Interim Guidance 
in February 1998 and solicited public comment.
    Since the issuance of the Interim Guidance, a number of things have 
been done to ensure appropriate input from a range of stakeholders. EPA 
established a Title VI Implementation Advisory Committee in March 1998. 
The Advisory Committee was comprised of state and local officials, 
tribal representatives, business representatives, environmental justice 
groups, and other interested stakeholders. The Advisory Committee 
recently provided the Agency its report, which contained some very 
helpful information, including a set of consensus principles and a 
description of the spectrum of perspectives of its members on a number 
of issues that the Agency will be considering in the Interim Guidance 
revision process.
    Over the past year, EPA staff have also met with representatives 
from industry, environmental justice communities, and states and local 
governments to discuss their concerns about issues associated with the 
Interim Guidance. I met with representatives from the U.S. Conference 
of Mayors in Detroit last summer and representatives from the 
Environmental Council of the States (ECOS) in the fall to discuss their 
issues and concerns on this important subject.
    As we move toward finalizing this internal guidance for processing 
Title VI complaints, EPA will continue to meet with individual 
stakeholder groups, such as the ECOS, environmental justice groups, and 
industry, to discuss issues of concern relative to the Interim 
Guidance. The comments and suggestions the Agency has received from 
these various sources, including the over one hundreds sets of written 
comments from organizations which have been reviewed as part of the 
revision process, will be considered as we begin the process to revise 
the Interim Guidance. The draft revision of the internal guidance will 
be published in the Federal Register and EPA will accept comments for a 
60-day period. Moreover, the Agency will also hold a series of public 
listening sessions across the country to receive input from the public 
during the 60-day comment period.

    Ms. Browner. But it really is that tension between the 
rights of the individual applicant, both on the permit side and 
on the civil rights side.
    Mr. Knollenberg [presiding]. Are you basing your progress 
or movement on the executive order, or the law?
    Ms. Browner. Law. The executive order is a different issue. 
The executive order signed by the President directs every 
agency to look at this issue comprehensively. A Title VI 
complaint is specifically handled under the civil rights law, 
not under the executive order.
    I will show you a difference. There has been a big 
confusion out there. The executive order signed by the 
President speaks to not just minority communities, but also 
poor communities. Under Title VI, under the Civil Rights Act, 
it says nothing about poor communities. I didn't write the 
Civil Rights Act, but when it was written by this body mainly, 
many years ago, it was about discrimination based on race. So 
for example, a Title VI complaint raising the issues of a poor 
community but not a minority community is addressed under what 
the Civil Rights Act says. The executive order goes further, 
but we don't make a Title VI complaint decision under the 
executive order. Absolutely not. We make it under the civil 
rights law.

                    faca and the keystone committee

    Mr. Knollenberg. You are very familiar, I know, with the 
FACA process. Now we have the ``son of FACA,'' which is 
Keystone. I am not real clear what Keystone is, because, 
frankly, I was never really clear on what FACA is.
    Ms. Browner. It is a law we comply with.
    Mr. Knollenberg. FACA has come to, or is coming to an end. 
But Keystone appears to be rising to the occasion.
    Ms. Browner. Yes.
    Mr. Knollenberg. I have a judgment, my own analysis of 
FACA, which I think was heavily weighted in favor of community 
groups and in fact didn't always look at the business side of 
things. You might disagree with that. My point is not to argue 
that.
    Ms. Browner. Yes.
    Mr. Knollenberg. The Keystone process, can you in 25 words 
or less tell me what it is?
    Ms. Browner. Keystone is a nonprofit organization actually 
well-respected by industry, environmentalists----
    Mr. Knollenberg. Who is on that Keystone committee?
    Ms. Browner. We would be happy to provide you that.
    Mr. Knollenberg. I would like to know who they are.
    Ms. Browner. They are known for coming in and working with 
groups to facilitate resolution of difficult issues.
    Mr. Knollenberg. Is this a professional group?
    Ms. Browner. They are professionals, yes.
    Mr. Knollenberg. They don't have any community or business 
bias?
    Ms. Browner. No. They are trained professionals.
    Mr. Knollenberg. I would like to know who they are.
    Ms. Browner. They are trained in conflict resolution.
    Mr. Knollenberg. What is their time frame for existence?
    Ms. Browner. Keystone is an ongoing organization, and a 
number of groups have come to us and suggested, including 
business groups, that because they like the work of Keystone, 
that we should use Keystone to facilitate this dialogue.
    Mr. Knollenberg. You think Keystone will give you something 
that FACA didn't?
    Ms. Browner. It is not a question of will Keystone give it 
to us, it is a question of whether the parties at the table can 
find common ground. Keystone doesn't have any opinion on this, 
Keystone has skills.
    Mr. Knollenberg. Would you provide information on what you 
spent on FACA and what you anticipate spending onKeystone, for 
the reported?
    Ms. Browner. You understand what FACA is. It is a Federal 
law----
    Mr. Knollenberg. I understand.
    Ms. Browner. If we want to meet with people, we have to do 
it pursuant to the law, in public forums, with balance. If you 
have so many people from this, you have to have so many people 
with that.
    Mr. Knollenberg. That is the question I have; it is the 
balance. I am concerned about the balance.
    Ms. Browner. We were never challenged on the balance of 
FACA. People would have been free to sue us, to litigate. That 
didn't happen.
    Mr. Knollenberg. I don't believe FACA has been balanced. I 
truly don't. My staff has attended the meetings and very 
honestly they are skewed in favor of the environmental side. 
Rarely did I see or hear of anything that came to me that 
indicated otherwise. That is what I want to know.
    Ms. Browner. We will give you the makeup of the FACA 
committee.
    [The information follows:]

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

                     national forum for agriculture

    Mr. Knollenberg. Let me get into something too--and I am 
not clear about the time here--but mission creep. I will do 
this as quickly as I possibly can.
    Just about a month ago, the National Forum for Agriculture 
was held at Iowa State University. I am looking at the sponsors 
of that meeting. I see EPA and a host of other agencies and 
local organizations. However, I did not see the U.S. Department 
of Agriculture anywhere on the forum announcement.
    The stated topic of the meeting was the impact of climate 
change on agriculture, in a word or two. The USDA is not listed 
anywhere on the forum. It doesn't take any rocket scientists, I 
guess, to realize when you are discussing agriculture, the USDA 
should lead the dialogue.
    How is it possible that the USDA was ignored?
    Ms. Browner. I am not familiar with the meeting. It is not 
impossible that this university made an application to a number 
of agencies for funding for this meeting, and we are one of the 
agencies that funded it. But I will get you that for the 
record. I don't know. It doesn't sound like it was an EPA 
meeting.
    [The information follows:]

    National Forum for Agriculture and Climate Change at Iowa State

    Iowa State Agricultural Extension put on the National Forum 
for Agriculture and Climate Change at Iowa State. The 
Conference was put together by Stanley Johnson, Vice Provost, 
Iowa State University. EPA Region 7 was not asked to cosponsor. 
Because of a lack of travel funding, no one from Region 7 
attended the conference.
    Iowa State does the inviting and solicits cosponsors. EPA 
contributed $25,000, a small fraction of the cost of the forum. 
USDA was probably not listed as a cosponsor as the Agricultural 
Extension of Iowa State is an arm of USDA. There were numerous 
USDA officials and scientists attending and participating in 
workgroups at the forum.

    Mr. Knollenberg. The fact is, if you are going to discuss 
the environment as it impacts the agricultural industry, you 
would think USDA would be invited, they would be part of that.
    Ms. Browner. I don't disagree, but that is up to the 
sponsors, not us.
    Mr. Knollenberg. And the sponsors elected not to.
    Ms. Browner. I think we should ask the sponsors why USDA 
was not there. I can simply tell you that if we are asked----
    Mr. Knollenberg. I need to know who the sponsors are, and I 
will.
    Ms. Browner. It sounds like it is the university.
    Mr. Knollenberg. I think it goes beyond that.
    Ms. Browner. We provide money to a lot of conferences.
    Mr. Knollenberg. I am told here the sponsors include the 
U.S. Department of Energy, the U.S. Environmental Protection 
Agency, and we know who that is.
    Ms. Browner. Who organized it? If we gave money that 
doesn't mean we organized.
    Mr. Knollenberg. Iowa State organized it?
    Ms. Browner. It sounds like Iowa State University.
    Mr. Knollenberg. You were just an invitee?
    Ms. Browner. That is a common occurrence.
    Mr. Knollenberg. I would like to have that information. You 
can supply that, obviously if you care to, directly or in 
writing, but I would like to have that. I conclude with that.
    Mr. Knollenberg. I presume the Chairman is back. I will 
yield to the Chairman.
    Mr. Walsh [presiding]. I yield to Mrs. Meek.

                          deep well injections

    Mrs. Meek. Thank you, Mr. Chairman. Welcome back again, 
Administrator Browner. We are continually having some problems 
in Florida with something which I have drawn to the attention 
of EPA in prior meetings. It has to do with the deep well 
injections. If you remember, you worked on it the last time.
    Ms. Browner. Yes.
    Mrs. Meek. I am not asking for any particular resolution, 
but I wanted to call this to your attention again.
    Ms. Browner. We have had a number of meetings with the 
States and counties.
    Mrs. Meek. I want to give you a little more background. We, 
as you know--you are a Floridian--we are only a few feet above 
sea level, and we can't dispose of our treated water, 
wastewater, in a river, even in an ocean. Already we put a lot 
of water on our park lawns and golf courses, wherever we can 
find that is reasonable. So we have to rely on injecting 
wastewater in a depth of 3,000 feet under the ground.
    Our problem in south Florida is that water is migrating 
upward to a depth of about 1,500 feet instead of staying down 
at a level where we would like it to stay.
    Last year when I brought this matter, you recused yourself 
from it, if you remember, because you had worked on this issue 
when you were Florida's environmental agency head. Let me know 
if this is true, the assumptions I am making here.
    Instead, you had EPA region director John Hankinson work 
very hard on that--he is not here today--who happened to be in 
Washington at the time, and he stood up and discussed the 
matter before the committee.
    Well, the same problem persists. I wanted to bring it to 
your attention again. FRDEP, working with our Florida cities 
and our wastewater disposal industry, has proposed regulatory 
solutions to this problem which naturally would involve some 
changes in EPA regulations.
    The administrator Hankinson is not here, and I understand 
perhaps you may not be able to discuss this. I don't want you 
to, if you have some constraints. I just want to bring it to 
your attention and maybe at a later date you can talk to me 
about it.
    I just wish you and your staff would send a message to the 
regional office that we are still waiting for a solution to 
this problem in Florida. Broward County is even going to face a 
building moratorium due to this problem, and Dade County and 
Fort Lauderdale and St. Petersburg are all affected. I have had 
some recent meetings with our St. Petersburg area. They have 
the same problems.
    I hope you will consider moving forward as soon as you can 
with the regulatory changes, and take into account this unique 
geological situation that we have in Florida. It gives us 
certain unique limitations that we have on our options for 
dealing with wastewater.
    That is what I wanted to call to your attention, not that 
you need to respond in any way. It is not a challenge. It is 
just bringing up something that I would like to bring to your 
attention and to the staff. I just want you to send a message 
to Garcia back in Atlanta that we still have this problem and 
it is important to us in south Florida and to many areas in 
Florida.
    Ms. Browner. We have worked very closely with all of the 
counties and the State of Florida. Because of clause in the 
Clean Water Act, the changes to the rules, which in any other 
statute would be handled by the institute, need to be handled 
by EPA. We are now prepared to make the changes.
    Mrs. Meek. So that will happen?
    Ms. Browner. Yes. We will make the proposed regulatory 
changes.

                          enforcement training

    Mrs. Meek. Thank you. Ms. Browner, I was also contacted by 
the Florida Department of Environmental Protection concerning 
the elimination of funding for four environmental enforcement 
projects. They feel very strongly about these projects because 
they are concerned about criminal activity, environmental 
criminal acts, and they are concerned about the training of 
their personnel. They don't feel that their personnel can 
receive the kinds of training that they should receive if these 
projects were to be eliminated.
    These are what you call enforcement projects: the Southern 
Environmental Enforcement Network, the Northeast Environmental 
Enforcement Project, Midwest Environmental Association, the 
Western States Project. I understand that Federal funding for 
these organizations will end July 1st of this year. The concern 
that Florida raised with me is these organizations provide 
excellent training for State and local officials who 
investigate this environmental criminal activity. I know that 
these State and local investigators must be of great help to 
EPA here in Florida. Is that the first you ever heard of that?
    Ms. Browner. No, I am familiar with the program. We have 
been phasing it out. The States should have developed the 
expertise. These are programs that are designed to train people 
over a specific period of time. I am encouraged to find out 
that Florida thinks they need to do a better job of enforcing 
environmental laws. We will certainly work with them to do 
that. I think, as you know, there have been a lot of questions 
about Florida's enforcement of some environmental statutes, and 
I think you and I probably share the concern and want to work 
with them in any way to enhance their enforcement skills.
    Mrs. Meek. Good. This is not to let the hammer down on 
Florida, this is just to let you know that people in Florida 
are still concerned about the investigation of these criminal 
parties. I am in no way trying to come in and snoop and let the 
hammer down on Florida. I am an advocate of Florida or any 
other State. I get the feeling you are going to whack them off 
at the pass. I thought I would put in a good word for them.
    Ms. Browner. As you know, it is my home State, and we 
worked hard to help them strengthen their programs. In some 
instances that has not been where they felt they needed the 
encouragement. Criminal enforcement is an important area. We 
run a large criminal operation, unfortunately, in Florida 
because of some particular problems. The Port of Miami has been 
one of the largest sources of illegal CFC entry into the United 
States. We have had a very large operation down there with the 
Justice Department. I am encouraged that the Agency took the 
time to contact you about criminal enforcement. We will work 
with them to make surethey have the resources they need.
    Mrs. Meek. Thank you. You know all about the SEEN, the 
acronym used to describe this particular kind of training.
    Ms. Browner. I don't, no.
    Mrs. Meek. It has to do with quality training from the 
Southern Environmental Enforcement Network. That is the 
acronym.
    Ms. Browner. Yes, I do know that.
    Mrs. Meek. All right.
    Ms. Browner. We will call Florida. Let us work with them to 
find out exactly what they think they are not getting, because 
it may be unique to Florida. We have been phasing out these 
training programs, because we feel like they have served their 
purpose. But if Florida thinks they need something beyond what 
they have already received, let us work directly with them.
    Mrs. Meek. If I may go a little bit further with this, it 
is not only Florida now. These are southern States that feel 
they need more intensive training and more people, according to 
what I am reading here. What they are saying is that this has 
been an ongoing crisis, that it is not just evolving; it is 
something they have needed to pay attention to sooner, because 
this is the only consistent and stable environmental 
enforcement training available to employees of State and local 
environmental agencies on a nationwide basis. This training you 
are doing is the only one.
    I want to be sure you understand what their point is. Their 
point is that few people have been able to take advantage of 
this training over the last 10 years, and it is good training, 
but not enough of them have received it.
    Do I make my point?
    Ms. Browner. I hear what you are saying. I am being honest 
with you, we have asked them. We will work with them. I think 
there may be a little bit of confusion here.
    Mrs. Meek. That is good. It is my job to be sure that that 
confusion emanates to you.
    Ms. Browner. I would suggest that perhaps if you could 
share with us who you heard from in the State, I think that 
would be helpful. I meet with the State directors, I meet with 
the Governors. We are not hearing----
    Mrs. Meek. They even sent me a package of all of these 
people connected with this group.
    Ms. Browner. That would be great.
    Mrs. Meek. Tennessee, New Jersey, Minnesota, the president 
of the National Association of Attorneys General. It goes on 
and on. I will be happy to share this with you. I just want 
some results.
    Ms. Browner. That would be great. We do too. We are 
thrilled they want to do more criminal enforcement.
    Mrs. Meek. Thank you, Ma'am. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Tennessee, New Jersey and Florida, 
right.
    Mrs. Meek. There are many more. I didn't want to take up 
all the time.

                         lead based point rule

    Mr. Frelinghuysen. You struck the right nerves, though. 
Madam Administrator, certainly all of us applaud your efforts 
to implement the Children's Health Initiative within the EPA, 
and I understand you have established a distinguished outside 
advisory committee to advise the EPA on strengthening 
environmental protection for children.
    I have some specific questions that relate to some 
regulations that may or may not be promulgated, which are 
intended to protect children from exposure to potentially 
hazardous levels of lead-based paint. Certainly this is a 
critical issue.
    Ms. Browner. Yes. Mr. Frelinghuysen. Three things need to 
be done. Many small business owners that own apartments have 
suggested to me that there may be in the works some overly 
prescriptive and burdensome paperwork requirements and 
disproportionate fines for paperwork violations of this 
regulation, which may result in deferred maintenance of older 
properties, or require constant maintenance and may result in 
many of these business owners of rental property being driven 
out of business.
    More importantly to us in Congress, obviously, is whether 
this particular approach that the EPA has taken in promoting 
this potential regulation is that it may not in the end 
increase protection for children. First of all, are you 
familiar with this issue?
    Ms. Browner. We have been engaged in a lengthy process to 
reduce lead exposure in children. I talked a little bit about 
it yesterday. First was the requirement for notification at 
point of sale. Then we certainly fight the cleanup experts. Are 
you talking about a current proposal?
    Mr. Frelinghuysen. Yes. This is a new regulation.
    Ms. Browner. We proposed it.
    Mr. Frelinghuysen. Under section 406 of the Residential 
Lead Based Paint Hazardous Reduction Act of 1992. My point of 
asking the question is, wouldn't it be more effective to work 
with groups that agree these issues have to be addressed?--
where do we stand relative to this regulation? Is it about to 
be implemented?
    Mrs. Meek. Would the gentleman yield just a moment? This is 
a question I asked the Administrator yesterday having to do 
with the proposed administrative rule.
    Ms. Browner. Different rules.
    Mr. Frelinghuysen. My point is----
    Mrs. Meek. I asked about the rule. Is that the same thing?
    Mr. Frelinghuysen. The Administrator is shaking her head. 
My issue is if the people who own these apartments and the 
people who are likely to do the work--contractors, painters, 
electricians and plumbers--would your staff that are working on 
this be willing to meet with some of these people to get some 
of their best advice as to how best achieve your objectives 
without bringing down the whole house of cards and in fact 
potentially forcing people out of business?
    Ms. Browner. Absolutely. When did Congress pass the lead 
law--5, 6 years ago, 7 years ago.
    Mr. Frelinghuysen. 1992.
    Ms. Browner. There was a whole set of things we were 
required to do. We have had a public schedule that we have been 
working through to honor the requirements of that law.
    When you first started asking the question, I thought you 
were asking, you said 406(b), I thought.
    Mr. Frelinghuysen. I said 406. I didn't specify.
    Ms. Browner. That rule is done. The 406(b) rule was 
finalized in June of 1998. That is what confused me. I thought 
it was a different issue from Ms. Meek. I actually think what 
you may be asking about--and correct me if I am wrong--is what 
we refer to as the disposal rule,which is a different section.
    Mr. Frelinghuysen. Whatever rule it is.
    Ms. Browner. Some are done and some aren't.
    Mr. Frelinghuysen. If there are people that are 
knowledgeable----
    Ms. Browner. We will meet with them.
    Mr. Frelinghuysen. So the whole issue of rushing to 
promulgate things, you would be willing to meet before you 
proceed to implement, with some of the very people who have 
some knowledge that in fact could help you achieve your 
objective.
    Ms. Browner. Yes, we are more than happy to meet with 
people. We are under some court-imposed requirements to get on 
with our work, but nothing is going to happen next month or the 
month after. There is time to meet with people.
    I do now think you are all talking about the same rule. It 
is a rule that children's advocates think we should be 
stronger. I think the people who actually do the work would 
like some more flexibility. We are trying to resolve this.
    Mr. Frelinghuysen. There are all sorts of notification 
rules here for tenants as well.
    Ms. Browner. Are you talking about notification rules or 
disposal rules?
    Mr. Frelinghuysen. Notification.
    Ms. Browner. The residential lead-based paint disclosure 
rule was finalized in March of 1996. That is not a proposed 
rule. The disposal rules are proposed at this point. That is 
the question Ms. Meek asked about; right.
    Mr. Frelinghuysen. I think you know what I am driving at. 
Whatever the rule is, if there are players in there----
    Ms. Browner. We will meet with anybody.
    Mr. Frelinghuysen. I would appreciate that.
    Ms. Browner. If there are some particular people, we are 
happy to contact them.

                 lead based paint rapid detection fest

    Mr. Frelinghuysen. Let's do that. Thank you very much.
    In the 1996 Appropriations Act, this committee directed EPA 
to evaluate the reliability of rapid detection tests for lead-
based paint. These tests, which are very affordable and widely 
available in hardware and paint outlets, can provide consumers 
with an immediate answer about whether or not a surface has 
been painted with lead-based paint. Conventional laboratory 
tests are expensive and it takes days and weeks to get test 
results.
    What is the status of this research request?
    Ms. Browner. He is not asking about the pin-prick test. I 
have done the test myself in my house. You are asking about the 
test where you take a piece of paint yourself at home, and it 
looks like chalk, and you put it on it and it tells you whether 
or not it is lead-based. There are two types of tests. There is 
the test of the child and there is the test of the paint. I 
think you are asking about the test of the paint.
    Mr. Frelinghuysen. Well, in terms of what the committee 
asked, where do we stand?
    Ms. Browner. Apparently we have done two different studies. 
Can we answer for you on the record?
    [The information follows:]

                             Lead Test Kits

    EPA's Office of Pollution Prevention and Toxics completed a 
study on the at-home ``rapid response test kits'' and the 
reliability of testing for lead-based paint. These kits were 
not reliable in differentiating between lead-based paint and 
non-lead based paint. As a result of this study, EPA, the 
Department of Housing and Urban Development and the Consumer 
Product Safety Commission do not currently recommend the at-
home ``rapid response kits''.
    EPA refers to the Center for Disease Control for the 
evaluation of portable or rapid response blood-lead tests. We 
have not evaluated such blood lead tests or taken a position on 
them.

                                  mtbe

    Mr. Frelinghuysen. That would be great. Madam 
Administrator, another issue, the Clean Air Act Amendments of 
1992 mandated that for the 10 most polluted metropolitan areas 
in the U.S., gasoline had to contain 2 percent oxygenated 
additives. This is the MTB----
    Ms. Browner. ETBE. There are two different ethers that are 
used.
    Mr. Frelinghuysen. We know and you have heard these 
complaints, they are widespread, that MTBE makes gasoline more 
odorous, causes nausea, sickness, these types of issues. In New 
Jersey, we have over 400 wells and several lakes that have been 
contaminated with MTBE. I understand that the EPA has just 
recently listed MTBE as a contaminating chemical. California, 
Maine, North Carolina, and Alaska have all experienced similar 
contamination and are phasing out its use in fuel. One of my 
colleagues from New Jersey introduced a bill to eliminate its 
use as a fuel additive.
    I would like to know what your agency is doing about MTBE. 
Will you insist on its continued use, and what are the 
alternatives?
    Ms. Browner. Very quickly, MTBE and the oxygenate 
requirement were put in place in the 1990 law to help reduce 
air pollution, and it has been successful. It certainly has 
contributed to cleaner air in metropolitan areas across the 
country. However, as you point out, a number of questionshave 
arisen, particularly about MTBE and the means by which it may travel 
through water.
    We have convened a blue ribbon panel; they have had their 
first meeting in January, they will conclude their work in June 
with a recommendation to us. They are looking at the broad 
issues of both the air pollution benefits and the water 
challenges that may exist. We would then, in light of that 
recommendation, make a determination on how to proceed.
    Mr. Frelinghuysen. So we are not at a point where 
potentially it could be banned, but you are obviously----
    Ms. Browner. We have a blue ribbon panel.
    Mr. Frelinghuysen. You are aware this continues to be a 
very sore spot, certainly, and a lot of our constituents are 
upset about it.
    Ms. Browner. Yes.

                          Wetlands Permitting

    Mr. Frelinghuysen. Changing gears, this is somewhat of a 
provision question. New Jersey is one of two States that have 
been delegated responsibility for the administration of Section 
404, Wetlands Permitting Program.
    Ms. Browner. Yes.
    Mr. Frelinghuysen. This is the cranberry question. I don't 
want to give an advertisement for cranberries, but that is 
something I drink on a fairly regular basis, cranberry juice. 
But why not?
    We have a lot of cranberry growers in our pinelands. I 
understand that our State has proposed a draft on two occasions 
modeled on the nationwide general permit approved by the EPA 
and the Army Corps. Despite several years of effort on all 
sides, we still don't have a valid permit approved.
    Could you give the committee your assessment of where we 
are on this and when a general permit might be completed to 
allow this important segment of our agricultural economy some 
ability to expand?
    Ms. Browner. We are working on it. We now have both the 
headquarters and the region working together. There was a 
meeting on Monday specifically on this issue. I think everyone 
agrees it was a very productive meeting. I think if you can 
give us a little bit more time, we should be able to resolve 
this.
    Mr. Frelinghuysen. So we are making some----
    Ms. Browner. We had a good meeting.
    Mr. Frelinghuysen. Mr. Chairman, do I have some more time?
    Mr. Walsh. Three minutes.

                          Clean Lakes Program

    Mr. Frelinghuysen. Relative to the Clean Lakes Program, I 
know for the last several years the administration has not 
requested funds for the Clean Lakes Program under Section 314 
of the Clean Water Act. Instead, with the support of this 
committee, the EPA has suggested that these activities could be 
funded under a Section 319 program, the Non-Point Source 
Pollution Program.
    While I understand the Section 319 grants are given out by 
the State, what is the EPA doing to promote cleaning up our 
lakes and assisting organizations and the communities in 
receiving these grants?
    Ms. Browner. If Congress is able to agree with us on our 
request for the 20 percent set-aside, that is more money for 
groups like this, significantly more than could ever be 
provided through the Clean Lakes Program.
    Mr. Frelinghuysen. Wait a second. This gets to the issue of 
existing programs. If you have got a good program, why don't we 
see----
    Ms. Browner. We don't dispute it is a good program, but we 
do believe that it is far, far better for the States to make 
those decisions in terms of which one of these programs is 
actually best for them. We have doubled the Section 319 money 
so States have more money if that is what they want to do.
    Mr. Frelinghuysen. What about actually promoting the 
cleaning up of our lakes? What sort of a track record do we 
have of cleaning up our lakes? If we have a program----
    Ms. Browner. Most of the Clean Lakes organizations, as I 
understand them, do local monitoring, which is one piece of the 
puzzle. EPA's responsibility and our history in terms of 
cleaning up the lakes in this country are everything from the 
work we have done on wastewater, to the work we are doing on 
effluent guidelines, to the work we are now doing on TMDLs, 
total maximum daily loads. All of those efforts are underway at 
EPA, in addition to the commitments that we have made in the 
Clean Water Action Plan.
    If a State wants to provide funding to one of their clean 
lakes organizations, we have doubled Section 319 grants out of 
which they can do that. In 2000 we are back here asking 
Congress to continue the Section 319 grant increase.
    Mr. Frelinghuysen. The problem is that a lot of lakes 
remain uncleaned, and for whatever reason, my State and other 
States often do not focus on cleaning lakes. I know that we 
have these other programs, but in fact why would we have a 
Federal program on the books, for God only knows how long, and 
not have any dollars in it?
    Ms. Browner. The historical funding range for the Clean 
Lakes Program was about $10 to $15 million. Our request for 
Section 319 is $200 million dollars. So there is more money.
    Mr. Frelinghuysen. But the bottom line is a lot of lakes 
are not being cleaned up.
    Ms. Browner. With all due respect, I think clean lakes 
organizations do a good job, but I don't think that it is fair 
to say they are the only thing cleaning up lakes.
    Mr. Frelinghuysen. How much of the 319, Section 319 grants, 
have actually gone to cleaning up lakes?
    Ms. Browner. All of it.
    [The information follows:]

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Mr. Frelinghuysen. Have you ever done an analysis of where 
that money goes?
    Ms. Browner. Yes. It goes into everything from buffer 
strips to wetland restoration to monitoring to plan 
development. We would be happy to show you what States are 
doing with the Section 319 money. We would be happy to show you 
that.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. Mr. Price.

                     Endocrine Disrupter Screening

    Mr. Price. Thank you, Mr. Chairman. Welcome to day two, 
Madam Administrator. I am glad to see you again.
    In yesterday afternoon's session I asked about EPA's budget 
request for implementing EDSTAC's endocrine disrupter screening 
and testing recommendations. I am not sure what you have come 
back with today. Since we do have limited time, maybe we should 
just clear that up for the record. Let me just clarify, though, 
what the nature of my interest in this is, and hope that will 
give some focus tothe information you provide us.
    We talked yesterday about EDSTAC's recommendation that 
there be development and validation of 8 screens and 5 tests 
for determining which chemicals are likely to be endocrine 
disrupters. The crux of what I am interested in is EPA's 
understanding of what the Food Quality Protection Act and the 
Safe Water Drinking Act require of the Agency regarding 
devising a screening and testing program for endocrine 
disrupters; and, related to that, whether or not the funding 
requests we are dealing with are adequate to get that job done, 
and what are the prospects for meeting the statutory time lines 
that have been established?
    Ms. Browner. We will provide all of that for you. As you 
point out we are looking to a combination of laws for the 
authorities, and we will provide the funding and the time 
frames.
    [The information follows:]
                          Endocrine Disruptors
    The Federal Food Drug and Cosmetics Act (FFDCA) requires the Agency 
to ``develop a screening program, using appropriate validated test 
systems and other scientifically relevant information, to determine 
whether certain substances may have an effect in humans that is similar 
to an effect produced by a naturally occurring estrogen, or other such 
endocrine effect as the Administrator may designate.'' Screening should 
also include any other substance that may have an effect that is 
cumulative to that of a pesticide chemical and a substantial population 
may be exposed to them. Also, the Safe Drinking Water Act amendments 
authorize EPA to include as part of the FFDCA screening program other 
substances that may be found in sources of drinking water if a 
substantial population is exposed to them.
    EDSTAC recommended for scientific reasons that EPA use its 
discretionary authority to include as part of the screening program 
anti-estogenic effects, androgenic and anti-androgenic effects, and 
thyroid and antithhyroid effects. Estrogens and anti-androgens behave 
quite similarly and all three hormone systems have a large influence on 
development and growth. They also recommended including commercial 
chemicals and other substances since some of these substances are known 
to be endocrine disruptors and the inclusion of wildlife because 
wildlife rather than humans are the strongest evidence for endocrine 
disruption.
    EPA estimates $38 million over the next few years to implement the 
Endocrine Disruptor Screening Program. This includes $18 million for 
standardization and validation ($16 million in laboratory costs and 2 
million for related program costs), $10 million to screen contaminants 
that are not pesticides or chemicals currently in production, and the 
rest for program implementation. The FY 2001 and FY 2002 resource needs 
are $12 million each year. EPA costs drop in 2003 and beyond to $4 
million year as regulatory implementation shifts the costs of screening 
and testing to the chemical and pesticides industry.
    Although some forward funding of the 2001 funds to FY 2000 would be 
useful and may speed implementation by up to 12 months, the program is 
a large and complex undertaking. EPA has met the August 1998 goal for 
developing the program and will have the standardization and validation 
program fully underway by August 1999. The start of screening and 
testing of pesticide chemicals and other substances must await the 
completion of standardization and validation, as the law requires the 
use of appropriate valid test systems and other scientifically relevant 
information.

    Mr. Price. Is the funding adequate, and what kind of time 
frame are we talking about for getting this work done? How does 
that square with the statutory time lines? So I would 
appreciate that, and I will work with you in getting that in 
good order so we know exactly what we are dealing with in 
writing the fiscal 2000 bill.

         green chemistry program and design for the environment

    Moving on, I have recently become more acquainted with your 
design for the Environment Cooperative Industry Program and the 
Green Chemistry Program. These are cooperative efforts with 
industry. There has been some remarkable research by one of my 
constituents, a professor of chemistry named Joe DeSimone, who 
has a joint appointment at UNC Chapel Hill and North Carolina 
State University involving dry-cleaning technologies. You 
probably know about this.
    Ms. Browner. Yes.
    Mr. Price. Funding for Dr. DeSimone's research came from 
EPA's Green Chemistry Program, and also from the National 
Science Foundation. This basic research led to the development 
of cleaning detergents that dissolve in liquid carbon dioxide. 
Dr. DeSimone has taken his discovery one step further. He is 
quite an entrepreneur. He has founded a company that has 
developed liquid CO<INF>2</INF> dry-cleaning and metal-cleaning 
technologies, and, of course, that is very promising for 
reducing the use of perchloroethylene.
    Ms. Browner. Yes.
    Mr. Price. Now the Green Chemistry Program, the cooperative 
industry projects, are complementary efforts in moving 
industries toward envirommentally-friendly new technologies. As 
an example, the Green Chemistry Program efforts, such as the 
liquid CO<INF>2</INF> and the soaps developed by Dr. DeSimone, 
provide the technological basis for meeting the demand for 
green technologies that these partnerships help engender.
    The generation of this type of new technology and its 
voluntary adoption by industry help obviate the need for new 
regulation--they can do that, and that is the basic idea--while 
helping industry reduce costs, helping deliver products and 
services to consumers more efficiently. So I think these are 
innovative programs and I applaud you for them.
    I want to talk about what you have in mind for the future 
of these efforts and how your funding levels reflect that. It 
seems to me that these are the kinds of cooperative programs 
you would want to support with adequate resources of funding 
and staffing.
    I cannot tell precisely from your submissions for fiscal 
2000 exactly what kind of funding levels you have in mind for 
Green Chemistry and for the design for the environment in 
general. I wonder if you could give me this morning or perhaps 
provide for the record a recent funding history of these 
programs; what exactly is going to be directed towards them as 
you envision the fiscal 2000 program? Obviously implied in my 
question is the sense that these programs should be well-funded 
and that they have enormous promise.
    Ms. Browner. We are asking for $3.9 million in FY 2000 
specifically for the Design for the Environment program. Design 
for the Environment can then also draw from across the Agency 
where necessary. We don't account for that in the funding 
request. OPPTS, where the Design for the Environment program is 
located, also works with ORD and other parts of the Agency.
    The budget request for Green Chemistry, is $1.7 million.
    Mr. Price. How does that compare with the recent 
expenditures for those programs?
    Ms. Browner. Resources for the Green Chemistry have been 
consistent. We have carried this where it is up and down a 
little bit over the last couple of years. We have reduced the 
request for DFE by $1 million for FY 2000. We can show you what 
the work plan is for the next year. These programs are hugely 
successful, and we can show you other similar programs. We can 
show you what our funding is across the board.
    Mr. Price. Well, maybe you can tell me here or give us more 
information about what these programs at their best have been 
achieving. These are pretty modest funding levels.

                           voluntary programs

    Ms. Browner. It doesn't come at the expense of everything 
else we are required to do. With more funding for these types 
of programs, we are better able to pursue these. But 
unfortunately, I think that we have a lot of requirements 
beyond our voluntary programs, and you have been quite 
supportive, but we haven't always enjoyed broad support for 
some of our very successful voluntary programs, be it Energy 
Star or Energy Buildings. There are a whole host of them that 
are really successful.
    Mr. Price. Is the demand out there?
    Ms. Browner. Yes.
    Mr. Price. Is there a range of meritorious projects, 
proposals?
    Ms. Browner. Yes. We turn away efforts, because we have to 
make difficult funding decisions, and we have a lot of 
statutory requirements. We have a lot of work that the States 
want us to do, and we also do these types of programs.
    Mr. Price. What is the approximate ratio of the number of 
projects you are able to fund to those you would like to fund, 
those that have merit?
    Ms. Browner. We can get that for you. Right now, through 
the Design for the Environment partnerships, we are working 
with ten industries, including 150,000 small and medium 
sizedbusinesses. The work we have done with your constituent on dry-
cleaners will enable us to reach other dry-cleaners.
    Some industry sectors that we are focusing on in 1999 
include printed wiring boards, garment textile care, which 
would be dry-cleaning, and wall paints. We are also working 
with Saturn car manufacturing on a supplier initiative. These 
progams really run the gamut.
    Mr. Price. Well, if you do have some way of estimating the 
universe of proposals and prospects that you are working with 
versus what you are actually able to fund, please provide that 
for the record. Am I right in assuming that one of the purposes 
here is to achieve, on a voluntary basis, what might otherwise 
have to be achieved by regulation? In other words, to provide 
incentives for developing friendly technologies which then 
obviate the need for regulation?
    Ms. Browner. I think ``obviate'' is the word here. Our 
voluntary programs have different focuses. Design for the 
Environment has pollution prevention focus, so it is not 
necessarily streamlining or changing regulatory requirements, 
as are some of the other programs. In this program it is 
obviating. By preventing the pollution, you no longer have the 
emissions, you don't have to turn to the more traditional 
regulatory programs.
    Mr. Price. People who are familiar with the program have 
reported to me that there actually is an international aspect 
to all of this.
    Ms. Browner. Yes, there is.
    Mr. Price. The Green Chemistry Program in particular is 
viewed by its international counterparts as a global leader.
    Ms. Browner. Yes.
    Mr. Price. How do we disseminate this internationally, or 
to what extent do you attempt to do that?
    Ms. Browner. We work in a number of different international 
organizations, including the FECD and other organizations who 
have an environmental agenda or an environmental arm.
    Yes, the Green Chemistry Program is known outside of the 
United States. It is a popular program. It is helpful to us 
when you deal with an industry such as that, that has worldwide 
operations. Not only do other countries learn from us, but we 
learn from other countries.
    In the chemical arena, there is a very large international 
effort in on-going activities, and we can work quite nicely 
across borders on those issues.
    Mr. Price. Well, I know you have a lot on your plate, but I 
do think this is a very constructive program. I don't think it 
is as widely known as it should be. I would say the agency has 
not exactly made a resounding case for it in this year's budget 
submission.
    Ms. Browner. We like it. We will develop a better write-up.
    Mr. Price. Why don't you give us some material on that? 
Let's work together on seeing what kind of budget level is 
feasible and could be well-utilized.
    [The information follows:]

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Ms. Browner. That would be great. Thank you.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Sununu.

                      ozone transport regulations

    Mr. Sununu. Thank you, Mr. Chairman. Administrator, could 
you speak briefly about the Agency's current status of the 
Agency's proposed rules dealing with ozone transport? To what 
extent have those been implemented and what is the Agency's 
plan for funding support to complete the implementation of the 
ozone transport regulations?
    Ms. Browner. Probably the two largest pieces right now are, 
one, the notice to the States for a State implementation plan, 
that is referred to as the SIP call. And we are in the throes 
of that, with the States as I mentioned yesterday. There is 
obviously litigation on all sides of that issue, generally 
falling out along geographic lines, the Northeast taking one 
position and the Midwest taking another position.
    The other issue I should mention to you is the Section 126 
petitions that have been filed by the northeast States. I think 
New Hampshire is one of the 126 petitioners. I know New York 
is, New Jersey is, and essentially they are preserving their 
rights under the Clean Air Act to target individual facilities, 
should the SIP call not go forward for any reason. At this 
point in time, it is our intention to move forward with the SIP 
call. However, we arein litigation on the SIP call.
    Mr. Sununu. What is the timetable for States to submit the 
plans?
    Ms. Browner. September.
    Mr. Sununu. All right.
    Ms. Browner. The States that have filed the 126 are 
Connecticut, Maine, Massachusetts, New Hampshire, New York, 
Pennsylvania, Rhode Island, and Vermont.
    Mr. Sununu. That would obviously allow them to litigate, 
should the agency and the States not have the wherewithal to 
implement the SIPs?
    Ms. Browner. No one ever questioned my wherewithal on 
ozone, but you never know.
    Mr. Sununu. We are talking about transport, not just ozone.
    Ms. Browner. Don't worry. I think the real issue here--and 
we have worked closely with your State and the OTAG States on 
this--is if a court were to strike down the SIP call, the 
northeast States felt it was important that they retain their 
rights. Under another section of the Clean Air Act, have 
exercised those rights and parked them for the moment while we 
try and do it through the SIP.
    I don't know what position your State takes. I will tell 
you when I look at this issue broadly, the SIP call is going to 
get us the most common-sense, cost-effective, commonsense 
solutions. But if for some reason the court throws it out, your 
State has protected itself.
    Mr. Sununu. Well, there are two concerns, I would imagine. 
One perhaps is that some court throws it out, but the other 
that States don't comply, that they don't put together 
effective plans, or a delay in submitting plans.
    Ms. Browner. That is fair.
    Mr. Sununu. To what extent has that been raised as a 
concern within the Agency, and what is your level of confidence 
that States are going to comply with the submission, with a 
timely and effective submission?
    Ms. Browner. There is another part of the Clean Air Act 
which can also kick in; which is, if a State fails to submit a 
timely and effective State plan, then the law provides for a 
Federal Implementation Plan.
    Historically, for example, this issue arose at the 
beginning of this administration out in California. The choices 
that the EPA can make, the menu of options we choose from, is a 
shorter list than the ones the States can choose from. So 
States, when they see the choices we would be making which 
affect their States, do tend to move back, as California did, 
and say, ``Fine, we will do it ourselves, because we can 
probably make a better set of choices for our people.'' We 
would like to make the same set of choices the States make, but 
the law wasn't written that way.
    The general counsel is reminding me that we did, at the 
same time we issued the SIP call, issue the notice. So we 
backstopped with the FIP, Federal Implementation Plan, if the 
State fails to do----
    Mr. Sununu. For those States that fail to submit----
    Ms. Browner. That is sitting there too.
    Mr. Sununu. The Federal plan is finalized, or is that still 
in development?
    Ms. Browner. We would attempt to finalize it in September, 
in conjunction with the SIP.
    Mr. Sununu. Wouldn't it make sense to finalize it prior to 
the submission of the States' plans? Don't you think that would 
be a nice incentive for those States that might be----
    Ms. Browner. That would be your perspective. Mr. Mollohan 
probably has a different perspective.
    Mr. Sununu. I think in the interest of sound planning, Mr. 
Mollohan or anyone else with an interest in this issue would 
like to know what the Agency's issue is going to be prior to 
the submission of the plan.
    Ms. Browner. It is proposed. You can read it.
    Mr. Sununu. So the final plan has been proposed, but----
    Ms. Browner. The proposed plan has been proposed.
    Mr. Sununu. The proposed plan has been finalized.
    Ms. Browner. No, no, no.
    Mr. Sununu. I appreciate the distinction that it isn't the 
final rule in the governmental sense.
    Ms. Browner. It is not; that is correct.
    Mr. Sununu. At this time, I would like to yield to Mr. 
Frelinghuysen for follow-up to his earlier question.

                         lead-based paint rule

    Mr. Frelinghuysen. I just wanted to clarify the discussion 
about Section 406, my question on the residential lead-based 
paint, getting back to that. I was talking about 406(b), not 
the rule Mrs. Meek was referring to. Evidently there is a new 
residential notification, which means that anybody who owns an 
apartment would have to send out literally hundreds of notices 
every time they wanted to repaint or make a change in some sort 
of a residential apartment property.
    This a new residential notification rule for renovation and 
remodeling that was made final in June of 1998 and will become 
effective on June 1st, 1999.
    My question to you, Madam Administrator, is would the EPA 
be willing to delay the effective date to meet with some of the 
stakeholders and discuss possible alternatives? You have 
indicated that you would be so inclined. But since there is a 
date specific of June 1st, would you be willing to delay the 
effective date until you can meet with some of these people and 
get their point of view? If, in fact, the objective is to 
protect children, why not even list some of the very people 
that can make it happen?
    The proposal is paperwork ridiculous, which on the surface, 
from what I have read of it, it appears to be incredible, all 
sorts of supernotifications every time there is some sort of 
remodeling. This is a crushing thing, and I think does not 
really achieve your objective.
    Ms. Browner. With all due respect, I don't think we can 
agree to change the date. We are certainly happy to meet with 
people. If there are adjustments to be made in the rule that 
provide all the protections but streamline the requirements, we 
are happy to look at that. But the truth of the matter is, far 
too many children still suffer lead poisoning in this country, 
and they suffer it because their parents, their care providers, 
are not notified when dust, lead dust, is going to be in the 
residence. That is the desired outcome of this rule.
    Mr. Frelinghuysen. This is not a new issue. I assume this 
has been on the drawing board for the last 10 or 15 years. I 
wasn't born yesterday, but I suspect it would be important if 
you have a rule that is basically promulgating requiring a 
notification for every repair be kept for 3 years at the risk 
of incurring a fine of $25,000 for noncompliance----
    Ms. Browner. That is a statutory fine. It is not EPA.
    Mr. Frelinghuysen. I understand that. Simply changing a 
light fixture in the lobby of a 300-unit apartment building 
would generate 300 notices, which would have to be kept for 3 
years.
    Ms. Browner. That is not required by the rule. We will 
clarify any confusion on this matter. The rule requires that 
occupants of the apartment are handed a pamphlet before 
renovation commences.
    Mr. Frelinghuysen. How often would those pamphlets be 
required?
    Ms. Browner. Pamphlets are required whenever lead-based 
painted surfaces are disturbed. Changing a light bulb doesn't 
meet this requirement. This is to make sure that when lead dust 
is going to be disbursed into the child's environment, the 
parents will know.
    Mr. Frelinghuysen. Obviously everybody here wants to 
protect children. But if you own an apartment complex, one has 
to assume preventive maintenance requires work to be done all 
the time. It has been suggested to me that what you are about 
to implement in June would require an excessive amount of 
notification in any building that has 300 units. There are 
going to be repairs all the time. The question is whether a 
minor repair requires a whole new flood of paperwork every time 
that apartment owner seeks to do something which, in fact, is 
designed to improve living conditions.
    Ms. Browner. Our intention is not unnecessary paperwork. 
Our intention is simply to provide a level of protection for 
children.
    Mr. Frelinghuysen. Why are you fixated on June 1st?
    Ms. Browner. We have delayed it once, and kids are not 
being protected. Kids deserve to be protected. That is what 
Congress intended.
    Mr. Frelinghuysen. What happened during the last delay? 
Were kids unprotected during the last delay?
    Ms. Browner. Yes. I don't think they should be. You and I 
disagree on that.
    Mr. Frelinghuysen. I am just suggesting that if you want to 
enlist the cooperation of the people, who in some cases may own 
apartments that need attention, this is a pretty good way to 
enlist their cooperation.
    Ms. Browner. We work closely with the building managers, 
and the real estate industry. The real estate industry joined 
us when we signed the rule and announcement. If you have some 
constituents who are concerned, we will discuss this with them. 
I have found in some instances there has been genuine confusion 
about the requirements. We are happy to help sort through that. 
But I don't want to leave the hearing with an impression that 
we are willing to delay this requirement. We have delayed it 
once.
    We do think it is an important step in providing a level of 
protection for children. A lot of the children--and I can get 
you numbers on this--who experience lead poisoning, do live in 
urban housing, city centers. They tend to live in apartment 
buildings.
    Mr. Frelinghuysen. I think I know that.
    Ms. Browner. This is important.
    Mr. Frelinghuysen. I think I know that well enough. All I 
am saying is at times your Agency acts and you don't often, I 
think, understand the practical effect of a lot of things.
    Ms. Browner. I have to disagree with that, with all due 
respect.
    Mr. Frelinghuysen. This is my time, but that is my opinion. 
Thank you very much.
    Ms. Browner. Thank you.
    Mr. Sununu. Actually, it is my time. Technically it is my 
time. I was done with my questioning, but I want to clarify a 
point that was made during Mr. Frelinghuysen's questioning. You 
did state, though, that this paperwork would be required 
anytime a landlord paints, sands, or refinishes; is that 
correct?
    Ms. Browner. What I said is that notification is required 
when a lead-based painted surface is disturbed. That is our 
concern.
    Mr. Sununu. And those are activities that would require the 
filing of this paperwork.
    Ms. Browner. I will be happy to respond very specifically 
in writing.
    Mr. Sununu. Then I am misunderstanding. I think that is a 
very simple and direct question. Either those are activities 
that would require this paperwork, or they are not. That is 
obviously the concern that the housing owners that have raised 
this issue have.
    Ms. Browner. There are two different issues there. One, is 
when a tenant is notified. The second is recordkeeping, 
specifically the records a landlord is required to keep. I hope 
we would all agree, that if a landlord is coming into the 
tenant's apartment, sanding walls that are known to have lead 
paint, that the tenant should be notified.
    That is the issue I was speaking to. In terms of the 
recordkeeping, which is what you are now asking me about, we 
need to respond in writing to you about what kind of records 
the landlord is required to keep.
    [The information follows:]
        Recordkeeping Requirements for Landlords--Section 406(b)
    The regulations issued under section 406(b) of the Residential Lead 
Paint Hazard Reduction Act of 1992 require persons who perform 
renovations on most pre-1978 housing to provide owners and occupants of 
the housing with lead hazard information prior to commencing the 
renovations. The regulations apply to landlords, employees of 
landlords, and independent contractors who engage in renovation 
activities. Landlords are responsible for providing lead hazard 
information only if they or their employees perform the renovations.
    Section 406(b) permits landlords to provide the required lead 
hazard information to tenants using a variety of methods. Landlords are 
free to choose whichever method is most convenient. The specific 
recordkeeping requirements applicable to landlords depend on the 
location of the renovation:
    For renovations performed on the interior of an apartment, the 
landlord needs to retain one of the following records:
    1. A written acknowledgement of receipt of an EPA-approved lead 
hazard information pamphlet from an adult occupant of the apartment, or
    2. If mailing pamphlet, it must be sent with a certificate of 
mailing "7 days before renovation, or
    3. If an adult occupant was unavailable or unwilling to sign an 
acknowledgement when delivery was attempted, a signed and dated 
statement from the deliverer indicating (a) that a pamphlet was 
delivered to the apartment and (b) why an acknowledgement from an 
occupant was not obtainable.
    For renovations performed in common areas (e.g., hallways, lobbies, 
stairwells) of an apartment building with more than 4 units, the 
landlord needs to retain a signed and dated statement describing the 
steps performed to notify occupants of the building of the renovation 
activities.
    All records maintained under section 406(b) must be retained for 3 
years after completion of the renovation.
                      constituent meeting request
    EPA staff have been in contact with Rep. Frelinghuysen's 
constituents who presented the concerns over the 406(b) regulations, 
and are presently arranging a specific time to hold a meeting to 
discuss their concerns.

    Mr. Sununu. So you don't know if the regulation that will 
be finalized on June 1st----
    Ms. Browner. It has already been finalized a year ago.
    Mr. Sununu. You don't know if it would require 
recordkeeping each time a landowner paints, sands, or 
refinishes? You don't know the answer to that question?
    Ms. Browner. It does require recordkeeping. But I want to 
be absolutely specific in my response.
    Mr. Sununu. Thank you.

          food quality protection act: pesticide registration

    Mr. Walsh. Thank you. I have some questions that I would 
like to ask on pesticide registration. Under the Food Quality 
Protection Act, EPA is charged with meeting a number of 
resource-intensive requirements. Specifically, EPA must 
continue the registration, reregistration of existing 
pesticides mandated in 1998, reassess all existing tolerances, 
and establish tolerances when an emergency use permit is 
granted.
    Since passage in 1996, it appears that re-registering new 
pesticides and new pesticide uses suffered the most. In other 
words, there were fewer of those since the law passed.
    There is real concern in the agricultural industry that we 
are delicensing a lot faster than we are relicensing or 
offering new licenses for new chemicals. Would you care to 
respond?
    Ms. Browner. Let me respond on pesticide registrations and 
then on the tolerances separately. On the registrations, in 
1998, the registrations included what we would refer to as 13 
conventional pesticides; 14 safer, and a total of 27 I think 
were on track for the commitments in terms of reducing the 
amount.
    Mr. Walsh. In 1995, there were 40; 17 and 23.
    Ms. Browner. Right. I think also the question is, how many 
are we getting and how long are we taking once we get them? We 
have reduced from 38 to 14 months, on average, the registration 
time.
    Mr. Walsh. Thirty-eight to 14 months.
    Ms. Browner. For the safer, we have gone from 38 to 14 
months. That is what we committed to Congress to do, which is 
drop the amount of time it took us to move a safer pesticide 
through the registration program.
    Mr. Walsh. So you are saying there is no backlog----
    Ms. Browner. No, there are always new ones coming in.
    Mr. Walsh. What is the backlog, do you have any idea?
    Ms. Browner. We have 50 applications we are now working on. 
Twelve of them are bio.
    Mr. Walsh. Any consideration being given when you eliminate 
a certain application for a certain----
    Ms. Browner. On the tolerance side?
    Mr. Walsh. Well, I am going to ask you a general question. 
You probably can give me a more scientific answer than I am 
prepared for. Say, for example, you are growing onions in 
organic soil and there is a certain critter that you have to 
deal with or a certain blight, or rust or whatever, and EPA 
decides the chemical being used is a carcinogen, for example, 
and it is delicensed.
    Is there any consideration given to any pesticide that has 
that same application or similar application, so that gets 
moved up in the process if you are eliminating one?
    Ms. Browner. Yes. There are transition periods that we can, 
and almost always, use. The example you gave is probably more 
likely to be handled through our Tolerance Program. The 
Registration Program is for the pesticide at large. Then for 
each use of the pesticide on a particular food product--onions, 
apples, whatever--a tolerance is set, how much of that product 
can be used.
    So in that case, in the onions' indication, what we would 
look at is if that particular use is now deemed to be 
inappropriate, what are the alternatives? If there were not 
any, and we can provide a transition for the farmer to move to 
the alternatives--this is actually an issue that has actually 
arisen. If there are no existing alternatives, but we have in 
the queue an alternative, we can move it along more quickly.
    Mr. Walsh. So there is a consideration for that, because 
there are real practical problems out there that this creates 
when you have got only one way to treat a leaf hopper and there 
are millions of them in your onions or in your field or 
whatever, you have to have a way to deal with that.
    Ms. Browner. The combination of the transition periods that 
we can provide from when we notify the manufacturer that that 
particular use or that particular product will have to be 
limited, and then our ability to move something more quickly, 
an alternative more quickly through the registration. The 
tolerance reviews, too, we can change the tolerance.

                            organophosphates

    Mr. Walsh. One of the questions I had was I remember when I 
was a Peace Corps volunteer and we were spraying two different 
families of pesticides, chlorinated hydrocarbons which we no 
longer use, and organophosphates, and I understand 
organophosphates are being eliminated.
    Ms. Browner. No.
    Mr. Walsh. Many of them are being eliminated? As I 
remember, I would not use the chlorinated hydrocarbons when I 
was spraying, even though they were available. These other ones 
broke down rather quickly and they accomplished their task, but 
they were literally gone in a number of days.
    Is it residue problems that they cause?
    Ms. Browner. For the organophosphates, we are involved in a 
broad review of all 42 registered organophosphates, looking at 
the risk associated with each of them, given their current use, 
whether or not that exceeds the risk range, the acceptable risk 
range.
    This is all in a very public process. We have 28 risk 
assessments we have done now that USDA is reviewing. We will at 
some point later this year be recommending to the manufacturers 
reductions perhaps, perhaps some cancellations. None of that, 
however, will occur without reasonable transition time frames 
for the growers, for the farmers. But the science today does 
show us that organophosphates pose some real risk issues and we 
are going to have to reduce the use of organophosphates.
    This is not unique to EPA. This issue has come up in a 
number of scientific bodies and organizations. It is a 
difficult undertaking we are involved in. We are working hand 
in glove with USDA. The primary goals are, one, to provide a 
level of protection to children. A lot of the OPs are used on 
crops that have high kid consumption. Secondly, we want to 
ensure that farmers have the kind of transitions that they will 
need so they can continue to provide the food we all want.
    I want to be clear about this. Nobody at EPA is 
recommending that anybody change their diet. It is important 
that we continue to give our kids a balanced, healthy diet. But 
we do believe that the science says a reduction is going to be 
important to the long-term health of our children, and that 
there are alternatives that can be used, safer alternatives.
    Mr. Walsh. The issue of good science becomes important 
here. Because I think farmers, in my own experience, working 
again in my Peace Corps experience, but also working in the 
production of agriculture which I did a little, and then my 
experience working with farmers since I have been here in the 
Congress making policy, is obviously inputs are expensive. They 
want to limit as much as they can, the use, because they want 
to have a healthy product, they want to save money, and they 
want to spend as little time spraying as they possibly can. So 
the determinations that you make in this process, I think, are 
really important and really helpful to the industry to help 
those individuals to make good decisions on how to treat their 
crops.
    Ms. Browner. And we agree and that is why we are working so 
closely with both USDA, and as they complete their review, we 
want to reach out and work with the farm community, because I 
think at the end of the day they have the best information on 
what it is that they actually do out in the field, and that is 
the most important information, and what they might be able to 
do to meet the risk problems.
    The issue with organophosphates is that they are 
neurotoxins.
    Mr. Walsh. I remember when they explained the differences. 
They said one is DDT and the other one is a nerve gas. Okay.
    Ms. Browner. They are some of the older chemicals. There 
are safer alternatives out there, and we want to work with 
Members of Congress, the farm community and the industry to do 
this in the most responsible manner. It will not be without its 
controversy. These are big decisions, obviously, and I hope 
that we continue to have a big dialogue, an open dialogue about 
this.
    Mr. Walsh. I guess what the industry is asking me to put 
forward to you is they want the same priority placed on 
registering new products as that placed on reviewing existing 
ones.
    Ms. Browner. I think we are doing that. We have just 
increased our funding this year to ensure that we are moving 
these along in a timely manner. Registration is a $4.5 million 
increase on just the registration side as opposed to the 
reregistration.
    Mr. Walsh. I am getting some communication here from my 
colleagues. It looks like if we run a little over now, we 
cannot come back later, although that is a vote.
    I have one sort of off-the-wall question that I wanted to 
ask. Marine engine pollution--air, water, noise--especially as 
relates to these new personal water craft, Seadoos and Suzukis, 
the snowmobiles of the water that are everywhere, is there any 
regulatory issue that EPA has with those?
    Ms. Browner. We have had an ongoing dialogue with the whole 
family of two-stroke engines. It is everything from lawn 
mowers, all those little engines, and we have been sort of 
working through, industry by industry, and we have made some 
real progress. If you buy a lawn mower today, it is a much 
cleaner lawn mower in terms of air pollution than even 2 or 3 
years ago.
    We have already done some outboard motor classes, and are 
continuing to work on others. Some have voluntarily come in to 
work with us to set standards. The issues are twofold--one is 
air pollution. The two-stroke engines are very inefficient. You 
have a lot of air pollution, more than your average car in some 
instances.
    The second issue is in marine fueling. A lot of fuels get 
spilt, and the operation of the engines results in a lot of 
leakage.
    Mr. Walsh. Outboard drive and inboard, too; they expel 
spent fuel and exhaust into the water.
    Ms. Browner. Yes.
    Mr. Walsh. The other issue is they travel in very shallow 
areas of lakes and rivers, which is for habitat reproduction. 
And there is also the issue of noise. Is anyone dealing with 
that?
    Ms. Browner. We don't have authority to deal with noise.
    Mr. Walsh. Who does?
    Ms. Browner. State laws do.
    Mr. Chairman, while we are working cooperatively with 
industry, I want to be clear about this. No one is required to 
replace their engines until they make that personal consumer 
decision; similarly with their lawn mowers. But we believe 
these things turn over on a regular schedule. We want to make 
available to the consumer the cleanest and safest engines, and 
I think we have a good program underway.
    Mr. Walsh. It is a real interest of mine as we work to 
clean up our lakes and rivers, especially with this individual 
water craft business. They are literally everywhere, and they 
are a lot of places that they probably should not be, and it is 
an issue that I would be interested in taking a little closer 
look at.
    Ms. Browner. Right. In Lake Tahoe they are going to ban 
them.
    Mr. Walsh. In New York State, there are a number of lake 
associations that will probably take a look at it as far as air 
and water and noise.
    Ms. Browner. We can do the air and water side.
    Mr. Walsh. I am going to conclude. Mr. Cramer is here.

                        propane tank regulation

    Mr. Cramer. I think I can cover and have you respond or 
your people respond to me.
    I know Carrie Meek and David Price have engaged you over 
EPA's Risk Management Program in propane gas, over the issue of 
the operating tanks of 18,000 gallons or less. The point I want 
to make is that the dealers, the schools, the hospitals that I 
am concerned about, their tanks are larger than 18,000 gallons.
    Ms. Browner. You have a school with a tank larger than 
18,000 gallons? That is one big school.
    Mr. Cramer. And other users as well. Could we dialogue over 
that a lot more, because I am concerned about the June 21 
compliance deadline and just what that would do to the propane 
industry and putting them at a competitive disadvantage to 
other fuels that are not listed.
    Ms. Browner. We estimated the universe of propane tanks to 
be about 33,000. When you exclude 18,000 gallons or smaller 
tanks, two-thirds of the tanks come out of the program. So you 
are left with 10- or 11,000.
    The reason for drawing that line is associated with the 
nature of accidents and the damage that can occur not with what 
the uses--an accident, it doesn't matter if it happens at the 
hospital or at a large dealer, it is still a lot of material 
that is being released.
    We are happy to work with you if some of these--the 
hospitals and schools who don't feel particularly adept at 
doing these kinds of plans need some assistance to do the 
plans. But it is incredibly important, both to your local fire 
stations and your emergency response teams, that they have this 
information so that should an accident occur, which none of us 
want to see, they can respond appropriately. And that is what 
these plans are designed to do.
    Mr. Cramer. When we meet later, I would like to talk about 
the compliance requirements that are placed on those that use 
the storage tanks of 18,000 gallons or more.
    Ms. Browner. Okay. If you have some particular facilities 
in your district--and I say this to any members who are above 
the 18,000--and they are having a hard time understanding what 
they need to do, please let us know so we can work with them 
now and not get into a situation post-June 21st.
    Mr. Cramer. That is why I wanted to come back in here and 
raise the question and not necessarily take up too much time 
since we have this dialogue going. We have to be aggressive 
about that, especially those of us who have the rural areas.
    Ms. Browner. How many----
    Mr. Cramer. I will find out. Thank you. It could be that 
some of my information is wrong, but I don't think so.
    Mr. Walsh. I know that Rodney and Joe both would like to 
ask a question or two. Do you want to try to finish up right 
now, or do you want to go vote and come back and finish up and 
not come back this afternoon?
    Mr. Cramer. For my purposes, I am through, Mr. Chairman.
    Mr. Knollenberg. I can finish quickly and submit questions.
    Mr. Walsh. Rodney?
    Mr. Frelinghuysen. Likewise.
    Mr. Walsh. All right, Mr. Knollenberg.
    Mr. Knollenberg. What I can't get through, I am going to 
submit for the record, Ms. Browner.

                     climate change computer models

    Mr. Knollenberg. Are you familiar with an article in the 
February 5 issue of Science entitled ``Research Council Says 
U.S. Climate Models Can't Keep Up''? It references a national 
research council report which casts significant doubt on data--
--
    Ms. Browner. Is this an editorial that you are referring 
to?
    Mr. Knollenberg. No, it is an article.
    Ms. Browner. Okay.
    Mr. Knollenberg. Really the question that I would like to 
ask: Are you familiar with the computer models that are being 
used and the fact that they have some inadequacies?
    Ms. Browner. I am familiar with the article. Do I fully 
understand all of the intricacies of it? It is a fairly 
complicated issue. I think there is a general understanding 
that the modeling has to constantly evolve as you get more 
information.
    Mr. Knollenberg. It tries to simulate climate, and that is 
the problem. It has been alleged that those computer models do 
not, and they have had to reach out to countries around the 
world to get greater expertise. And maybe it is premature to 
make any great policy decisions is what I am thinking, if we 
are using models that frankly are not held in the highest 
regard.
    What I am going to do in the interest of time is submit 
some additional questions relative to this, but I would like 
your opinion on what the EPA is doing in terms of the models 
that they are doing and whether you concur that there is 
something inadequate with the modeling systems that are being 
used. This is a person's opinion, but it applies, obviously, to 
EPA and others.
    Ms. Browner. We will be more than happy to answer. The 
Department of Energy and the NSF are taking the lead on the 
model development, and so we might want to work with them and 
make sure that you hear from all of us.
    [The information follows:]

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Mr. Walsh. Thank you. Rodney.

                          clean lakes program

    Mr. Frelinghuysen. Would you be willing to support a set-
aside for Clean Lakes? I think the evidence shows that the 314 
program, which is Clean Lakes, has now combined with a 319 
program and really has done nothing to clean up lakes 
specifically.
    Ms. Browner. Well, I think the 319 program and the increase 
in funding to the States has been very successful. I know it is 
something that the States are very interested in us continuing, 
and at this point in time we are going to continue to argue for 
an increase in funding for 319, out of which States can provide 
the clean lakes funding.
    Mr. Frelinghuysen. I would like to include in the record 
some information that refutes that from the North American Lake 
Management Association. Their survey, working with Governors 
and the Environmental Protection Agency, Clean Lakes has not 
gotten anything from this new combined program. Maybe one Clean 
Lakes Program has gotten something nationwide in 5 years.
    Mr. Walsh. Without objection, we will include that in the 
record.
    Unless you want to add something before we close out, we 
are finished.
    We thank you very much for your attendance today. Obviously 
you and your entire group was well prepared. We noted them all 
flipping through their tab books. That was impressive. You did 
a nice job. Thank you.
    Ms. Browner. Thank you very much.
    [The information follows:]


[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]



                               I N D E X

                              ----------                              

                    ENVIRONMENTAL PROTECTION AGENCY

Administrator Browner's Opening Statement........................     2
Administrator Browner's Written Statement........................     7
Agency Budget Request............................................   524
Agency Operating Programs........................................     6
Agency Progress over Past Six Years..............................     3
Agency Restructuring.............................................   176
Animal Feeding Operations........................................   142
Asthma Initiative................................................     5
Better America: Public and Congressional Support.................    21
Better America Bonds: Authorization..............................    21
Better America Bonds.............................................    20
Better American Bonds............................................     4
Brownfields: Prospective Purchasers..............................    28
Brownfields: Showcase Communities................................    96
Chairman Walsh's Welcoming Remarks...............................     1
Chairman Walsh's Opening Statement...............................    13
Chemical Hazard Safety Board: EPA Assistance.....................    98
Chemical Right to Know...........................................   140
Children's Health Initiative.....................................    34
Clean Air Partnership Fund.......................................    72
Clean Air Partnership Fund.......................................    21
Clean Air Partnership Fund: Goals................................    71
Clean Air Partnership Fund.......................................     4
Clean Air Regulation Enforcement.................................   173
Clean Lakes Program..............................................   231
Clean Lakes Program..............................................   199
Clean Water Action Plan (CWAP)...................................     5
Clean Water Action Plan (CWAP)...................................   122
Clean Water State Revolving Fund Request to OMB..................   128
Clean Water State Revolving Fund (CWSRF).........................    13
Climate Change Research..........................................   181
Climate Change Computer Models...................................   223
Climate Change...................................................    36
CO<INF>2</INF> Regulations.......................................    38
Coastal Management...............................................   135
Congressional Earmarks...........................................    15
Congressional Earmarks...........................................    24
Contaminated Sediment Management Strategy........................   147
Coral Reefs Damage...............................................   178
CWSRf............................................................    23
CWSRF: 20% Set-Aside.............................................    16
CWSRF: Adequacy of Funding.......................................    22
CWSRF Budget Request.............................................   127
CWSRF: Impact of Reduction.......................................    19
CWSRF: Impact of Budget Request Reduction........................    14
CWSRF State Match................................................    17
DaimlerChrysler Jeep Plant Certification.........................   143
Deep Well Injections.............................................   193
EDA Grant to the City of Toledo..................................   143
Endocrine Disrupter Screening....................................   167
Endocrine Disrupter Screening....................................   204
Enforcement Compliance Assistance................................    94
Enforcement Training.............................................   194
Environmental Justice............................................   183
Environmental Justice............................................    34
Environmental Justice Budget.....................................    35
EPA Inspector General's Management Issues........................   111
FACA and the Keystone Committee..................................   185
Flood Compensation Bank..........................................   128
Food Quality Protection Act: Pesticide Registration..............   218
G8 Meeting Environmental Communique..............................   182
Global Warming Research..........................................   124
Green Chemistry Program and Design for the Environment...........   205
Greenhouse Gas: Assistance to Argentina..........................   101
Hudson River Dredging............................................   146
IG Management Issues: Employee Competencies......................   121
IG Report: Management Weaknesses.................................   109
Information Office...............................................   177
Key Agency Initiatives for FY 2000...............................     4
Kyoto............................................................    48
Kyoto Protocol...................................................   102
Lakes-Related Funding under Section 319..........................   201
Lead Based Paint Rule............................................   196
Lead Based Paint Rapid Detection Test............................   197
Lead Based Paint Rule............................................   215
Lead Paint Rule..................................................    29
Lead Tests Kits..................................................   198
Mexican Border Program...........................................   136
Minority Contracting.............................................   134
MTBE.............................................................   198
National Forum for Agriculture...................................   192
NO<INF>x</INF> Emissions Standard................................   161
NPL Construction Completions.....................................    79
Organophosphates.................................................   220
Ozone Transport Regulations......................................   214
Peer Review......................................................   123
Peer Review: Number of Scientific Papers.........................    71
Peer Review Process..............................................   126
Peer Reviewed Science: Access to Data............................   125
Peer Reviewers List..............................................    54
Pond Creek, KY, Wetlands Issue...................................   129
Propane Gas Rule: Security.......................................   108
Propane Gas Rule: Impact of Small Users..........................    99
Propane Gas Rule.................................................   109
Propane Gas--RMP Requirements....................................   171
Propane Tank Regulation..........................................   222
Propane Tank Rule................................................    35
Propane Tank Regulation..........................................   169
Questions for the Record Submitted by Congressman Cramer.........   510
Questions for the Record Submitted by Congresswoman Emerson......   514
Questions for the Record Submitted by Congressman Frelinghuysen..   459
Questions for the Record Submitted by Congressman Hobson.........   394
Questions for the Record Submitted by Congresswoman Kaptur.......   491
Questions for the Record Submitted by Congressman Knollenberg....   404
Questions for the Record Submitted by Congressman Sweeney........   518
Questions for the Record Submitted by Chairman Walsh.............   232
Questions for the Record Submitted by Congressman Wicker.........   477
Regional Structure...............................................   175
Reinvention Programs.............................................   172
Research: Peer Review............................................    51
Research Triangle Park (RTP).....................................    49
Science Advisory Board...........................................    52
Science Advisory Board Role......................................   127
Sport Utility Vehicles: Emission Standards.......................   180
Superfund........................................................    25
Superfund: Delisting.............................................    75
Superfund: Potentially Responsible Parties.......................    74
Superfund: Authorization.........................................    27
Technology Transfer..............................................   148
Technology Transfer and CRADAs...................................   149
Title VI Guidance Schedule.......................................   184
Title VI: Federal Advisory Committee and Keystone................   187
Title VI: Agency Process.........................................    35
Toledo and EPA Litigation........................................   141
Toledo Water Treatment Plant.....................................   141
U.S./Mexico Border Infrastructure Projects.......................   137
Underground Storage Tanks........................................   163
Voluntary Programs...............................................   206
Water Programs: Authorization....................................    18
Water Programs: Funding Needs....................................    18
Wetlands Permitting..............................................   199

                                <greek-d>

</pre></body></html>
